<html>
<title> - H.R. 23, THE ``BELATED THANK YOU TO THE MERCHANT MARINERS OF WORLD WAR II ACT OF 2007''</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                H.R. 23, THE ``BELATED THANK YOU TO THE 
                   MERCHANT MARINERS OF WORLD WAR II 
                             ACT OF 2007'' 

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2007

                               __________

                           Serial No. 110-12

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

35-631 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






















                            C O N T E N T S

                               __________

                             April 18, 2007

                                                                   Page
H.R. 23, the ``Belated Thank You to the Merchant Mariners of World
   War II Act of 2007''..........................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Bob Filner....................    46
Hon. Steve Buyer, Ranking Republican Member......................     2
    Prepared statement of Congressman Buyer......................    53
Hon. Harry E. Mitchell, prepared statement of....................    54
Hon. Michael F. Doyle, prepared statement of.....................    54
Hon. Carol Shea-Porter, prepared statement of....................    54

                               WITNESSES

U.S. Department of Veterans Affairs, Bradley G. Mayes, Director, 
  Compensation and Pension Service, Veterans Benefits 
  Administration.................................................    39
    Prepared statement of Mr. Mayes..............................    83

                                 ______

American Merchant Marine Veterans, Inc.:
    Francis J. Dooley, Esq., National President, West Orange, NJ.    12
        Prepared statement of Mr. Dooley.........................    60
    Gloria Flora Nicolich, Public Relations Director and Regional 
      Vice President, Northeast Region, Brooklyn, NY.............    10
        Prepared statement of Ms. Nicolich.......................    59
    James Burton ``Burt'' Young, Regional Vice President, Central 
      Region, Lincoln, NE........................................     7
        Prepared statement of Mr. Young..........................    57
Felknor, Bruce, Evanston, IL, Author, ``U.S. Merchant Marine at 
  War, 1775-1945,'' as presented by the Hon. Janice D. 
  Schakowsky, a Representative in Congress from the State of 
  Illinois.......................................................    25
    Prepared statement of Mr. Felknor............................    71
Gleeson, Mark S., Oakmont, PA....................................    29
    Prepared statement of Mr. Gleeson............................    75
Herbert, Brian, Bainbridge Island, WA, Author, ``The Forgotten 
  Heroes: The Heroic Story of the United States Merchant Marine''    33
    Prepared statement of Mr. Herbert............................    77
Jackson, William, Oakland, CA, Chief Engineer, SS Red Oak Victory 
  Ship...........................................................     8
    Prepared statement of Mr. Jackson............................    58
Just Compensation Committee:
    Ian T. Allison, Co-Chairman, Santa Rosa, CA..................     5
        Prepared statement of Mr. Allison........................    56
    Herman ``Hank'' Rosen, Co-Chairman, San Diego, CA............    31
        Prepared statement of Mr. Rosen..........................    76
Schakowsky, Hon. Janice D., a Representative in Congress from the 
  State of Illinois, presenting the statement of Bruce Felknor, 
  Evanston, IL, Author, ``U.S. Merchant Marine at War, 1775-
  1945''.........................................................    25
Starnes, H. Gerald, St. Augustine, FL............................    15
    Prepared statement of Mr. Starnes............................    64
Willner, Stanley, New York, NY...................................    17
    Prepared statement of Mr. Willner............................    66

                       SUBMISSIONS FOR THE RECORD

American Maritime Officers, Thomas Bethel, President; Timothy A. 
  Brown, President, International Organization of Masters, Mates 
  and Pilots; Ron Davis, President, Marine Engineers' Beneficial 
  Association; and Michael Sacco, President, Seafarers 
  International Union, joint letter..............................    85
American Merchant Marine at War, Tamara Horodysky, Webmistress, 
  Berkeley, CA, statement........................................    86
American Veterans (AMVETS), Kimo S. Hollingsworth, National 
  Legislative Director, statement................................    92
Beaumont, Dean, Scottsdale, AZ, statement........................    93
Brown, Hon. Corrine, a Representative in Congress from the State 
  of Florida, statement..........................................    96
Chomsky, Joseph, East Meadow, NY, statement......................    97
Coughlin, Francis R., M.D., JD, New Canaan, CT, statement........    98
Flury, William B., Eagle Point, OR, statement....................   103
International Organization of Masters, Mates and Pilots, Timothy 
  A. Brown, President; Thomas Bethel, President, American 
  Maritime Officers; Ron Davis, President, Marine Engineers' 
  Beneficial Association; and Michael Sacco, President, Seafarers 
  International Union, joint letter..............................    85
Marine Engineers' Beneficial Association, Ron Davis, President; 
  Thomas Bethel, President, American Maritime Officers; Timothy 
  A. Brown, President, International Organization of Masters, 
  Mates and Pilots; and Michael Sacco, President, Seafarers 
  International Union, joint letter..............................    85
Leback, Capt. Warren G., San Francisco, CA (former Deputy 
  Maritime Administrator, Maritime Administration, U.S. 
  Department of Transportation, 1985), letter....................   104
Mineta, Hon. Norman Y., Washington, DC (former Secretary, U.S. 
  Department of Transportation, 2001-2006), (former Secretary, 
  U.S. Department of Commerce, 2000), (former Representative in 
  Congress from the State of California, 1975-1996), statement...   105
National Association for Uniformed Services, Springfield, VA, 
  statement......................................................   107
Nelson, Hon. E. Benjamin, a United States Senator from the State 
  of Nebraska....................................................   109
Seafarers International Union, Michael Sacco, President; Thomas 
  Bethel, President, American Maritime Officers; Timothy A. 
  Brown, President, International Organization of Masters, Mates 
  and Pilots; and Ron Davis, President, Marine Engineers' 
  Beneficial Association, joint letter...........................    85
U.S. Maritime Service Veterans, Daniel Horodysky, Chief Executive 
  Officer, Berkeley, CA, statement...............................   110
U.S. Merchant Marine Academy Alumni Foundation, Kings Point, NY, 
  Eugene F. McCormick, President and Chief Executive Officer, 
  letter.........................................................   111

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs, to 
      Secretary R. James Nicholson, U.S. Department of Veterans 
      Affairs, letter dated April 30, 2007.......................   112


                H.R. 23, THE ``BELATED THANK YOU TO THE
                   MERCHANT MARINERS OF WORLD WAR II
                             ACT OF 2007''

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:37 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.

    Present: Representatives Filner, Michaud, Herseth, Sandlin, 
Mitchell, Hall, Hare, Doyle, Berkley, Salazar, Rodriguez, 
Donnelly, McNerney, Space, Walz, Buyer, Brown of South 
Carolina, Miller, Boozman, Brown-Waite, Bilbray, Lamborn, 
Bilirakis, Buchanan.

    Also Present: Representative Shea-Porter.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. And we now proceed to our full Committee 
hearing on H.R. 23, the ``Belated Thank You to the Merchant 
Mariners of World War II Act of 2007.''
    I ask unanimous consent that our colleague, Ms. Shea-Porter 
from New Hampshire, be invited to sit at the dais for the full 
Committee hearing.
    (No response.)
    The Chairman. And hearing no objection, she will be allowed 
to do that.
    And I also ask unanimous consent that all members have five 
legislative days in which to revise and extend their remarks.
    (No response.)
    The Chairman. Hearing no objection, so ordered.
    We have several people who are--if panel one would come and 
join us those who are on panel one please join us at the table. 
Several witnesses could not be here. And I ask unanimous 
consent that statements submitted by Mr. Norman Mineta, former 
Secretary of Transportation and former Congressman, Mr. Dean 
Beaumont, Mr. Joseph Chomsky, Mr. Daniel Horodysky, Mr. Warren 
Leback, and the National Association for Uniformed Services, be 
made a part of the hearing record.
    (No response.)
    The Chairman. Hearing no objection, so ordered.
    [The statements appear in the Submissions for the Record.]
    The Chairman. I am sorry. Senator Nelson, who has put forth 
a similar bill in the Senate, was going to be panel one. He is 
unable to join us this morning. So we will go to panel two.
    Let me say to my colleagues, I thank you for allowing us to 
hear this bill this morning. We have been focused on all the 
headlines and all the stories of Walter Reed and others about 
the need to deal with our returning veterans from Iraq and 
Afghanistan in a much more thorough, comprehensive, empathetic 
way. And this Committee is committed to do that.
    Yet we have other veterans going back to World War II, 
Vietnam, Korea, who also have needs and need our support. And 
we will do that also.
    I think many of you know that the Merchant Mariners were a 
vital part of our efforts during World War II. Anybody who 
talks of the greatest generation has to talk about Merchant 
Mariners.
    They made sure that all the equipment, all the food, all 
the supplies, all the ammunition was delivered to our fighting 
forces at the fronts. They suffered casualties higher than any 
other service in the war. And you will hear stories about what 
they were able to accomplish and why they deserve our term of 
heroes. And yet, as one of them said to me, they were so busy 
getting the troops back after the war, that they didn't pay 
attention to what was going on in Washington. And the very 
important GI Bill in 1944 was passed without them included. A 
GI Bill, which we know, that made the middle class in America.
    And I think all of us--I could testify of my own family. My 
father came back from World War II, was able to get an 
education. But we were able to buy a house for very little 
money, which gave us a chance to pursue the American dream.
    The Merchant Mariners were not given that chance. They were 
denied all benefits and only in 1988, as a result of a court 
action, and the plaintiff in that hearing is with us today, 
were they considered veterans. But it was too late for them to 
take advantage of the GI Bill.
    We are talking now about 61 years later. Most of them are 
not even with us today. The ones that are remaining are in 
their eighties, some 90.
    I introduced what I called the ``Belated Thank You to the 
Merchant Mariners of World War II Act of 2007,'' which gives 
them a token compensation basically for all the years that we 
were not able to help. And I would ask that we listen to the 
testimony carefully, that we understand their heroism, and that 
we try to provide for that belated thank you.
    Mr. Buyer, if you have an opening statement, I would be 
glad to hear it.
    [The statement of Chairman Filner appears on page 46.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you, Mr. Chairman. Good morning, and I 
want to thank the witnesses for coming here and your testimony. 
And I also thank you for your service to our country.
    We are here today to discuss the question of equity. 
Whether it is equitable to pay Merchant Mariners, veterans of 
World War II, a thank you payment for their service during the 
war.
    Anyone with even a passing acquaintance of the 
contributions of these Mariners to the war effort cannot doubt 
their bravery. During the early war years, during 1942, more 
allied merchant ships were sunk than built. Yet they sailed on. 
Their cargo helped keep our allies fighting while America 
prepared its full force.
    The law recognized two groups of Merchant Mariners, those 
who served before the Japanese surrender in August 1945 and 
those who joined after that date.
    On January 17th, 1988, Merchant Mariners, who served 
between the start of the war on December 7th, 1941, and the 
surrender of Japan on August 15th, 1945, received full 
veterans' benefits and status. Granting of veterans' status was 
made possible by the GI Bill Improvement Act 1977, Public Law 
95-202.
    The law also created the administrative process by which 
civilian or contract employees could apply to the Secretary of 
Defense for veterans' status to obtain VA benefits. The 
Secretary in turn designated the Secretary of the Air Force to 
be DoD's executive agent to administer this process.
    The first group of Merchant Mariners to have access to VA 
healthcare, they also have access to disability compensation, 
pension, loan guarantee, education, insurance, and burial and 
death benefits.
    On October 10th, 1998, the House passed H.R. 4110, the 
``Veterans' Programs Enhancement Acts of 1998,'' which was 
signed into law on November 11th, 1998. This bill gave limited 
benefits to the post-surrender group of Merchant Mariners who 
served between August 16th, 1945, and December 31, 1946. The 
bill also provided eligibility for burial benefits and 
internment in a national cemetery.
    What is before us today is the discussion of H.R. 23, which 
is entitled, the ``Belated Thank You to the Merchant Mariners 
of World War II Act of 2007.'' This bill would give $1,000 per 
month payment, tax free to Merchant Mariners and their 
surviving spouses.
    Mr. Chairman, this equates to giving these veterans a non-
service pension income, which is something we would not do for 
any other veterans except one group and that would be the 
recipients of the Medal of Honor.
    I must point out that H.R. 23 has no provision to pay for 
the benefits offered under this bill. That means this bill 
cannot pass unless this Committee finds the offsets or Chairman 
Spratt of the Budget Committee provides new funding.
    Yesterday, CBO estimated the bill to cost $40 million for 
the first years and $2.9 billion over ten. In short, thank you 
funds for Merchant Mariners do not exist.
    If equity is truly your objective, I am curious why we are 
not also following your line of reasoning, discussing similar 
payments to 32 other World War II civilian groups that receive 
veterans' status under Public Law 95-202. Consider the Women's 
Air Force Service Pilots, the Women's Army Auxiliary Corps, the 
famed Flying Tigers, and all other groups, which gained their 
status decades after their service. They served loyally, 
selflessly, and courageously. Their service contributed 
directly to the victory in World War II. Yet this bill does 
nothing for them.
    The 2006 edition of Federal Benefits for Veterans and 
Dependents, contains a complete list of these groups beginning 
on page 64.
    Mr. Chairman, you have also promised to pay certain 
Filipino veterans of World War II hundreds of millions of 
dollars from the 2008 budget reserve.
    In fact, there is no money. Yet these honorable, aging 
veterans of World War II in the Pacific, as well as their 
wives, believe in good faith, somehow, that money is coming 
their way, which in reality, is not.
    The difficult reality is that under the PAYGO, money must 
be found. It has not been found for the Filipino veterans. And 
apparently this bill for Merchant Mariners faces the very same 
problem. Set aside the question of just how the figure of 
$1,000 was arrived at--it is still rather curious to me.
    My understanding is, as of right now, that in order to 
receive the $1,000 payment, Merchant Mariners must, according 
to the bill, certify to the Secretary of Transportation that 
they served during World War II.
    My understanding is that all records for Merchant Mariners' 
service during World War II are kept by the United States Coast 
Guard, which has been under the jurisdiction of the Department 
of Homeland Security since 2003. However, the bill requires the 
Merchant Mariners to apply for benefits to the Secretary of 
Transportation.
    So my question is who will certify a Merchant Mariner's 
record? Will it be the Secretary of Transportation, or do we 
need to amend this bill for it to be the Secretary of Homeland 
Security?
    At this point I will pause. And I look forward to the 
testimony of the witnesses. I yield back.
    Thank you, Mr. Chairman.
    [The statement of Congressman Buyer appears on page 53.]
    The Chairman. Thank you, Mr. Buyer. And, again, you raise 
some very good questions. And I hope the panelists might 
address some of them as we go along.
    On panel two we have the co-chair of the Just Compensation 
Committee. A U.S. Merchant Marine combat veteran, Ian Allison, 
who has worked--there is no word I can say how hard you have 
worked to get to this point. So thank you Mr. Allison. You have 
5 minutes.

 STATEMENTS OF IAN T. ALLISON, CO-CHAIRMAN, JUST COMPENSATION 
    COMMITTEE, SANTA ROSA, CA (U.S. MERCHANT MARINE COMBAT 
VETERAN); JAMES BURTON ``BURT'' YOUNG, REGIONAL VICE PRESIDENT, 
   CENTRAL REGION, AMERICAN MERCHANT MARINE VETERANS, INC., 
  LINCOLN, NE (U.S. MERCHANT MARINE COMBAT VETERAN); WILLIAM 
 JACKSON, OAKLAND, CA, CHIEF ENGINEER, SS RED OAK VICTORY SHIP 
 (U.S. MERCHANT MARINE COMBAT VETERAN); GLORIA FLORA NICOLICH, 
    PUBLIC RELATIONS DIRECTOR AND REGIONAL VICE PRESIDENT, 
  NORTHEAST REGION, AMERICAN MERCHANT MARINE VETERANS, INC., 
  BROOKLYN, NY; FRANCIS J. DOOLEY, ESQ., NATIONAL PRESIDENT, 
AMERICAN MERCHANT MARINE VETERANS, INC., WEST ORANGE, NJ (U.S. 
    MERCHANT MARINE COMBAT VETERAN); GERALD H. STARNES, ST. 
   AUGUSTINE, FL (U.S. MERCHANT MARINE COMBAT VETERAN); AND 
  STANLEY WILLNER, NEW YORK, NY (U.S. MERCHANT MARINE COMBAT 
                    VETERAN AND FORMER POW)

                  STATEMENT OF IAN T. ALLISON

    Mr. Allison. Ladies and gentlemen, thank you, Mr. Chairman, 
and members of the----
    The Chairman. Can you make sure his microphone is on?
    Mr. Allison. Thank you, Mr. Chairman, and members of the 
Veterans' Affairs Committee. My name is Ian Allison. I am Co-
Chairman of the Just Compensation Committee, a non-profit, 
unincorporated association of Merchant Marine Veterans of World 
War II, registered with Internal Revenue Service.
    Our 10,800 members have joined together seeking equal 
treatment for all veterans of World War II who shared the loss 
of 20 million people on this earth who participated voluntarily 
or otherwise in this great war.
    I would like to submit as evidence in this Veterans' 
Affairs Committee hearing on H.R. 23, a famous book entitled, 
``A Careless Word, A Needless Sinking,'' by Captain Arthur R. 
Moore. I recognize that at 704 pages, it is too great to become 
part of this electronic record and acceptance for printing. But 
submit it as an exhibit material maintained in the Committee 
files for review and use by the Committee.
    The book accounts for 820 American ships, freighters, 
tankers, passenger and troop ships lost at sea in World War II. 
Over 9,000 Merchant seamen were killed or lost in action, 
12,000 wounded or maimed, and 786 prisoners of war taken by the 
enemy. The majority of these lost souls lay in Davy Jones' 
locker at the bottom of the sea without markers or tombstones 
to show their grave sites.
    What depraved men brand these gallant Mariners we lost at 
sea as draft dodgers? I want to repeat that. What depraved men 
branded these gallant Mariners we lost at sea as draft dodgers?
    As an engineer working in the bowels of a gasoline tanker 
plying the waters of the Atlantic and Pacific and facing the 
German and Japanese submarines, I never met a fellow soldier, 
sailor, or marine, or airmen who would trade places with me in 
a gasoline tanker.
    I would like to tell you the story of the one lost ship 
that I picked at random. The same story could be told of 819 
other ships with death and destruction, the penalties of war. 
The SS Jacksonville, a T2 tanker, built at the Swan Island Ship 
Yards by Henry Kaiser in Portland, Oregon, in 1944.
    On August 30th, 1944, a torpedo hit the ship just after the 
midship house. A fire broke out and the 80-octane gas covered 
the ship stem to stern, in flames. A second explosion broke the 
ship in two. With both parts still burning, the ship sank 
quickly, the stern section sinking the next day. There were no 
lifeboats or raft launch. There wasn't time. Out of the 78 men 
on board, the only two survivors jumped overboard into the 
flaming water and swam away from the ship. They were picked up 
by a U.S. destroyer and escort and taken to Ireland.
    By the grace of God there go I. It could have been my ship. 
I sailed 3 years during the war in the engine room on a 
gasoline tanker built in Portland, Oregon--pardon me--by Henry 
J. Kaiser. I came out unscathed. But 9,000 of my comrades did 
not.
    Why, why were these gallant members of the Merchant Marines 
who suffered the highest casualty rate of the war, with one out 
of twenty-six dying, left out of the 1944 GI Bill of Rights? 
Some warped minds were at work to have engineered this 
travesty. I'm going to repeat that. Some warped minds were at 
work to have engineered this travesty. I can only speculate 
after 60 years of thought and observation. I have come to the 
conclusion in general these three things stirred up jealousy 
and animosity about the Merchant Mariners.
    We had no discrimination in our ranks. Whereby, we accepted 
blacks, Hispanics, and aliens into our ranks. Some of them 
became ship's officers and up to four stripe ranks of captain 
and chief engineers. None of the other services were as non-
discriminatory as the Merchant Marine. Discrimination was still 
rampant in America during the war and seems to be today with 
our Imus situation.
    Merchant Mariners didn't wait to be drafted. We were all 
volunteers. Both Japanese and German Navies took their toll on 
our men both before and after World War II.
    Our all-volunteer crews on the U.S. Merchant ships during 
World War II were union members of one of many union 
organizations representing unlicensed personnel and officers 
alike. None of the other services in the U.S. forces had 
legally incorporated organizations to represent their interests 
as to pay, transportation, living conditions, and more.
    These were all pre-war organizations, which were a great 
boon and offered efficiency to the war effort. There was 50 or 
more shipping companies and ship owners and ten or more unions 
that were the embryo of the World War II Merchant Marine. And 
it was fortunate President Roosevelt recognized that and 
started the Merchant Mariners Organization of World War II.
    I am sure the members of the Committee, after intelligent 
review of the history and facts about World War II, will be 
convinced of the necessity of passing our bill, H.R. 23.
    Thank you for your time in listening to my testimony given 
this 18th day of April 2007. I will be glad to answer questions 
at the appropriate time. Thank you.
    The Chairman. Thank you, Mr. Allison. And thank you for all 
your leadership on this.
    [The statement of Mr. Allison appears on page 56 and the 
referenced book is being retained in the Committee files.]
    The Chairman. Mr. Burt Young who is the Central Regional 
Vice President of the American Merchant Marine Veterans and 
also a combat veteran. Thank you for your service, Mr. Young.

            STATEMENT OF JAMES BURTON ``BURT'' YOUNG

    Mr. Young. Okay. Members of the Veterans' Affairs 
Committee, it is indeed an honor to be able to express our 
views on H.R. 23, the ``Belated Thank You to the Merchant 
Marines of World War II.''
    We are here because we were not treated the same as the 
other services at the end of World War II. We have found we had 
the highest death rate of any of the services. Our death rate 
was one in twenty-six, Marines one in thirty-three, Army one in 
forty-eight, Navy one in hundred and fourteen, Coast Guard one 
in four hundred and eight. Does that sound like we were 
civilians? Apparently the enemy didn't think so.
    As my friend, Captain Matt Drag, stated, ``At no time 
during the war was I called a civilian, only afterward.'' My 
friend, Matt Drag, also wrote on Pearl Harbor Day, ``I was 
Third Officer aboard an American Merchant vessel. At this time, 
I held a commission as Ensign in the United States Navy 
Reserve. At the first port of call, I reported to Naval 
headquarters for duty. I was told, `Stay where you are. That is 
where we need you.' So for following orders, I was cheated out 
of my veteran recognition and benefits. Not only this but for 
my service to my country, I am insulted by being termed a 
civilian.''
    At a Missouri Valley Merchant Marine meeting in Des Moines, 
we were told there were about 36 in line to be sworn into the 
Navy. An officer came by and said, ``We need three of you to 
step out of line and join the Merchant Marine.'' Look how 
unfair they have been treated since the end of World War II 
compared to those that stayed in the Navy.
    At the time of attack, the Merchant Marine had to supply 
one or two men to assist the Navy Armed Guard. When the war 
ended, the Navy Armed Guard walked down the gangway veterans. 
The Merchant seamen on the same ship were not considered 
veterans.
    If Congress would have followed the law at the end of World 
War II, I don't think we would have to be here today. I am 
referring to the Merchant Marine Act of 1936. It states, ``The 
United States shall have a Merchant Marine serve as a naval or 
military auxiliary in time of war or national emergency.''
    We did our part. Did the government honor their part? No, 
they did not. I ask you, with the history you know, did we 
serve as a military or Navy auxiliary in World War II? 
President Roosevelt thought that we did and asked Congress to 
do likewise for the men in the Merchant Marine when the GI Bill 
was passed. Our military leaders felt the same way. I will 
quote our military leaders of World War II. General of the 
Army, Dwight D. Eisenhower, ``When final victory is ours, there 
is no organization that will share its credit more deservedly 
than the Merchant Mariners.'' Fleet Admiral Chester W. Nimitz, 
``The Merchant Mariners has repeatedly proved its right to be 
considered an integral part of our fighting team.'' General 
A.A. Vandergrift, ``The men and ships of the Merchant Marine 
have participated in every landing operation by the United 
States Marine Corps from Guadalcanal to Iwo Jima. And we know 
they will be on hand with supplies and equipment when American 
amphibious forces hit the beaches of Japan itself. We of the 
Marine Corps salute the men of the Merchant fleet.'' Field 
Marshall Sir Bernard Montgomery, ``Their contribution was just 
as important as that of the troops.'' Fleet Admiral Ernest J. 
King, Commander in Chief of the Fleet and Chief of Naval 
Operations, ``Because the Navy shares life and death, attack 
and victory, with the men of the United States Merchant Marine, 
we are fully aware of their contribution to the victory which 
must come.'' General of the Army Douglas MacArthur, ``I wish to 
commend to you the valor of the Merchant seamen participating 
with us in the liberation of the Philippines. With us, they 
have shared the heaviest enemy fire. On these islands, I have 
ordered them off their ships and into foxholes when their ships 
became untenable targets of attack. At our side, they have 
suffered in bloodshed and in death. They have contributed 
tremendously to our success. I hold no branch in higher esteem 
than the Merchant Mariners Service.'' The head of the draft, 
General Hershey said, ``Service in the Merchant Mariners was 
tantamount to the other services.''
    I am one of those that started sailing after August 15, 
1945. And there are those among you who seem to feel that I 
don't deserve full veterans' status. I say nonsense.
    I do not know any of this group that enlisted after August 
15, 1945. We all enlisted during a hot shooting war with no 
knowledge of an atomic bomb that might bring an early end to 
the war.
    When I enlisted, July 13, 1945, at age 17, I was given a 
service number and issued a dog tag. Who has the power to issue 
service numbers besides the United States Government during 
wartime? I think you will agree nobody.
    I think you will also agree that if you were issued a 
service number and a dog tag, you would consider yourself as 
part of the Armed Forces and expect to be treated and honored 
as a veteran when the war ended. So why aren't our service 
numbers honored under training time counted? More shameful 
treatment.
    From the above, you can see that President Roosevelt and 
all of our military leaders thought we should be included in 
sharing the victory which we helped win. While the other 
services were receiving benefits, we have gone over 42 and 52 
years receiving nothing.
    Passage of this bill would help let people know that our 
service was appreciated. And was something we earned during 
World War II. Thank you.
    The Chairman. Thank you, Mr. Young.
    [The statement of Mr. Young appears on page 57.]
    The Chairman. Mr. William Jackson was the Chief Engineer of 
the Red Oak Victory Ship, a combat veteran of the Merchant 
Marines. Thank you, sir.

                  STATEMENT OF WILLIAM JACKSON

    Mr. Jackson. Yes. My name is William A. Jackson. I am 88 
years old and have been working in the Merchant Mariners since 
1935. I still volunteer as Chief Engineer of the Red Oak 
Victory, a 1944 Victory ship to restore it where it was built.
    I am here to ask you to pass this bill, H.R. 23, the 
``Belated Thank You to the Merchant Marine and World War II 
Veterans Act of 2007.''
    I shipped out at the early age of 16 as a busboy on a 
merchant ship, passenger ships and freighters. During the 
summer of 1937, I received the Coast Guard, which had just 
taken over the Merchant Marine, identification card Z-28-28-5. 
I started out shipping through the Union Hall in New York as a 
messman. Although I was--my home was on the West Coast, I 
shipped out of New York, because the National Maritime Union 
had integrated their shipping hall. None of the West Coast 
unions had and wouldn't have until the Fair Practice Employment 
Act of 1960.
    Before the United States entered the war, World War II, on 
December the 7th, I volunteered yeah. I volunteered to sail 
ships loaded with ammunition, tanks, and cargo headed for the 
Red Sea. This was before we entered the war. And took it to the 
canal zone for the British forces. We were--we witnessed two 
air raids where the enemy was trying to hit a cruiser in dry 
dock next to where we were loading ammunition. Before the 
official beginning of war, two Merchant ships were sunk and 
damaged.
    On December the 7th, I was at home in San Francisco when 
Pearl Harbor was bombed. At first I decided I would contact my 
classmates at the Oakland High School. We had had a ROTC unit 
there. And I was the only African-American in that unit. 
Together we went down to the Army recruiting station. And there 
was a mixture of all races there, from Mexico, China, 
Philippines, and Japan.
    I noticed that they called all the other guys and assigned 
them and sent them home. I asked, ``Why? What about me?'' And 
this lady said, ``I'm sorry. But we don't have a place for 
African-American soldiers.'' I felt my heart had stopped to 
think that our teachers had taught us in school that we had the 
right to vote. We were loyal. And we were to defend our country 
in a time of war.
    I became very angry and told them, ``Don't ever try to 
draft me.'' I had just returned from the war zone already in 
the Merchant Marine. I am going back to get a ship. I was never 
called by the draft board. But I had seen more action in the 
North Atlantic and in the Pacific than many of the men in the 
Army and Navy did.
    On December the 9th, I was assigned to the SS Panama and 
continued to sail. On August 1942, I was--a ship I was on was 
sunk in the enemy action. I was hospitalized in Trinidad for 4-
and-a-half months without pay, because when a Merchant ship 
went down, your pay stopped. Everybody else was paid. I think 
people don't realize that.
    During the--when I returned in February 1943, I refused to 
sign on in the steward department. And I had been granted a 
``wiper's'' endorsement for entry rating into the engine room 
by the U.S. Coast Guard. The National Maritime Union supported 
my cause. And I was assigned to a position as a wiper on the 
Exceller, the SS Exceller. I was refused a berth twice by the 
first engineer. But was finally accepted at the insistence of 
the U.S. Coast Guard and the N.M.U. Later in June, after 4-and-
a-half months of abuse by this first engineer, I earned the 
time to sit for my next rating of fireman/watertender. I did 
and passed and continued sailing during the whole war and 
earning ratings of oiler, junior engineer, third engineer, and 
second engineer.
    In November 1963, I was assigned to the hospital ship Hope 
as a second engineer. This ship would go to eight different 
countries and stay 10 to 11 months in each country. I served as 
a--it served as a hospital ship with 125 beds, teaching local 
medical personnel modern medical practice. The staff on the 
ship was 350 and would rotate--and 50 doctors rotated every 2 
months. The ship's total crew was 76 and 26 in my engine room. 
Our mission was to keep the ship powered and operating as a--as 
they had three operating rooms, an ICU, two pediatric wards, 
two men's, two women's wards, and a clinic.
    During this time, I earned the promotion to first engineer 
and then chief engineer. The hardest job I ever loved. 
Officially I retired in 1985. But returned to serve in Desert 
Storm for two 7-month tours.
    The U.S. Merchant Marine was formed by the War Shipping 
Administration supplying manpower for the vast number of 
merchant ships that will be--from all over the world--brought 
supplies all over the world to our allied forces.
    To do this, it took as many as 230,000 seamen to man 5,000 
ships that were built. Ships sailed at all ratings for seamen, 
deck, engine and steward department.
    The Merchant Marine was the first to integrate. It may 
not--it may have taken the union and the Coast Guard to make 
the companies give me the right to sail in the engine room. But 
did--but it did integrate the ships in the Merchant Marine. And 
the Merchant Marine schools integrated in 1942 and 1943. The 
Merchant Marine was the first to integrate and my dream came 
true from a messboy to chief engineer.
    Today, April 18th, 19--I mean, 2007, I appear before you 
for this passage of this bill. Thank you.
    The Chairman. Thank you, Mr. Jackson. Thank you for 
bringing alive the history of the time. I was--how old were you 
when you served in Desert Storm?
    Mr. Jackson. Pardon me?
    The Chairman. How old were you when you served in Desert 
Storm?
    Mr. Jackson. Seventy-two.
    The Chairman. Wow.
    Mr. Jackson. I came out of retirement. I was living in 
Costa Rica.
    The Chairman. Thank you.
    [The statement of Mr. Jackson appears on page 58.]
    The Chairman. Ms. Gloria Flora Nicolich who is an author 
and a widow of a Merchant Mariner of World War II. Thank you 
for being here.

               STATEMENT OF GLORIA FLORA NICOLICH

    Ms. Nicolich. Honorable Members of Congress----
    The Chairman. Could you turn her microphone on?
    Ms. Nicolich. Honorable Members of Congress, thank you for 
allowing me to address you.
    I have been the Public Relations Director of the American 
Merchant Marine Veterans, Incorporated since 1993. I joined to 
honor my husband's memory and have dedicated my efforts to 
gaining recognition, respect, and remembrance for those 
American Mariners who served from 1941 to 1946.
    In 1939--excuse me. In 1939, at age 17, my husband dropped 
out of high school and joined the Merchant Marine as a messman. 
In 1939, our Merchant ships were already being torpedoed and 
seamen were necessary. In 1941, he tried to enlist in the Navy 
but was rejected because of a rheumatic heart. He was told to 
attend Pensacola Naval Academy Upgrade School and return to the 
Merchant Marine.
    Upon graduation as first officer, he was immediately 
transferred to the Army Transportation Corps, where he served 
on LTs, ocean-going tugs, until war's end in December 1946.
    By 1946, his heart condition had worsened. His education at 
Upgrade School was not recognized. His disability made a 
difference--made it difficult for him to find employment. 
Doubly so, because he was not considered a veteran.
    By 1941, many Merchant seamen had already adopted the sea 
as their life's work. Many were too old for the draft. Other 
young men, like my husband, were ashamed of their disability, 
ashamed to be called 4F. So when given the opportunity to 
actively serve their country, they chose the dangers of the 
Merchant Marine rather than the safety of a defense plant.
    By the way, as these gentlemen have already said, the 
Maritime service did not discriminate as to race, religion, 
nationality, age or health. Those who chose to remain as 
seamen, knew that they faced almost certain death.
    By war's end, the Maritime service had lost more men 
percentagewise than any branch of the Service. My colleagues 
here today, have already discussed, and will discuss further, 
the sacrifices, privations, and indignities suffered by our 
Mariners during World War II. And the reasons why they deserve 
to receive a financial consideration.
    My very special concern, however, is that you may consider 
eliminating widows, particularly those whose husbands died 
before the passage of this bill. This would be an insult to the 
memory of the unsung hero and a heinous injustice to the woman 
who suffered privation along with him. Believe me, not many of 
us are left.
    First, let me say that many of our ancient Mariners either 
never married, or divorced, or are themselves widowed. It is 
also safe to say that 99 percent of veterans' wives who became 
widows during or immediately after the war, either remarried or 
have died.
    The remaining war widows are well over 80, in poor health, 
and facing a very uncertain future. I know very well, because I 
am 84.
    Those of us who married American seamen after the war, 
married men with physical disabilities and/or other related 
injuries. Some married seemingly healthy men who later 
developed illnesses due to wartime exposure, for example 
asbestosis.
    Case in point, though we knew each other before, I married 
John Anthony after the war. His heart condition had worsened 
during his time in service. Once discharged, his Academy 
training was not recognized. And he was unable to find a job 
commensurate with his intellectual abilities. After 14 years of 
marriage, his physical condition forced him to go on permanent 
disability. Over a period of 8 years, he suffered two heart 
attacks, had two open-heart operations, was on dialysis, on 
special medication, required constant medical care and died in 
1978.
    Of necessity, I had always worked two jobs. Neither before 
nor after his death did I receive financial assistance from any 
source. I buried him privately, took out a loan on our house, 
paid all the doctor's bills, and supported his aged mother 
until she died 2 years later.
    John died in 1978. I received his Honorable Discharge 
posthumously in 1994 from the United States Army. By then, any 
benefits to which he may have become entitled were for me too 
little too late.
    In 2006, we would have been married over 50 years.
    For the most part, we Maritime widows are children of the 
depression. As single women we struggled. As wives, we did not 
have the advantage of a husband's education, or a new home in 
the suburbs, or medical benefits of any kind. We worked to 
supplement our husband's income and to give our children better 
opportunities.
    All of us cared for our husbands in sickness and in health. 
When they died, we received no help of any kind, because we 
were not recognized as the widow of a veteran. Our husbands 
were the forgotten heroes of the greatest generation. We have 
been their forgotten widows.
    Honorable members of Congress, please do not perpetuate 
this travesty. Please do not count us out. Thank you for your 
kind consideration. God bless you, and God bless America.
    The Chairman. Thank you so much.
    [The statement of Ms. Nicolich appears on page 59.]
    The Chairman. Frank Dooley is the President of the American 
Merchant Marine Veterans and also a combat veteran of World War 
II.
    Thank you, sir.

                 STATEMENT OF FRANCIS J. DOOLEY

    Mr. Dooley. Thank you Members of this Committee for 
inviting us today to testify on H.R. 23.
    By way of background, I served during--in the Merchant 
Marine during World War II as a member of the crew, joining in 
1943. And by 1945, I was in officer's school. And became a 
Marine engineering officer. By 1946, I was promoted to second 
assistant engineer.
    And then I wanted to go to college. And I didn't even have 
to go into the Merchant Marine or anything else as far as 
service goes, because my father died as a result of being 
gassed in World War I. And I was considered the sole-surviving 
son of a veteran who had died for this country.
    But I chose the Merchant Marine, because it is a family 
tradition on my mother's side. And I would have been in whether 
the war occurred or not.
    And let me just pause for a moment and address the issue 
that was--that Congressman Buyer raised before about other 
groups being entitled to this money or lining up to get at it. 
The other groups, none of them, are in the World War II 
Memorial. Not a one of them. And none of those groups had to 
litigate to get the right to be a citizen--to be a veteran. We 
did.
    We were turned down by the Department of Defense. With all 
the statistics we had and the services that we performed in 
World War II, we were turned down and litigated the matter 
before Judge Oberdorfer in the Federal district court here in 
Washington, who signed a show cause order directed to the 
Department of Defense as to why we were not declared veterans. 
So we became veterans by fighting for it.
    The others got it, strangely enough, by not having to fight 
for it. None of them had to go to court. And none of them had 
the record we had. Not one of them. The Merchant Mariners was 
good to me, because I was able to become a--I went to college 
by working on the docks. But then went back to sea again. And 
ultimately wound up as chief engineer.
    Went to law school, Fordham Law School in New York, became 
an attorney to the admiral. But I wanted to now address in 
terms of this background, the status of Merchant Seamen in 
World War II.
    Before World War II, Merchant Seaman had inherent rights, 
both common law and legislative, to compensation if they were 
injured in the course of the service of the vessel. They were 
entitled to maintenance and cure, which means free medical 
attention and a stipend being paid by the day. And they were 
entitled to bring a civil action against the owner of the 
vessel under the Jones Act and the Warranty of Seaworthiness.
    If they were killed, the survivor had a claim of action, 
the widows and orphans had a cause of action under the Death on 
the High Seas Act. That was before World War II.
    When World War II broke out, the U.S. Government became the 
owner of every ship, either directly or through ``bareboat 
charter.'' And the ``bareboat charter'' meant they simply went 
to the companies who owned the ships and took them from them. 
And said we are going to use those for the rest of the war.
    Those companies became agents for the U.S. Government. But 
more importantly, every seaman after that, became an employee 
of the United States Government. And the agency that handled 
this for the U.S. Government was the United States Maritime 
Commission through the War Shipping Administration. And the War 
Shipping Administration controlled every bit of shipping during 
World War II. And it also controlled, through the Maritime 
Commission, the establishment of the training programs of 
Sheepshead Bay, and Kings Point, and the different programs 
that were created.
    And there was a bit of a con job involved in all of this, 
because the kids that were joining were being told and the 
people that were joining were being told that they were 
enlisting. Now who do you know in a civilian capacity enlists 
in anything? And I have photographs that I could submit to this 
Committee now showing in New York City, with uniformed people 
in it, from the Maritime service saying, ``If you want action 
in the North Atlantic, enlist in the United States Maritime 
service.''
    It got so bad that by 1944, they were enlisting 16-year-old 
kids. Getting them to drop out of high school. And enlisting 
them in the Maritime service. And shipping them out as wipers, 
ordinary seamen, galley boys. Whatever.
    I can submit to this Committee, the names of over 20 of 
these kids, 16 and 17 year olds, who were killed during the 
war. I am not talking about falling down someplace. I am 
talking about killed by enemy action. And they were conned into 
this by the enlistment. Drop out of high school--by the 
Maritime Commission.
    But it gets worse than that, because if you employ a minor, 
you have to--the minor has to be subject to a guardian making 
the decisions regarding that minor. These kids were being 
signed on board ships under the contract of employment that 
exists on every ship or before a voyage begins without the 
consent of a guardian.
    And on top of it, the terms of this contract were never 
really explained to these kids. And I will get to the contract 
aspect of it now.
    When the War Shipping Administration took over these ships, 
what they created in relationship to the seamen, and the ship, 
and the training programs, were independent contractors. Every 
time you did something with the United States Government and 
whatever division of the U.S. Government you did it, you became 
an independent contractor as a seamen.
    When you signed into Sheepshead Bay or the Academy, you 
signed in. And when you graduated, you were discharged by the 
Maritime Commission. In other words, a pink slip was given to 
you. And then you went to a ship where you signed articles. And 
that was a new contract.
    For those of you who don't know--and Shep' Articles are a 
contract. And it goes back historically in merchant shipping, 
in which the captain representing the owner, signs a contract 
with the crew for the voyage. And at the end of the voyage, the 
crew gets a contract. Gets a discharge of contract. And it is--
in the United States, that program is governed completely by 
the United States Government.
    In those days, it was an official called the Shipping 
Commissioner. And I believed he was part of either the 
Immigration Service or the Coast Guard. But he came down for 
the official signing of the articles. And at the time of the 
payoff of the termination of the voyage, he was there again. So 
this was all done, even in peacetime, under the auspices of the 
U.S. Government.
    In wartime, it became a little heinous because of these 16-
year-old kids being put aboard the ship and not having their 
daddy standing behind them. I wonder how many daddies would 
have let those kids know--go there if they knew they were 
contract workers instead of being enlisted into the Maritime 
Service.
    And so it went. And on top of it, the United States passed 
a--this Congress passed a statute in 1943 saying that the 
rights that seamen had are now being obviated against the 
United States of America, because you are temporary employees. 
Temporary being the different phases of the employment that I 
illustrated to you.
    And so because of that, you would not be entitled to the 
Federal Employee's Compensation Act. That effectively cut off 
seamen from any benefits at all. And what was substituted in 
its place was what I call the $5,000 solution. The Maritime 
Administration, the War Shipping Administration, entered into 
an insurance agreement, if you will, for $5,000 to Merchant 
seamen during the war.
    They covered everything from personal injury to death. And 
if you were injured in enemy action, the top amount that you 
could collect at any time of compensation was $5,000.
    If you were killed, your widow and orphans got $5,000 and 
that was that. That was the finish. Remember, I spoke earlier 
about the right to sue for the widows and orphans in peacetime 
under the Worthiness of Seaworthiness in the Jones Act. Well, 
that was taken away. And along with that being taken away, FECA 
was taken away. So they were hung out there to dry. And they 
were given a $5,000 solution.
    And we have people in our organization who had to ship out, 
because their fathers were killed. And they had to quit school 
to support their parents.
    Now, I mentioned before that my father had died in World 
War I, as a result of wounds in World War I. I received a 
pension until I was 18 years old. My mother was able to put me 
through a Jesuit prep school with that money. And my sister 
went to college.
    Now, if my father had been unlucky enough to be in the 
Merchant Mariners in World War I, we would have gotten nothing. 
And that is exactly what the widows and orphans from World War 
II of the Merchant Mariners received.
    And so what I am saying to you today, if we talk about just 
compensation, is that there was no compensation in those days. 
There was nothing. The $5,000 was the end of the line. In fact, 
even by 1946, the government terminated the $5,000 solution and 
simply stopped the payments on it.
    Incidentally, that program was handled for the Maritime 
Administration by Chubb and Co. A seaman who was injured, would 
go to Chubb and Co. office at 99 John Street in New York City. 
And I have correspondence to show this. And be explained by a 
claim's examiner for Chubb and Co. on his war wounds and 
determine whether he was able to go back to work or not. And if 
he was not able to go back, he would get the $5,000. And the 
end of everything. There was no medical treatment for--no 
medical follow-up treatment, because to continue with the 
Merchant Mariner medical program at that time, which ended in 
the eighties, public health service was available to seamen.
    The Chairman. Mr. Dooley?
    Mr. Dooley. But not for those types of injuries.
    The Chairman. I hate to cut you off, but could you wrap up?
    Mr. Dooley. I am blowing off here. And I could go on for a 
long time. And I didn't intend to. But I am saying now that 
just compensation is overdue. Thank you.
    The Chairman. Thank you, sir.
    [The statement of Mr. Dooley appears on page 60.]
    The Chairman. Mr. Gerald Starnes?

                 STATEMENT OF H. GERALD STARNES

    Mr. Starnes. Mr. Chairman and members of the Committee, My 
name is H. Gerald Starnes. And I am here today to urge passage 
of H.R. 23, the ``Belated Thank You to the Merchant Mariners of 
World War II Act of 2007.''
    I am speaking for about 3,000 still living Veteran 
graduates of the United States Merchant Marine Academy at Kings 
Point, NY, who have joined Mr. Allison and the Just 
Compensation Committee here in this endeavor to at last gain 
Congressional recognition for our services in helping win that 
forgotten great war 1941 and 1945.
    The U.S. Merchant Marine Academy is the only one of the 
five Federal academies, service academies, that send their 
cadets into wartime combat zones. The memorial monument on the 
campus bears the names of 141 young men who lost their lives in 
combat.
    Now, all of us are very grateful for the superb education 
we received. And are proud to be graduates of that institution 
of military discipline and valuable learning. There was a war 
on. And the largest ship building program in the world that had 
ever been seen. We--they needed every engineering and deck 
officer, young officers they could train.
    Appointments were relatively easy to obtain for 17 and 18-
year old males, no police record, have a high school diploma, 
in perfect health. And we had to get recommendations from 
neighbors who had known us all our lives and our high school 
principal. And you could then get the--go to the academy. We 
were sworn in as Cadet/Midshipman with the rank of Midshipman 
in the U.S. Naval Reserve. And when we graduated, we received 
commissions in the Naval Reserve. Naval Science was one of our 
major courses and included gunnery. If there was a call on the 
ship to General Quarters, we had assigned battle stations to 
serve with the vessel's Navy Gun.
    Unlike all of our armed forces, many of whom have never 
left a desk stateside, and received the GI Bill for 4 years of 
college, and all the veteran members of the classes 1939 
through 1947, we did not receive a degree at graduation, 
because the wartime curriculum did not meet the requirements 
for college accreditation.
    After graduation, we Kings Pointers and all the other 
Merchant Mariners of World War II were denied veterans' status 
by every Congress for over four decades and received not a 
single benefit of any sort.
    Until 1977, Merchant seamen were not allowed to apply for 
veterans' recognition. Following a Federal court ruling in 1986 
to recognize Merchant seamen as veterans, like the others, in 
1988, we received a U.S. Coast Guard discharge and notification 
of eligibility for limited medical attention if you were 
homeless or on Medicaid.
    To me and my fellow veteran alumni, these documents were 
deemed worthless. I had retired from General Electric and had a 
U.S. Coast Guard--held a U.S. Coast Guard chief engineer's 
license since 1952.
    I wanted nothing to do with a VA hospital. My dad spent 
several months during and after the war, World War I, at Walter 
Reed hospital. And he would only go to our local VA institution 
on a Sunday afternoon to watch a baseball game.
    As an engineer on watch in the engine room of a ship makes 
decisions on what is wrong or right with the plant's operation, 
based on the numbers that his instruments are reading out, his 
sense of how the equipment should sound, and what his crew is 
telling him about their observations. However, enemy submarine 
torpedoes and aircraft attacks were always aimed at the engine 
room to kill the ship. This added thought when you are down 
there on duty below the waterline. And it doesn't make any 
different how much coffee you drink, it is always on your mind 
when you are on watch down there.
    After the war ended in 1945, President Truman urged us 
Merchant Mariners to stay on the ships. More casualties 
occurred as 54 vessels struck mines. I personally recall 
running down the Malacca Straits at full speed through a night 
of thunder and lightening on a tanker with 135,000 barrels of 
fuel oil for the reoccupied British Naval base in Singapore.
    During the Japanese occupation, they had destroyed all the 
navigational aids, the lighthouses and buoys. And they had 
mined the strait.
    An aged Kings Pointer called me to thank me for my efforts 
informing the veterans on H.R. 23. I had his name listed as 
graduating in a later class than his age would indicate. He 
probably couldn't remember what he had for breakfast, but he 
could remember well that he was sunk three times in the 
Mediterranean and could not get back to go to finish his 
classes there at the Academy and graduate with his own class. 
For over sixty years, the Congresses of the United States have 
denied this recognition and benefit as war veterans. We are 
aware that the outcry in both legislative bodies will be, 
``There is no money,'' as we heard here today. ``It has all 
been allocated to another veterans' organization or government 
agency.'' The first year benefits of H.R. 23, in our opinion, 
at the very most would be about $120 million, and it would 
decrease every year to zero in a few years as we die off.
    With all respect to the problems of the 109th Congress, we 
do not understand why H.R. 23 and S. 1272 could not have come 
to the floor of the lower and upper houses for a vote when 
9,963 special interest earmarks totaling $29 billion were 
passed in 2006 according to the Wall Street Journal. At our 
advanced ages, this is our last chance. We believe that the 
110th Congress can and will pass our benefit bill this year. 
They call me ``The Kid,'' and I'm eighty. Thank you very much 
for your attention.
    [The statement of Mr. Starnes appears on page 64.]
    The Chairman. Thank you, ``Kid.'' We have, and we will try 
to do this on the phone, one of the named plaintiffs in the 
court decision, 1987-1988, that gave status, was a former POW 
and combat veteran, Mr. Stanley Willner. Stanley, can you hear 
us?
    Mr. Willner. I can hear you.
    The Chairman. We can hear you, too. Go ahead, you have 5 
minutes.

                  STATEMENT OF STANLEY WILLNER

    Mr. Willner. My name is Stanley Willner. I am the first 
official Merchant Marine Veteran of World War II. I was 
captured by the German Navy and turned over to the Imperial 
Japanese Army occupation forces in Singapore. I remained a 
prisoner for more than 3 years and 3 months.
    After graduating from high school in 1938, I received an 
appointment to the U.S. Maritime Service from the late Senator 
Harry F. Byrd of Virginia. I spent 3 years as a Merchant Marine 
cadet. On August 23, 1941, I graduated to Deck Officer and 
Third Mate with a commission of Ensign in the U.S. Naval 
Reserve. I immediately went to the Naval Board in New York City 
to enlist, was rejected, and sent to serve on the MS Sawokla, 
an Army transport loaded and ready to sail. On November 29, 
1942, the Sawokla, steaming south of Madagascar, was stalked, 
fired upon, torpedoed, and sunk by the German raider, Michel.
    The Michel was deceptively disguised as a merchant vessel, 
but equipped with a lethal arsenal. Michel's log showed that 
the Sawokla sunk immediately. I woke up in the water badly 
wounded and clinging to a piece of wreckage. About 3 hours 
later, the Michel picked me up. I remained in the sick bay for 
about 3 months. I was given excellent medical treatment. The 
next day, the Michel sent out its scout plane and torpedo boat 
to pick up the wreckage so there would be no trace of the 
Sawokla. That action resulted in a letter from the Navy 
Department declaring me deceased. Thirty seamen and nine 
members of the Naval Armed Guard survived the attack. We were 
now captives of the Third Reich.
    The Michel docked in Singapore and turned over its 
passengers to the Japanese. For the remainder of my captivity, 
over 3 years, I did not brush my teeth, cut my hair, shave, or 
receive any medicine or enough food to remain healthy and fit. 
If it could get worse, it did. The Japanese sent us upcountry 
into Burma and Siam, which is Thailand, to build the Burma-Siam 
Railroad, known as Death's Railway, or the bridge over the 
River Kwai.
    On arrival we were marched twenty miles a day for six 
straight days to get to the location of the railroad. The 
railroad was completed in about 2 years. Those who survived 
were sent back to Singapore. I was sick with beri-beri, 
dysentery, malaria, pellagra, scurvy, ringworm. All kinds of 
sores entered my body. Of the original 525-plus men who went 
upcountry with me, only 116 returned.
    When we were liberated, all Americans in the Far East and 
Murmansk were flown from Singapore to the 142nd Army Hospital 
in Karachi, India, which is now Pakistan. I was 25 years old, 
weighed only seventy-four pounds, and was infected with every 
disease imaginable. The doctor told me that I would be the 
luckiest man alive if I lived to be 50 years old. The doctors 
and nurses in the 142nd cried when they saw us. They had never 
seen human beings in as bad shape.
    The plane landed in the military airport outside of 
Washington, D.C. The military men were met with honor guards. 
The Mariners were left on their own. I was lucky; my wife came 
to take me home. I was unable to adjust. The government gave me 
1 month's pay of $250. I was admitted to the Marine Hospital 
for 2 weeks, was told I was fit for duty, and discharged. This 
was the very last government benefit I received until 1988, 
four decades later.
    As a result of being hit with rifle butts in the back 
several times I eventually had to have back surgery. For nearly 
a year I suffered with malaria. Walking around, I would just 
pass out. I suffered continuous nightmares. I was lucky to have 
my family take care of me. I had to use civilian doctors and 
dentists, which my family paid for. It was well over a year and 
a half before I could return to work.
    I tried working for the Maritime Commission pricing war 
surplus ships for sale to foreign countries. The work required 
travel, and I was unable to travel.
    The importance of the Merchant Marine effort in the 
successful outcome of World War II cannot be overstated. 
Without the Merchant Marine, the logistical arm of the war 
effort would have collapsed. The steady flow of supplies at 
perilous and great risk by Merchant seamen deserves recognition 
by the same government that depended so heavily upon them.
    Quotes General Douglas MacArthur, ``They shared the 
heaviest fire--they have suffered in bloodshed and death--they 
have contributed tremendously to our success. I hold no branch 
in higher esteem than the Merchant Marine Services.'' President 
Harry Truman, ``To you who answered the call of your country 
and served in the Merchant Marine to bring about the total 
defeat of the enemy, I extend the heartfelt thanks of the 
Nation.''
    During and after World War II, members of the U.S. Merchant 
Marine were denied well deserved benefits. In 1944, President 
Roosevelt signed the GI Bill. He said, ``I trust Congress will 
soon provide similar opportunities to members of the Merchant 
Marine who risked their lives time and again during the War for 
the welfare of their country.'' The U.S. Merchant Marine and 
the U.S. Maritime Service are agencies of the United States 
Government.
    The Air Force was sued on behalf of the Merchant Marine 
survivors by Joan McAvoy. The case is known as plaintiffs 
Schumacher, Willner, and Reid vs. Aldridge. Aldridge was the 
Secretary of the Air Force at that time. Federal Judge Louis 
Oberdorfer conferred veterans status in his summary judgment in 
1987, 42 years after the end of World War II, an adult 
lifetime. By this time both Schumacher and Reid were deceased. 
I was the first Merchant Mariner to be called a World War II 
veteran.
    It is my long desire to see those who willingly risked life 
and limb patriotically in support of the war effort, in the 
midst of combat, to receive not only the monetary recognition 
but the recognition of a country they made strong and whole all 
these years. Remember that when a merchant ship was sunk, the 
Mariner's pay was stopped. This token of thanks will help bring 
the recognition so well deserved. The British, Dutch, and 
German Merchant Mariners were always considered veterans by 
their countries. Surviving crew members of the Michel were even 
surprised to learn years later that their American captives 
were not considered veterans for service given.
    Thank you for this opportunity to testify, and God bless 
America.
    Just one thing, I have PTSD, which is Post Traumatic Stress 
Disorder, very bad and I can't help sometimes I choke up when 
certain things are recalled. Thank you very much.
    [The statement of Mr. Willner appears on page 66.]
    The Chairman. Thank you, Mr. Willner. And thank all of you 
for bringing to life the history and confirming to us the 
heroism of the greatest generation. Mr. Mitchell, do you have 
any questions or comments? Mr. Hare? Okay, I am sorry.
    Mr. Mitchell. Yes, I do. Thank you, Mr. Chairman. After 
what I have learned about the sacrifices of the brave men of 
the Merchant Marine, I want to congratulate you on your 
persistence in bringing about some measure of recognition and 
compensation for those overlooked patriots. I hope that this 
Congress can finally close the chapter of our history and 
rewrite this injustice. To the Merchant Marines in the 
audience, I say thank you for your service, your heroism, and 
your patience. You have served your country well, and you 
deserve our gratitude.
    The Chairman. Thank you, Mr. Mitchell. Mr. Buyer, any 
questions?
    Mr. Buyer. Thank you. It seems as throughout our history, 
every time America goes to war we go to war not just with our 
armed military service. We also go to war with civilian groups 
that assist thereof, much of which goes to logistics. So you 
can go all the way back to the Revolution, or in particular go 
to the Civil War; wagon masters, forage masters were civilians, 
that is who were operating the wagons and the logistics, and 
operating the wagons of ammo for the artillery. You can use for 
example the Union Army Balloon Corps--it was an organized 
civilian operation. You've got the Telegraph Service, it was a 
civilian bureau attached to the Quartermaster Department. That 
is just the Civil War. You can go to World War I. Civilians go 
to war when the Armed Forces go to war. The same occurred in 
World War II. The same occurred in Eisenhower's support of the 
French in Vietnam, with a civilian air transport. It occurred 
also for us, we had CIA operations. You have got----
    Mr. Bilbray. Flying Tigers?
    Mr. Buyer. Well, I am going to get to a whole laundry list 
here in a second. You have not only the gulf war, in which I 
participated, you could not even fire a patriot missile without 
civilian contractors right there assisting. My gosh, you have 
Blackwater and KBR right now in the Gulf and in Afghanistan. 
When America goes to war, we have many different civilian 
groups that also participate.
    The challenge has always been, all right, we respect their 
service, we respect their contributions also to the war effort. 
We, this Committee, better be very careful here about awarding 
a pension. That is what this is, this is about awarding 
pensions. So we have many groups, just from World War II 
itself. So you have American, or Women's Air Force Service 
Pilots, Women's Auxiliary Air Corps, and Civilian Employees 
Pacific Naval Airbase, who actively participated in the defense 
of the Wake Islands. You have Quartermaster Corps Female 
Clerical Employees. You have Male Civilian Ferry Pilots Wake 
Island Defenders of Guam.
    All of these have been recognized as veterans, but none of 
them will receive any type of pension benefit. You have 
civilian personnel assigned to the secret intelligence elements 
of the OSS, you have the Guam Combat Control Quartermaster Crew 
on Corregidor, U.S. civilian volunteers who actively 
participated in defense of Bataan. You have civilian U.S. Navy 
IFF technicians. You have United States civilians of the 
American Field Service who served overseas under the U.S. 
Armies and the Army Groups in World War II. You have U.S. 
Civilian Flight Crew Aviation Group Support Employees of 
American Airlines between 1941 and 1945, Civilian Crewmen of 
the United States Coast Guard operating between 1941 and 1945. 
You have honorably discharged members of the American Volunteer 
Group, who are known as the Flying Tigers, who served during 
December 7, 1941, to July 18, 1942, and U.S. Civilian Flight 
Crew Aviation Ground Support Employees of United Airlines. You 
have U.S. Civilian Flight Crew Aviation Ground Support 
Employees of Transcontinental and Western Airlines, American 
Field Service.
    This list goes on and on and on of individuals who have 
been recognized as having veteran status. I do not even want to 
take up any more time. This list is so extensive. Yet what we 
are about to do, if Congress were actually to pass this and 
give a pension, we are discriminating against many of these 
other civilian groups. So who is to say, I mean, if you want to 
get into this business of pitting one's valor against another's 
valor, good luck. I do not want to get into that, what we call 
the veterans ``oneupsman'' game. I do not participate. I think 
it is disgraceful. I do not like it. Because I respect the 
service of everyone.
    So whether it is those who are the civilians, or the actual 
armed services themselves, I want the gentlemen and ma'am to 
know, I am very uneasy. You are asking us to discriminate. That 
you should be granted a greater status over and above Flying 
Tigers, or go down this entire list. So I just want you to 
know, I am very uneasy about the request, which you are making 
to the Committee. And I yield back.
    The Chairman. Is there any comment?
    Mr. Young. I have written a book that should pretty well 
answer his question. Should veterans status be determined by a 
kangaroo court? Which is what we faced with the Secretary of 
the Air Force. I would be glad to send you a copy.
    Ms. Nicolich. I would like to add something, if I may. The 
American Merchant Marine was in existence in the time of George 
Washington. Yes, you can truthfully say that they were 
volunteers, they were privateers. They were merchant ships 
going in to fight the British. If it had not been for the 
privateers, the merchant ships, during 1775, George Washington 
would not have won the Revolution. That is why our motto is, 
``In war and peace since 1775.''
    Now to respond to the rest of these people that you are 
talking about, yes, the ladies went up in the airplane and that 
was great. I wanted to do that myself. My mother would not let 
me. But they did not put themselves in harm's way. The American 
Mariner knew from the beginning that if he remained in the 
Merchant Marine he was in harm's way because our ships were 
being torpedoed and men were being killed before the War was 
declared in 1941. Of course, this may be something that can be 
argued. But I believe that it should be taken into 
consideration. Thank you.
    The Chairman. Thank you. Mr. Jackson?
    Mr. Jackson. I believe that the Merchant Marine should be 
recognized. Because we sailed with Navy personnel on our ships. 
We knew we were going to be attacked and sunk. We had been, our 
Merchant Marine has been, the base of our Navy came from the 
Merchant Marine. And beside, we did not get paid and we were 
under military justice, under military orders. We could not go 
ashore unless the Navy said, or the Army said, we could go 
ashore. I do not understand how they could separate, compare 
the Merchant Marine with the 230,000 men we had and with the 
greatest losses that we had, that we should not be entitled to 
this benefit, and that we are not veterans.
    The Chairman. Thank you. Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman. I hope you will allow me 
to express a little anger here. This is, you know, we had a 
hearing here for the Filipino veterans. And the questions were 
asked about can we afford it. And I said during that hearing, 
that is not the question. The question is, how can we afford 
not to do this? And with all due respect to the gentleman from 
Indiana, this is not a question about valor versus valor. This 
is a question about what is right and what is wrong.
    I cannot help it. I am new here, and you will have to 
pardon me for some simple math. But every time I hear this 
question about where are we going to get the money and how are 
we going to afford this and what are we going to do, I again go 
back to maybe a couple of different things here. And you will 
have to pardon my commonsense approach to this. Perhaps there 
is somebody that knows better than I do.
    If my math is correct, we are spending $11 million an hour 
on a current war, which comes to $264 million a day. And to pay 
for this bill to honor the Merchant Marines would cost us 11 
days. To spend what we would spend to honor the service of our 
Filipino veterans would cost 5 days. If my math is correct, 
that is a total of 16 days. I think it is outrageous that we 
even have to have this. Listening to what you said, and I would 
love to see the picture of your husband again if you would not 
mind, that is not to me, this is a question of what is right 
for him and for you and for all the widows and for all the 
service that all of you and all the people that you represent 
put in. I did not get elected to sit and ask questions about 
the affordability. It seems to me that I was elected to 
represent and to do the best I can to help right wrongs. This 
is a wrong.
    I cannot believe for the life of me that we have to wait 60 
years, and then reading a list of litany of groups, from my 
perspective they all ought to be compensated. It is not a 
question of one versus the other. It is a question of the 
service they had to this Nation and to this country.
    For everything that you have done, let me just tell you 
that as one Member of this Committee, I thoroughly support this 
bill. And I do not know where the thousand dollars came, but to 
me given everything that you have done, that strikes me as 
being less, but at least it is something. Five hundred dollars 
for Filipino veterans, I mean I do not know where we come up 
with these numbers. But I cannot sit on this Committee, Mr. 
Chairman, and remain silent when group after group comes here 
after being ignored for year after year after year, only asking 
for what this Nation owes them. And to be quite candid, as the 
gentleman said, he is considered young being eighty years old.
    But if nothing else, if we did not listen to the phone call 
carefully for the gentleman that talked about it, and to see he 
got $250. Two hundred fifty dollars, Mr. Chairman, for 
everything he was put through. And as he said, 525 people, and 
116 returned. You know, I am beside myself with this. And let 
me just say to you, perhaps we should ask this Administration 
to consider their compassion for Paris Hilton and her tax 
breaks and give it to our Merchant Marines. And to that list of 
groups of people.
    I believe, candidly, that these hearings are important and 
I cannot thank you enough for coming. I apologize, and I mean 
this, I apologize for this government's sitting on its hands 
for this many years. And I will tell you, I will support this 
bill and work very, very hard. Because I cannot in good 
conscience, and will not as a Member of this Committee, 
question somebody's comparison. I do not consider the Flying 
Tigers one bit less important to this Nation. I hope we can 
compensate for the loss and for their heroism. So to all of 
you, I just want you to know, from one freshman on this 
Committee that I will continue to work on this bill and I will 
tell it to the widows. They have a right and we have a moral 
obligation in this Congress and in this Nation to stand up for 
the people who have stood up for us. And I am not going to put 
up with this, ``Where are we going to come up with the money?''
    Let me tell you, we will find it, one way or another. We 
just have to have the courage to find it. And we will do that. 
And with that I yield back.
    The Chairman. Thank you, Mr. Hare. I appreciate that. Mr. 
Bilbray?
    Mr. Bilbray. Yes, Mr. Chairman. And Mr. Chairman, first of 
all I guess I've got to sort of thank the panel as being 
symbolic of all the Merchant Marine Services who served during 
World War II. You may not know it, but I am sitting in Congress 
today because Merchant Mariners were able to take my mother in 
1944 and get her through Japanese infested waters with the 
submarines everywhere, and zigzagged all the way to South 
America, and snuck up the coast to deliver the Australian war 
brides in 1944 into San Francisco. And in fact next week, Mr. 
Chairman, the Australian Embassy is going to honor the 
Australian war brides who came here. So I guess I'm here 
because people who did what you do delivered Mom safe and sound 
onto U.S. soil.
    I think that in all fairness this is an issue that a lot of 
us have talked about for a long time. My godfather was actually 
Admiral Joe Rizza who was the Dean of the Merchant Marine 
Academy and a resident in San Diego. And these stories of 
heroic activity by Merchant Marines are well known across the 
country.
    I think that in all fairness I hope all of you understand 
that there is a legitimate issue here about those of us in 
politics being able to promise anything and not having to pay 
the bills. And I think the Ranking Member has a legitimate 
issue of at least saying, while you are here, to your face, we 
still have to pay what we promise. And yes, finding out where 
the funds are going to come from is not only a right, it is a 
responsibility of members of Congress before they make the 
promises, not after. And I think that this is a challenge we 
have. And if we want the right to give you a promise that we 
are going to give you benefits then we darn well have that 
right to find the money. That is why the new majority here in 
this Congress has initiated a mandate of pay as you go, and 
basically saying pay to play. And that is where all of us that 
are sitting here looking at this type of proposal have the 
responsibility of saying not only where does the money come 
from for the Merchant Mariners, the Filipinos, the Flying 
Tigers. That responsibility bears with us. And we do have a 
responsibility under our constitutional obligation that we all 
raised our hands on to not only fulfill what is right and just 
but to be able to pay for it, too. And I am sure all of you 
would say that is a responsibility you expect us to fulfill, 
that we do not pass a debt onto your grandchildren. You did not 
fight the forces of darkness to pass an overwhelming burden 
onto your grandchildren and your great-grandchildren. And I 
will just say for one, I think all of us will work together to 
try to fulfill what is right and that includes being able to 
pay for the benefits that we are promising.
    Thank you very much, and I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Bilbray. Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman, and thank you to our 
witnesses for coming here today. I feel very honored to have 
the opportunity to hear your stories. They are moving. They are 
part of our history that we are most proud of and it is a 
pleasure for me to sit here and be able to hear that. And am I 
right? That this is the first opportunity you have had to speak 
about these in front of Congress? Has there been a panel held 
before to allow you to speak on these issues? Okay. Well, then 
I feel doubly blessed to be here on this day. And I hear an 
argument that is being made here. I am not quite sure if the 
argument is if all of those groups we are hearing listed are 
unworthy or if all of them are worthy.
    I think Mr. Bilbray brought up a good point about paying, 
and that is an important part of our responsibility. I do find 
it a little curious, though, this coming after a time when this 
Congress has spent our way into a $9 trillion debt, and $400 
billion in deficit spending. And has borrowed more money from 
foreign governments in the last 5 years than we have in the 231 
years combined of this Nation. So when I hear this issue about 
pay, I agree that that is an important issue. And that is why I 
voted wholeheartedly for PAYGO requirements.
    I also believe that when we put a budget document together, 
a budget document is far more than just money, economics, and 
balancing a balance sheet. It is a moral document of the 
reflection of our Nation's values. And we have had many 
hearings in this Congress, and I would echo what Mr. Hare said 
on this. We have had many people have the opportunity to 
testify and not a day goes by in this Congress that I do not 
hear someone talk about the absolute injustices of the estate 
tax that falls so heavily on 1.6 percent of the population. And 
the outrageousness of asking them to pay taxes where thirty-one 
families stand to benefit by $28 billion. So I have a hard 
time. While I agree we have to make the balance sheet budget, 
or that budget balance out on that sheet, I also think that 
there is an absolute necessity for us to decide what we are 
trying to prioritize. And this Congress has given a lot of 
access to families that have the ability to spend nearly half a 
billion dollars lobbying us for taking away an estate tax. And 
this group who served, and Mr. Willner who served and was a 
POW, has never had the opportunity to address in a formal 
setting his elected officials. I agree with Mr. Hare on that. 
That is an absolute outrage.
    I think that maybe some good points were brought up here. 
One thing I do take a bit of exception to. I will never 
classify and see the analogy between our World War II Merchant 
Mariners and Halliburton, Blackwater, Triple Kennedy, and KBR. 
I do not see that analogy. This is an entirely different 
situation, and the names of those other groups that were 
brought up have an equal, I believe, opportunity and should be 
given that to testify in front of us, too. This Nation has an 
obligation to fulfill its promises, to fulfill its moral 
obligations. And I am deeply concerned that the newest 
generation of soldiers, sailors, Merchant Marines, when we need 
them, will see how you have been treated in the past and will 
think twice about service to this Nation. I think we need to 
fulfill those things to make sure that happens.
    So I want to let you know I am supportive of what you are 
doing. I am appreciative of your service that you did. I am 
committed that the argument that, well, you know, we are not 
helping others so we will throw everything out is not a good 
analogy and it is not a logical argument. That we need to fix 
where we can fix things. We need to start addressing these 
issues. And we need to have an open, honest debate in this 
country where we are going to spend the scarce resources of 
this Nation and how we are going to budget those, one for 
national security, but also for the moral obligation.
    So with that I will yield back my time, but I want to thank 
each and every one of you for giving me the opportunity to hear 
you today.
    The Chairman. Thank you, Mr. Walz. Ms. Schakowsky is in the 
audience. You were going to be on our next panel, but if you 
would like to, I know you have to leave. If you would like to 
just come up to one of the microphones and give us your 
testimony. That is fine, please.

   STATEMENT OF BRUCE FELKNOR, EVANSTON, IL, AUTHOR, ``U.S. 
   MERCHANT MARINE AT WAR, 1775-1945,'' AS PRESENTED BY HON. 
  JANICE D. SCHAKOWSKY, A REPRESENTATIVE IN CONGRESS FROM THE 
                       STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I am giving 
testimony on behalf of a constituent of mine, Mr. Bruce 
Felknor, who was a radioman in the Merchant Marine during World 
War II. He is an author, editorial consultant, lecturer, and a 
historian of the U.S. Merchant Marines. And he wrote a book 
about it, ``The U.S. Merchant Marine at War 1775-1945.'' He is 
the history editor of the Merchant Marine website, usmm.org. 
And I learned a lot from him, including the fact that the 
Merchant Marine suffered the highest casualty rate, more than 
any other branch of the U.S. Government, of the armed forces.
    So this is his testimony, and I am grateful to you for 
allowing me to give it. He is physically unable to come:
    ``I thank Chairman Filner and this Committee for the 
opportunity to speak for the surviving remnant of Merchant 
Mariners of World War II, and I am profoundly grateful to my 
representative, Jan Schakowsky, the majority's Chief Deputy 
Whip, for consenting to present my testimony. Surgery has left 
me presently voiceless.
    I am proud to be a Merchant Marine veteran of World War II. 
Perhaps 10,000 of us remain from the quarter million men and 
boys, then aged sixteen to the eighties and beyond. Roosevelt 
and Churchill and their generals and admirals knew how vital 
was our task, and how gallantly and effectively we served, and 
how we delivered, and our lives were on the line every time we 
left port.
    So when the War was on with our central help, why were we 
selected out when Congress created the GI Bill of Rights? The 
major reason was the myth of Merchant Marine pay based on 
comparisons that ignored Navy dependent allowances, freedom 
from income tax, paid vacation, and time between voyages. 
Second, because we were so few. The GI's had 13 million sets of 
parents. We had one-quarter of one million. In the folks at 
home department, read votes, we were outnumbered fifty-two to 
one.
    A third major reason was a lack of public knowledge and 
awareness of what a Merchant Marine was and what it did. No war 
correspondents were stationed on freighters or tankers. Outside 
port cities, the new media were generally oblivious to the 
merchant shipping that carried every engine of war to the 
front. Only occasionally did a dramatic story about a freighter 
or a tanker or a lifeboat trip from a paper in some seaport 
find its way into the national news wire services. War time 
motion pictures were a staple of hometown movie theaters, but I 
know of only one feature film about the Merchant Marines, 
1943's Action in the North Atlantic with Humphrey Bogart. You 
cannot count the feature films about the Army, Air Corps, Navy, 
and Marine Corps in the Second World War, so it is no small 
wonder that the small company of men who carried the American 
war machine across the oceans of the world were unknown to the 
general public.
    A typical freighter or tanker crew numbered about forty-
three officers and men, plus twenty-two from the Naval Armed 
Guard who manned the guns, often assisted by the Merchant 
Marine counterparts whose training included gunnery. Fast 
friendships developed among these shipmates and at war's end it 
was a major shock for the Merchant Marine men to discover that 
they were not even veterans. And that the Seamen's Bill of 
Rights urged on Congress by Presidents Roosevelt and Truman 
never got out of the House. I remember the personal bitterness 
from then that sticks in my craw today, and the mixed emotions 
that greeted my becoming a veteran in 1989 with none of the 
life changing perquisites of the GI Bill of Rights.
    Two years ago I voiced these emotions in a poem, ``The Song 
of the Merchant Mariner.'' It concludes: The Army and its Air 
Force were included, the Navy and the Coast Guard and the 
Marines. Alone the Merchant Seamen were excluded, the one that 
fueled and fed their war machines. He offered his life to his 
country each time that he sailed. To thank him, his country, 
and the Congress, and government failed.''
    My heart swells with pride suppressed for sixty years at 
the response of Chairman Filner and his cosponsors, and all who 
have brought H.R. 23 to the table. Thank you, and God bless 
you.''
    [The statement of Mr. Felknor appears on page 71.]
    Ms. Schakowsky. Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Schakowsky, and thank you for 
your support of this.
    As we have heard, I think we are all honored to hear your 
stories.
    Let me just say something about the cost. As Mr. Buyer 
points out, under the House rules we will have to have the cost 
of this included when we take the bill to the floor of the 
House. The numbers that we referred to earlier in testimony I 
think are inflated because of bad estimates of numbers. But we 
are talking in the neighborhood of $100 million, which 
unfortunately is going to go down fairly fast to nothing. From 
a country that has a $3 trillion, a $10 trillion debt, we are 
spending $1 billion every two and a half days in Iraq, surely 
we are going to find this money. And I know my colleagues are 
going to help me with that. But this is not an idle promise. We 
are going to do this because it is right.
    We thank the panel, and we go into the second panel.
    Mr. Buyer. May I?
    The Chairman. You have one minute.
    Mr. Buyer. Thank you. A couple things for clarification. To 
my understanding, Mr. Jackson you said Merchant Mariners were 
subject to UCMJ? It is my understanding that you were not 
subject to UCMJ. That Merchant Mariners were not subject to the 
Uniform Code of Military Justice.
    Mr. Jackson. Oh, we were. We were under the Code of 
Military Justice.
    Mr. Young. A lot of court-martials.
    Mr. Jackson. Yeah, we could be court-martialed if you did 
anything. I was on a ship where one of our guys purposely let 
the ship smoke just to get back at me, because I was a fireman 
on the ship and relieving him. And he set it. And that ensign, 
the Naval officer on the ship, when they found out why he was 
doing it, they threatened to court martial him and he was a 
Merchant seaman.
    Mr. Buyer. Ms. Nicolich, when you said these other ladies, 
they were not in harm's way, I want you to know one of the 
other groups that received recognition were U.S. Civilian 
Female Employees of the U.S. Army Nurse Corps while serving in 
the defense of Bataan and Corregidor and they ended up also as 
prisoners of war. You should also recognize that other women 
who served in civilian capacities, even as Red Cross, for 
example, in other capacities, we had four civilian women POWs 
from Vietnam. So I just want you to know that we have had women 
and civilians serve in civilian capacities in harm's way who 
have been recognized in other groups.
    The last comment I would make, Mr. Chairman, which would be 
helpful I think to all the members is that with regard to the 
testimony that this is the first time the Merchant Mariners 
have had the opportunity to testify before Congress, I would 
welcome members to look at the 79th Congress, the Merchant 
Mariners testified before Congress on all of this issue. And it 
is rather interesting, because at the time there were so many 
World War II veterans in Congress. And there is really a very 
good, it is very good reading, because they get into, actually, 
the pay differentials, even. So I welcome my colleagues to look 
at the historical record. It will be very important. I would be 
more than happy to share it with my colleagues.
    The Chairman. What year was this 79th Congress?
    Mr. Buyer. This is October 18 and 19 of 1945.
    Ms. Nicolich. Excuse me?
    The Chairman. Yes, please, you may respond.
    Mr. Buyer. It is a very extensive hearing.
    Ms. Nicolich. Since you addressed the question to me, may I 
ask, yes, I am quite sure the women who served as nurses put 
themselves in harm's way. And were very fantastic ladies, and 
God bless them, and I have every respect for them. As a matter 
of fact I wrote a poem which was published about the women in 
Vietnam. May I ask, were the nurses not compensated for their 
service? Were they not considered veterans and compensated for 
their service?
    Mr. Buyer. These nurses received their status December 13, 
1993.
    Ms. Nicolich. I am sorry, sir, I did not hear you.
    Mr. Buyer. They received their status December 13, 1993.
    Ms. Nicolich. Did they receive compensation for their 
service? I think----
    Mr. Buyer. These groups whom I have identified are 
similarly situated to you. They are one of the thirty-two 
groups.
    Ms. Nicolich. I was under the impression, and I may be 
wrong and I apologize if I am wrong, but I believe that the 
nurses who served with the Army and the Navy were considered 
veterans. They had titles such as Major and Lieutenant and so 
forth, and they received the same pay as servicemen. Am I 
wrong? If I am wrong I apologize.
    Mr. Buyer. Ma'am, we need to get going, but these are U.S. 
civilian female employees of the U.S. Army Nurse Corps.
    Mr. Starnes. I would like to ask the Congressman there from 
Indiana just one question if I may.
    The Chairman. Go ahead.
    Mr. Starnes. Our numbers for casualties are 6,812. Now you 
recited a whole litany of other people, which you are comparing 
to the Merchant Marine. Now what were their casualties? Thank 
you, sir.
    Mr. Buyer. Sir, that is where I will not participate in 
valor versus valor.
    Ms. Nicolich. Because there is no answer to that one.
    Mr. Dooley. Have we heard----
    The Chairman. You have one minute, Mr. Dooley.
    Mr. Dooley. The way the Merchant Marine was run during the 
War, first of all, Merchant Marine is a misnomer because it was 
strictly a branch of the United States Government. And it 
operated through civilian agencies, through civilian companies, 
because war material was loaded on the piers of Manhattan, and 
Brooklyn, and Jersey City, and Boston, and wherever, except for 
ammunition where there were special depots for that. And the 
reason that was done that way was the huge quantity of material 
that was being shipped could not be handled at military 
stations. So the U.S. Government contracted with the companies 
than ran ships before, or were operating agents, to handle this 
cargo for them. And that was the reason why you had this strong 
civilian element in there. But they were always agents of the 
U.S. Government. And they were never acting independently. They 
were paid agents of the U.S. Government. And then the civilian 
seamen who were previously employees of these companies became 
employees of the United States Government, War Shipping 
Administration. No one else. Purely the War Shipping 
Administration and the government acknowledges this.
    The biggest problem we had was secrecy, because if you 
recall any of the slogans from World War II, ``A slip of a lip 
will sink a ship.'' Somebody talked. At the same time, you had 
the Marines photographing, flags being raised on Iwo Jima. So 
there was publicity, and well deserved for the Marine Corps, 
but no publicity for us. I'll ask a simple statement----
    The Chairman. Thank you, Mr. Dooley. We have to move on, 
unfortunately. We thank you again. We are honored to hear from 
you. We have a second panel that if they could take your 
places, please, thank you very much.
    Ms. Nicholich. Thank you very much.
    Mr. Dooley. Thank you.
    The Chairman. We thank Mr. Rosen and Mr. Gleeson for 
joining us. We will try another telephone testimony also. Mr. 
Gleeson, you were active in the American Merchant Mariners 
Veterans Association and a combat veteran. Thank you for your 
testimony today.

   STATEMENTS OF MARK S. GLEESON, OAKMONT, PA (U.S. MERCHANT 
  MARINE COMBAT VETERAN); HERMAN ``HANK'' ROSEN, CO-CHAIRMAN, 
   JUST COMPENSATION COMMITTEE, SAN DIEGO, CA (U.S. MERCHANT 
 MARINE COMBAT VETERAN); AND BRIAN HERBERT, BAINBRIDGE ISLAND, 
  WA, AUTHOR, ``THE FORGOTTEN HEROES: THE HEROIC STORY OF THE 
                UNITED STATES MERCHANT MARINE''

                  STATEMENT OF MARK S. GLEESON

    Mr. Gleeson. The Congressman previously said the mind will 
absorb only probably what the seat will endure. And I see 
people leaving and some of the questions that have arisen, I 
believe everybody has my regular testimony?
    The Chairman. Yes, sir.
    Mr. Gleeson. Let me try to answer just a couple things and 
maybe to put a perspective on this. I am one of the younger 
people. I will be eighty next month. I joined the Merchant 
Marine fully expecting to be part of the invasion fleet to 
Japan in November. Everybody knew that it was coming, and it 
was going to be another invasion. There were a million 
casualties expected. We knew we would be part of it. But in all 
the small towns in Pennsylvania there were people who left and 
I wanted to go with them. But when I applied for my discharge 
in 1989 or 1990 I was turned down, and I found out that there 
was this problem of cut off dates of August 15.
    For the next ten years I had a title of Vice Chairman of 
the Merchant Mariners Fairness Committee. This was the group 
that worked with Congress trying to work with Mr. Lane Evans 
and Mr. Jack Fields to pass H.R. 44, and Mr. Chairman you were 
a sponsor of this when it finally passed.
    One of the things we found was we are at a great 
disadvantage and I think I wanted to maybe answer and help Mr. 
Buyer and other people understand this. All the other services 
have fully paid, fully staffed PhD's running all over 
themselves writing the histories of how they did things going 
back to the early days of the country. We do not have that. In 
fact, one of the people that we dealt with in the past was the 
former Chief Naval Historian, and Dr. Dean Allard. One of the 
things the Civilian Military Review Board said when they tried 
to determine whether we would be veterans or not, was whether 
we had any expectations of being considered a veteran or 
receiving any benefits. About 1993, I was able to find Dr. 
Allard, who had retired from the Naval Historical Center. And 
incidentally, this is a beautifully run place and everybody 
should visit someday. But all of the services have historical 
research centers. They are writing history as they saw it, as 
they participated in it.
    I asked Dr. Allard, because he had written a response in 
1980 to the Defense Department on the first application sent by 
the Merchant Mariners to qualify under Senator Goldwater's 
bill. One of the things he said was that the Merchant Mariners 
had no expectations of being considered a veteran. And if you 
look at some of the criteria that came out of the Department of 
Defense, you have to have an expectation that you are going to 
do something. We had a very nice conversation on the phone. And 
I said to Dr. Allard, ``Were you ever part of the trial that 
was starting to proceed?'' He said, ``No.'' I said, ``Have you 
ever been deposed?'' Because when you are deposed you have to 
swear to tell the truth. He said, ``No.'' I said, ``Well, Dr. 
Allard, as the Chief Naval Historian, giving your opinion, how 
did you arrive at the opinion that the Merchant Mariners had no 
expectations of being considered veterans?'' He said, ``It was 
my opinion.'' But I said, ``Dr. Allard, your opinion now is 
something other than that.'' I said, ``How many people did you 
ever interview to get that expectation that you had?'' He said, 
``None.'' I said, ``Dr. Allard, was that good research?'' Well, 
our conversation sort of drifted off from that point.
    But what happened was, through the years as we got into 
five sessions of Congress dealing with this information that 
comes back to you people, there is a system in Congress that is 
defeating us. And the system is, I write a letter to someone. 
Perhaps you, Mr. Buyer, or Mr. Filner. Then you take my letter 
and you give it to some military liaison man who will pick up 
the letter, then take it back to the Defense Department, give 
it to the Civilian Military Service Review Board. They will 
send a nine to fourteen page response back to you, and that 
reply then comes back to me.
    In 1945, we were incensed by this continued repetition that 
we had strikes. There were no strikes. There were longshoremen 
strikes in 1946 in New York. No merchant crew ever struck, and 
Admiral Land said this. So I was able to go back to the 
Lieutenant Colonel in the Defense Department who had written 
this letter to a United States Senator from California. I got 
her on the phone, and I said, ``Where did you get this 
information?'' She wanted to know why I wanted to know. And I 
said, ``Well, I do not believe you should keep telling people 
that Merchant Seamen struck, because there were no ships that 
struck.'' She said, ``Well, this is what we know to be true.''
    Two days later I get a call from the Senator's office 
admonishing me for taking the time to find this person to ask 
them, ``Is this true, what you said?'' And they told me that it 
is not your right to ask anybody, ``Is it right, the 
information that is coming back to Congress?'' And I said, 
``Well, how do you know that it is true or not?'' And she said, 
``Well, that is not the issue.'' And we hung up on that.
    But what I really wanted to do is suggest to this 
Committee, is that over in Alexandria in the Judge Advocate 
General's Office in the Army is a Lieutenant Colonel Brian 
Brady. In 1995, as part of getting a LLM Degree, he published a 
paper called ``Notice Provisions for United States Citizen 
Contractor Employees Serving with the Armed Forces of the 
United States in the Field: Time to Reflect Their Assimilated 
Status in Government Contracts.'' Now, in that paper, which 
runs about ninety pages, and I am sure he would be glad to come 
and talk to you all because he caught a lot of flak for writing 
this thing from the military, he references the Schumacher case 
and the Merchant Marine. He states that under international 
law, when you serve, international law recognizes the United 
States citizen contractor employee serving in the Armed Forces 
of the United States in the field have military service. If we 
are considered contractors, then we should have that. It also 
states that the Department of Veterans Affairs grants veterans 
benefits to groups of government contractor employees whom the 
DoD Civilian Military Service Review Board has certified as 
having rendered services equivalent to active service. Both the 
court and Congress have determined that. So here we are again 
and again at a disadvantage because there is nobody here from 
MARAD speaking for us. We have no research center. So 
unfortunately Congressman, and I apologize to Mr. Buyer because 
this is not valor against valor. Sometimes it is my 
interpretation against someone else's interpretation and how 
they feel.
    When you look at casualty rates, that is one, two, three, 
four. That is objective. But when you say, were we good guys? 
Or did I expect to be in the invasion fleet, that is my 
interpretation. So we really have a problem, sir, and we are at 
a disadvantage. And I sometimes criticize MARAD for not doing 
something about it because there is nobody talking about this 
except these older fellows and myself who came here to see you.
    So I will pass on my testimony, but I did want to try to 
help Mr. Buyer. And if you contact Lieutenant Colonel Brian 
Brady I think he would be of great benefit to this Committee.
    [The statement of Mr. Gleeson appears on page 75.]
    The Chairman. Thank you, sir. And your written testimony 
will be made a part of the record. Mr. Hank Rosen, Co-Chairman 
of the Just Compensation Committee, Combat Veteran, and a 
resident of San Diego. Nice to have you here.

               STATEMENT OF HERMAN ``HANK'' ROSEN

    Mr. Rosen. Thank you, Mr. Chairman. My name is Herman 
Rosen, I am known as Hank. On April 29, 2007, I will be eighty-
eight years old. I live in San Diego, and it is almost like 
home for me because I am in the 50th Congressional District and 
Brian Bilbray is our Congressman.
    I applied to the United States Merchant Marine Academy in 
March 1942, soon after the Japanese attacked at Pearl Harbor. I 
was sworn in as Cadet, USMMA, and Midshipman, USNR, and 
reported to the Academy at Kings Point, New York. After three 
months of preliminary training I shipped out from Wilmington, 
North Carolina, on the newly launched SS John Drayton, a 
Liberty Ship. We sailed to New York and loaded Douglas bombers, 
Sherman tanks, ammunition, and supplies for Russian troops who 
were battling the Germans at Stalingrad.
    Due to horrendous Merchant Marine losses of ships and men 
in the North Atlantic, the John Drayton was routed from New 
York to Cuba, through the Panama Canal to the Pacific Ocean, 
down the west coast of South America, across the Atlantic to 
South Africa. In Durban, South Africa, we joined a convoy which 
traveled through the Indian Ocean to the Arabian Sea, and 
finally the Persian Gulf and Khorsamshar, Iran, very much in 
the news now. It was a journey of 17,260 miles from October 
1942 to February 1, 1943. Our ship was finally unloaded on 
April 1, and we were ordered to return to the States.
    On a dark night, 21 days later, gale force winds blowing, 
the SS John Drayton was trapped and torpedoed by two Italian 
submarines some 300 miles due east of Durban, South Africa. I 
scrambled to a lifeboat. I injured my leg, and I joined 23 
other frightened, injured, oil-covered Merchant seamen and Navy 
gun crew. As was policy at the time, my pay from the Merchant 
Marine ceased the moment I jumped into my lifeboat. The Navy 
gun crew continued on pay. We spent 30 days, I said 30 days, 
and 30 nights adrift in the Indian Ocean without food, potable 
water. We drank sea water, salt water, urine, and blood. 
Nineteen men in that boat died; five survived.
    We were finally picked up by a Greek vessel and taken to a 
military hospital in Durban. I weighed ninety-seven pounds and 
suffered from exposure, malnutrition, dehydration, septic 
abrasions of the hands and feet, conjunctivitis of both eyes, 
shock, and tachycardia. After several months of 
hospitalization, during which time I was not paid, I returned 
to the Academy at Kings Point, graduated, and was commissioned 
as an Ensign, U.S. Naval Reserve, and licensed Third Mate in 
the Merchant Marine. Incidentally, on graduation from Kings 
Point today, and at that time too, you had your choice. You 
could go into the Navy. Today they can go into the Navy, the 
Marine Corps, the Air Force, the Army, any branch of the 
service, the education is that great. I chose the Merchant 
Marine.
    I continued sailing throughout the War, as Third Mate, 
Second Mate, and finally as Acting Chief Officer. And I was 
discharged from the Merchant Marine at War's end.
    It is noteworthy that Merchant Mariners in my lifeboat, in 
the lifeboat and in the hospital, were not paid, not a dime. 
The Navy gun crew were paid. Same boat, same guys, same 
hospital, they were paid, we were not.
    In 1944 the GI Bill of Rights was passed, but the Merchant 
Mariners received no veteran status or benefits. We received no 
GI Bill, no 52 weeks at $20 per week. Let me take a moment. 
Fifty-two weeks at $20 a week, $20 a week does not sound like 
much today. But in those days, we paid rent, my parents did, 
$30 a month for an apartment. Bread was ten cents a loaf. Milk 
was ten cents a quart. So $20 a week was substantial. We 
received no 52 weeks at $20 a week. No VA loans, no veteran 
health benefits, no family tax relief, no VA burial, no 
military transport, no generous life insurance, no mortgage 
interest deductions, even, and this was insulting, even at 
times no USO access. Yet we suffered the highest proportion of 
casualties of any branch of the armed service. More than 9,000 
Merchant seamen died and more than 700 American ships were 
sunk. The Merchant Marine suffered one out of every 26 died.
    It has been a long, hard battle for us to get veteran 
status. I ask you today to rectify that wrong. Please support 
H.R. 23. And Mr. Buyer, just for a moment, the Merchant Marine 
did receive veteran status in 1988 after a tough, tough 
struggle. But the benefits that we got were so limited. We were 
able to get a flag on burial. Now when I die they will give me 
a flag. I can be buried in a military cemetery. And a 
tombstone. I can go to a VA hospital but I have to pay because 
I am not penurious. And I think that is about it. So when you 
see veteran status, if you are concerned about that, we are 
veterans. But we receive no benefits. And I know that many of 
the guys, and I see them at installation meetings and so forth, 
are in real need. And these are real heroes.
    There is not very much more I have to say. But I think you 
understand, and we are hoping, we are depending on you to 
rectify this wrong and pass this bill.
    Thank you, Mr. Chairman. Thank you.
    [The statement of Mr. Rosen appears on page 76.]
    The Chairman. Thank you, Mr. Rosen. We have a third 
panelist, Mr. Brian Herbert, an author. Can you hear me, Brian?
    Mr. Herbert. Yes, I can.
    The Chairman. If you can give us 5 minutes that would be 
great.

                   STATEMENT OF BRIAN HERBERT

    Mr. Herbert. When I saw the injustices suffered by the 
Merchant Marine, I wrote a book about the situation that was 
published 3 years ago, ``The Forgotten Heroes.''
    This Nation owes a debt of honor to the men of the U.S. 
Merchant Marine who served the Allied cause so valiantly in 
World War II. As a government and as a people we have let these 
heroes down by denying military benefits to them. It is a 
shameful chapter in American history, and a national disgrace.
    From 1941 to 1945, the War Shipping Administration sent 
civilian seamen into war zones, transporting troops, bombs, 
tanks, planes, aviation fuel, torpedoes, and other dangerous 
war materiel. The typical Allied soldier in Europe needed seven 
to eight tons of military supplies a year to sustain his 
ability to fight, and 80 percent of that was provided by the 
U.S. Merchant Marine. These brave men became the lifeline of 
Allied forces overseas. Delivering essential cargoes, the U.S. 
Merchant Marine suffered more deaths per capita in World War II 
than any of the American armed forces--a 32 percent higher rate 
than the highly publicized losses of the U.S. Marine Corps.
    Packed with military cargoes, the slow moving ships of the 
Merchant Marine were easy targets for German and Japanese naval 
and air forces. Torpedoes fired at merchant ships carrying 
ammunition or petroleum often caused explosions so immense that 
no traces of the vessels or their crews were ever found. 
Merchant ship duty was so hazardous that some men quit at the 
first opportunity and joined the armed forces--where it was 
safer.
    Seamen suffered terribly. Medical workers and survivors of 
the torpedoed oil tanker SS John D. Gill reported that the 
flesh of burned Merchant Seamen ``would come off in your 
hands.'' When the SS Benjamin Brewster was torpedoed, a 
survivor described the ``screams of the dying, some boiled 
alive, others fried on the steel decks. . . .'' One of the 
engineers was a ``charred and misshapen figure'' on a 
stretcher. Among the Merchant Seamen who survived disasters at 
sea, many suffered amputations or other disfiguring injuries.
    At the end of the war, the men and women of the U.S. armed 
forces were honored with victory parades and the GI Bill, which 
gave them educational benefits and low-interest loans. But the 
members of the U.S. Merchant Marine received none of that. 
Instead they were shunned and ridiculed; they were called draft 
dodgers, slackers, and bums. Many former seamen became 
derelicts without homes after the war, left to wander the 
streets of America like stray, unwanted animals. Some of them 
committed suicide.
    The reasons for this involve politics, and a veil of lies 
and distortions that was placed over the achievements of these 
men. It has even been alleged that they were overpaid, perhaps 
the biggest untruth of all. How could they possibly have been 
overpaid when they died in huge numbers and when survivors were 
denied military benefits for their entire lives? As I proved in 
my book ``The Forgotten Heroes,'' these men were in fact 
grossly underpaid. They operated ships with skeleton crews. 
They performed the work of at least a half a million men, more 
than twice their actual numbers, and were sent into battle with 
the equivalent of pea shooters on their decks.
    During the war, the Japanese Imperial Navy ordered their 
commanders to sink enemy ships and cargoes, and to ``carry out 
the complete destruction of the crews . . . .'' As a result, 
American merchant seamen were machine-gunned in their 
lifeboats, tortured by submarine crews, and thrown into shark-
infested waters. Some survivors of the merchant ship SS Jean 
Nicolet--with their hands tied--were left on the deck of a 
Japanese submarine and drowned when the captain crash-dived the 
sub.
    The men of the U.S. Merchant Marine were independent sorts 
who often did not dress in uniforms or salute officers--and 
they have been criticized for this. But there is an old saying: 
``The uniform does not make the man.'' It is essential to keep 
in mind that this country was served at its time of greatest 
peril by men who performed their jobs efficiently and completed 
their military assignments. They were individuals--the very 
essence of what it means to be an American.
    They were also patriots. On June 27, 1942, Convoy PQ-17 
sailed from Rejkevik, Iceland with 34 merchant vessels. They 
were bound for Russia in a rescue mission, transporting food, 
clothing, and military supplies to the beleaguered Nation, to 
keep it from falling to enemy forces. On July 3, ``Lord Haw 
Haw'' the German version of Tokyo Rose, announced over the 
radio, ``The Americans celebrate the Fourth of July tomorrow, 
and we shall provide the fireworks.''
    The next day the German Navy attacked in force. During the 
one-sided battle, American merchant ships were in radio contact 
with one another, and coordinated a remarkable act of bravery 
and defiance. To commemorate American Independence Day, they 
simultaneously raised large national flags, and sang ``The 
Battle Hymn of the Republic.''
    There are countless stories of Merchant Marine heroism and 
patriotism--too many to tell in the time I have been allotted. 
Thank you for listening to my plea for justice. These men and 
their families deserve far more than we have given them. We 
would not be a free Nation today if the U.S. Merchant Marine 
had not sacrificed so much on our behalf.
    [The statement of Mr. Herbert appears on page 77.]
    The Chairman. Thank you, Mr. Herbert. And we thank the 
total panel. Mr. Hare, do you have any comments or questions?
    Mr. Hare. Well I again, Mr. Chairman, just want to commend 
the Merchant Marine for everything that you did for this 
Nation. And, you know, I was talking to some of the people from 
the panel prior out in the hallway, and I said, ``Sometimes 
justice takes a little longer.'' And it should not. But, you 
know, I believe this bill has tremendous support. As the 
Chairman said, I believe we will find the funds if we have the 
courage to find it, and we will. And I think it is after sixty-
plus years it is the very least that this Congress and this 
country can do. And to all of you, and Mr. Herbert, on your 
book, I am anxious to take a look at read it. But I just want 
to thank you very much for everything you did for this Nation. 
And understand that, you know, sometimes, you know, being the 
new kid again here I have a tendency to talk maybe too much. 
But in this instance I do not think I can ever thank you enough 
for what you have done. And I just really appreciate that. I do 
not know if you folks had any other comments other than that. 
But just know that we genuinely care, and we will get this 
done.
    Mr. Rosen. I simply want to point out--thank you, sir, 
thank you for your remarks. But I am 88 years old. I am 
guessing a year or two older than the average of the Merchant 
Seamen. But you must remember, if you are thinking in terms of 
dollars and sense, it is going to be diminishing returns in 1 
month, 2 months, 3 months. The first month may be, as the 
Chairman pointed out, $100 million, the first year. But 
thereafter, it is going to drop precipitously. And I do not 
think that the money is going to be an object when you get down 
to listening to the facts and determining the issue. We 
certainly hope and expect that you will do the right thing.
    Mr. Gleeson. Just two final comments, and I know everybody 
is getting late here. A lot of people do not know, when we 
finally got the bill passed in 1998----
    Mr. Rosen. 1988.
    Mr. Gleeson. No, 1998, which was the final for the Denied 
Seaman. There was the Federal court case in 1988, and then 
there was the legislation finally after ten years. I had to get 
my honorable discharge. I had to pay $30 to the Coast Guard. I 
was eligible for several medals, I had to buy my medals. Nobody 
else has been subjected to that type of thing. And then the 
testimony that I did not read the item is on page three. It 
really has to do with money. And it said that the Senate and 
House in 1996 passed Senate Bill 281 by a voice vote, a bill 
that established the start of the Vietnam conflict as February 
28, 1961, not the August 5, 1964, date following the Tonkin 
Gulf incident. This legislation, which was spearheaded by 
Senator D'Amato from New York, belatedly, they used the term 
belatedly, recognized 16,000 servicemen who had been serving in 
Vietnam during that time period. The Congressional Budget 
Office stated, as they have to, that this act would have no 
significant impact on the Veterans Affairs budget. These men 
richly and deservedly got the belated government recognition 
and response because many of them had service related 
disabilities because Agent Orange was starting to show up. And 
I am glad Senator D'Amato did this.
    The only reason I bring this up is not to minimize anything 
they did. But to say that there were 16,000 people that now had 
full veterans benefits and there was no budget impact.
    Mr. Hare. Well, let me just say one final thing. You are 
right, Mr. Gleeson and Mr. Rosen, this is not just about the 
money. Because you are right, you know, the diminishing returns 
because unfortunately over 60 years. It is really about a 
statement from this Congress, and from this government, and 
from the American people, you know, to recognize what you have 
done. And, you know, and again it has taken an awful long time 
to do that. So it is really much more than $1000. You know, 
because the money is never going to be able to pay back the 
sacrifices that you and the people who came before you and the 
people we have lost have made. So, you are right, it is not 
about the money at all. It is really about doing what is right. 
And I commend the Chairman for this bill. I think it is a 
wonderful opportunity to right a wrong and I look forward to 
supporting it. So thank you very much.
    Mr. Gleeson. Congressman, we are not loved by many people.
    Mr. Hare. You are by me.
    Mr. Gleeson. No, no, this is in the records. And I will 
finish with one statement. That if anybody wants to read 
something, they read the court final case, Judge Oberdofrer. 
Because he mentions that the negative approach to this whole 
thing was brought forth not only by the Navy but by certain 
service organizations. And that has been the VFW and the 
Legion. And the VFW has been against us ever since, because 
when you started off with so many millions of people after 
World War II they did not need anybody else coming to you 
asking for benefits. Now, the VFW still has not accepted us 
because they say we have to change our Federal charter. The 
American Legion, now, I have my American Legion card, I am a 
life Member of the AMVETS out in New Jersey. So what I am 
saying, if I want a beer, I can get a beer some other place. 
But people should stop poor mouthing us.
    I mean, just ask anybody. And I wrote a letter to the VFW 
newsletter once when they asked for ``how does everybody feel 
about letting these fellows in?'' Two to one, the veterans 
said, ``Let them in.'' And the VFW then sent another letter out 
in their newsletter saying, ``Well, we are done with that issue 
we are not going to bring it up again.'' We do not care whether 
we get into the VFW. But we know, from people like you talking 
to us over the years, when someone comes in and asked you to do 
something, many people have said, ``Now, do not do anything for 
those guys.'' I do not think that is right, but everybody 
lobbies their own way. But, you know, after a long time it sort 
of wears thin. But you have to read not what we say, but what 
the Federal court said and the people who were against us. It 
is right in the writing, Judge Oberdofrer's opinion. The Navy 
was opposed to this, and since that time the wagons have closed 
in and we have had trouble ever since. Thank you very much.
    The Chairman. Thank you. Mr. Buyer, any final comments for 
this panel?
    Mr. Buyer. Yes, I just have one comment. I encourage the 
Sergeant Major to read this hearing in 1945 because I think you 
are going to find it really fascinating. Because this was a 
very extensive hearing. And listening to the conversations 
between the Merchant Mariners as they testified before the 
Merchant Marine and Fisheries Committee. And you have veterans 
of World War II who are on the Committee. And it appears in the 
record that these World War II veterans who are serving in 
Congress on the Committee with the Merchant Mariners in front 
of them, got into the whole pay issue. And I am not going to, 
you are a veteran today. But it is kind of interesting going 
back into the record. It really bothered, it must have really 
bothered these Members of Congress who had served in the Army 
or the Marine Corps in a combat zone and then, I mean, they 
pulled out the records that show all the different bonuses that 
you had received. Your voyage bonus, port bonuses, area 
bonuses, port pack bonuses, and different percentages----
    And it appears that these Members of Congress, I am just 
trying to get into the mind of the decisionmakers.
    Mr. Gleeson. Right.
    Mr. Buyer. The decisionmakers at the time, who also then 
served on shore duty, saying, ``Well, wait a minute. I did not 
get a bonus because I got attacked last night.'' Or, ``I did 
not get a bonus because,'' I mean, it appears by looking at 
this record that--so let me ask this question. When you get 
around some of your comrades, do they still talk like this?
    Mr. Gleeson. Service organizations at that time, 
Congressman, were very powerful. But people also, if they want 
to read the record, they go back to an exchange of letters and 
memos, Presidents do not write letters, they send memos, from 
President Roosevelt to Secretary of War Patterson. You know, 
``it is my opinion that we should consider these people 
veterans.'' Patterson then says, ``You mean to say that you 
said that we should consider,'' Roosevelt wrote, ``Yes.'' Two 
years later in these type of hearings, Secretary of War 
Patterson had a fog. He could not remember Roosevelt ever 
telling him anything. So what I am saying, this whole issue 
would pile paper up over all the thing, and it is whether these 
people felt this, what happened here. The hearings that Jack 
Fields had, Congressman Fields, who held this, for 6 years he 
tried to run this in Congress. He almost came to blows outside 
this meeting room here with a general who could not tell him 
how the August 15 date came about. And people standing right 
there will testify. So this whole thing is just fraught with he 
said, you said, they said, and here we are sixty-two years 
later, probably doing this the last time, and we cannot say our 
information is better than that information.
    And that is interesting. There have been a number of 
hearings, incidentally, Congressman, over the years on this and 
back in the eighties there were hearings when all these 
different petitions would come in.
    One last thing just to show you how bad it gets and then I 
am through, please. After Congress in 1998 passed the bill, and 
Mr. Filner you were on that bill. And after the Secretary of 
Defense, Cohen, sent a letter to Mr. Stump saying, ``We have 
done this,'' and Senator Lott said to somebody else, ``This is 
all now cleared,'' the Civilian Military Service Review Board 
in view of the fact that the Secretary of Defense says they are 
veterans, turns down Mr. Burt Young's petition to classify us 
as veterans.
    Mr. Buyer. Today, though, Mr. Gleeson----
    Mr. Gleeson. Pardon?
    Mr. Buyer. Today, before this Committee, your testimony 
before this Committee, we recognize your valor, your service, 
and your veteran status.
    Mr. Gleeson. Right.
    Mr. Buyer. That is not what the debate is.
    Mr. Gleeson. That was not the point. I am just trying to 
make the point.
    Mr. Buyer. I understand.
    The Chairman. No, your time is up. I must say in a lot of 
the writings that you can read, many of the servicemen at the 
time, as you pointed out, and the Congresspeople who might have 
served, had a misunderstanding of the pay structure. They 
thought there was higher pay. But as was pointed out, between 
ships, if you were sunk, if you, on short----
    Mr. Herbert. No pay, no pay.
    The Chairman. It adds, it is roughly comparable, probably a 
little less for the Merchant Marine. Mr. Walz?
    Mr. Walz. Well, first of all I would also again say thank 
you for coming here. I am glad that this is the second time you 
have testified. I was not around 62 years ago so I am glad to 
be here on this one. And I would mention, I will, I appreciate 
the Ranking Member's pointing out the testimony, and I promise 
that I will read that and get back.
    The comments that the active forces argued against the 
Merchant Marines being in. I can somewhat identify with you 
having spent 24 years in the National Guard. I lived through 
the weekend warrior things and all that, but I think this 
Nation has realized recently as the National Guard has 50 
percent of the troops in Iraq and Afghanistan, it is a pretty 
important force. And they are now starting to look at changing 
the GI Bill to a 21st Century GI Bill that reflects the need 
and the use of that. But I can tell you, and Mr. Buyer, your 
time in the Reserve, I would be guessing that you maybe have 
heard some of that too over the time. That just because you 
were not doing the active service the entire time, that you 
were somehow of a lesser status. And I have always been one to 
believe that I make no separations, a veteran is a veteran is a 
veteran. We have gotten into that slippery slope here in this 
Congress of deciding that the category eights are not deserving 
of VA funding and those types of things. Or we are going to 
attach a fee, which is all the rage here right now, the combat 
veteran tax is what we tend to call it here.
    Those types of things do not change the fact, and I will 
read that testimony, but the fact is that service rendered is 
service rendered to this Nation. And I can assure you that I 
will do everything possible to make sure we try and correct 
this.
    Mr. Gleeson. Thank you, sir. Thank you very much.
    The Chairman. Thank you. Thank you, colleagues, thank you 
panel. And we will take all your testimony in concern. We have 
one more person to hear from.
    Mr. Gleeson. Thank you for staying with us.
    The Chairman. Sure.
    Mr. Rosen. Thank you for hearing my testimony.
    The Chairman. If the VA witness would come forward, Bradley 
Mayes, Director of the Compensation and Pension Service for the 
Veterans Benefits Administration. Thank you for being here. Mr. 
Mayes, thank you for coming. You have five minutes.

   STATEMENT OF BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND 
    PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY THOMAS PAMPERIN, 
  DEPUTY DIRECTOR, COMPENSATION AND PENSION SERVICE, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
AND RICHARD HIPOLIT, ASSISTANT GENERAL COUNSEL, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Mayes. Mr. Chairman, members of the Committee, I am 
pleased to be here today to provide the views of the Department 
of Veterans Affairs on the Belated Thank You to the Merchant 
Mariners Act of 2007. I am accompanied today by Mr. Thomas 
Pamperin, Deputy Director of the Compensation and Pension 
Service, and Mr. Richard Hipolit, Assistant General Counsel.
    Mr. Chairman, let me start out by recognizing the 
sacrifices made by members of the United States Merchant Marine 
Service, Merchant Mariners during World War II, and note that 
we currently treat these individuals as veterans by virtue of 
their service. And I am proud of that fact.
    With regard to H.R. 23, I note that Title 46 of the United 
States Code provides for the payment of burial benefits and 
internment in national cemeteries of certain former Merchant 
Mariners. H.R. 23 would amend Title 46 to require VA to pay 
certain Merchant Mariners a sum of $1000 per month. This new 
benefit would be available to otherwise qualified Merchant 
Mariners who served between December 7, 1941, and December 31, 
1946, and who received honorable service certificates. The 
surviving spouse of an eligible Merchant Mariner would be 
eligible to receive the same monthly payment, provided that he 
or she had been married to the Merchant Mariner for at least 1 
year prior to the Merchant Mariner's death.
    VA does not support enactment of this bill for several 
reasons. First, to the extent that H.R. 23 is intended to offer 
belated compensation to Merchant Mariners for their service 
during World War II, we note that many Merchant Mariners and 
their survivors are already eligible for veterans benefits 
based on that distinguished service. Pursuant to authority 
granted by Section 401 of the GI Bill Improvement Act of 1977, 
the Secretary of Defense in 1988 certified that service in the 
oceangoing service between December 7, 1941, and August 15, 
1945, is active military service for VA benefit purposes. As a 
result, these Merchant Mariners are eligible for the same 
benefits as other veterans of active service. This bill appears 
to contemplate concurrent eligibility with benefits that 
Merchant Marine veterans may already be receiving from the 
Department of Veterans Affairs. This would be a special 
privilege that is not afforded other veterans. Further, to the 
extent that Merchant Marine veterans may be distinguished from 
other veterans due to this belated recognition, we note, as the 
Ranking Member, Mr. Buyer, noted, there are myriad other groups 
that could claim that they were similarly disadvantaged.
    Second, while there can be no doubt that Merchant Mariners 
were exposed to many of the same rigors and risks of service as 
those confronted by members of the Navy and the Coast Guard 
during World War II, the universal nature of the benefit that 
would be provided under this proposed legislation for 
individuals based on qualifying service, and the amount of the 
benefit that would be payable, are difficult to reconcile with 
the benefits VA currently pays to other veterans. This proposed 
legislation would create what is essentially a service pension, 
as was discussed, for a particular class of individuals based 
on no eligibility requirement other than a valid certificate of 
qualifying service from the Secretary of Transportation or the 
Secretary of Defense. Further, this bill would authorize the 
payment of a greater benefit to a Merchant Marine veteran 
simply based on this service than a veteran currently receives 
for a disability rated at 60 percent due to service, and injury 
due to service. As the same amount would be paid to surviving 
spouses under this proposal, there would be a similar disparity 
in favor of this benefit in comparison to the basic rate of 
dependency and indemnity compensation for surviving spouses as 
provided for under Chapter 13 and Title 38.
    Mr. Chairman, you requested our views on two alternative 
proposals to provide the monthly $1000 payment or a one-time 
lump sum payment of $20,000 to living Merchant Mariners only. 
Although those proposals would lessen the costs of the 
legislation, they would generate many of the same inequities as 
H.R. 23 by according Merchant Mariners significant preferential 
treatment not provided to other classes of veterans.
    VA estimates the enactment of H.R. 23 as introduced would 
result in a total additional benefit cost of approximately 
$234.1 million in the first fiscal year, and an additional 
benefit cost of $1.4 billion over 10 years. We estimate the 
benefit cost of a bill covering living Merchant Mariners only 
to be $163.4 million during the first year, and $790.3 million 
over 10 years. We estimate the cost of providing a one-time 
lump sum payment to living Merchant Mariners in fiscal year 
2008 to be $272.4 million. We also estimate that additional 
administrative costs associated with the need for more 
employees to process claims for the new monetary benefit would 
be approximately $893,000 during the first fiscal year and $6 
million over 10 years.
    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions you or the other members of the 
Committee may have. Thank you.
    [The statement of Mr. Mayes appears on page 83.]
    The Chairman. Thank you. Mr. Hare do you have any comments? 
Questions?
    Mr. Hare. You say it is difficult to reconcile. I am just 
wondering, would you agree or maybe disagree. I mean, we have 
had sixty years here, it seems to me, of neglect for our 
Merchant Marines. And we had, it was mentioned earlier, 
Filipino war veterans, and that kind of, you know, you say this 
money would put them higher. But again, is that not, that is 
based upon a level playing field, which this is not, is that 
not correct? From my perspective, the vets that have been 
receiving the benefits that they justly deserve, and I want 
them to keep getting that. As a matter of fact I think they 
ought to be increased if anything, but we are comparing this to 
a group of people who have been significantly neglected here 
for many years. Is that correct or no?
    Mr. Mayes. The way I am approaching this, as I look at it, 
it seems that we are attempting here with this legislation to 
rectify the delay in recognizing veteran status for this group 
of individuals. Distinguished people who put their life on the 
line, no question. There really is no precedent that I am aware 
of for trying to compensate for this delay. We are providing 
benefits right now. There are over 1,000 Merchant Marine 
veterans in receipt of either disability compensation or 
disability pension. We stand ready to assist any Merchant 
Mariner with an application for benefits, to counsel them on 
their benefits, to help them achieve status with Department of 
Transportation or Department of Defense. The Department of 
Veterans Affairs is not set up to make reparation for this lack 
of status for these many years.
    Mr. Hare. Well, let me ask you this, then. If, you know, 
the Ranking Member listed a very lengthy member of 
organizations, including the Flying Tigers. Assuming that the 
money was there, I assume the VA would have no problem in being 
able to give those folks compensation also. In other words, it 
is not pitting one group against another group. So if the money 
was there, I assume you would have, there would be no problem 
from your perspective. So this is really, I guess what I am 
trying to ask you is, this is a dollar and cents thing, 
according to the VA, not a question of what is fairer. It is 
just really, you were mentioning the money. And then also on 
that, are these figures not based upon, I mean, you are looking 
at people who are, for a ten-year period of time, some of these 
people who testified today are in their eighties. So are those 
figures not kind of, from your perspective, inflated based upon 
the life expectancy of our Merchant Marine people?
    Mr. Mayes. Well, let me, if I could sir, back up just a 
moment. I think it is not correct that we would say that if we 
made similar benefits available to all of those classes of 
individuals, civilians, who supported the war effort that we 
would support legislation to that effect. The Department of 
Veterans Affairs has in place a Disability Compensation Program 
that is set up to compensate for disability that is incurred in 
or aggravated while on active duty. We have a pension program. 
The pension program is to honor our older veterans in their 
later years so that they are not living in poverty. And so, 
there really is no basis for a program to compensate these 
distinguished people through the Department of Veterans Affairs 
for this delay. I mean, the truth is, there were hearings over 
the years. The American people, and I for the life of me do not 
know why, decided that they should not have veteran status. I 
am glad that the Congress did that in 1977. And we are honoring 
their service today.
    Mr. Hare. It just seems to me that the $1000 per month that 
we are talking about in this bill, (A) It is not a budget 
buster, and (B) It seems to me given the length of time that 
has passed in terms of what we have not been able to compensate 
our Merchant Marine people for, it seems to be, you know, like 
spitting in the ocean. So really, as I said to the other panel, 
I do not think from my perspective this is really about the 
$1000 a month. I think this is about the recognition, and this 
Congress, and this government saying to our Merchant Marine 
that for sixty years you have been treated as second-class 
citizens and it is time to move you up to the front here. At 
least put you on even par with everybody else. So, with that I 
would yield.
    The Chairman. Thank you. Mr. Buyer?
    Mr. Buyer. Therein lies our challenge, Mr. Hare. You use 
the word ``fairness.'' So, if you want to say, okay, what is 
fair? I am going to go down this track and follow your line of 
thinking. If in fact we wanted to do something that is 
unprecedented. The only thing we have in comparison would be 
the pension benefit which the VA would pay the one that we 
established for the Medal of Honor. You would have to say 
compared to those similarly situated, all these other 38 
groups. So if Mr. Filner actually brought this bill, and to 
follow your--I would not know. I am just saying, if you want to 
follow fairness out to its logical result, you would be 
bringing an amendment to incorporate all of these 38 groups so 
that they are treated similarly. Is that what your position is?
    Mr. Hare. Does the gentleman yield?
    Mr. Buyer. Yeah.
    Mr. Hare. I would like to see us, at some point, to be 
honest, recognize every person that has put in. I mean, the 
testimony that we have heard today, people sitting in life 
rafts for thirty days, prisoners of war, you know, marched off 
to Burma to work on bridges, I would certainly hope that at 
some point this Nation, not just this Congress, but this 
Nation, but I think we have to lead here, absolutely. Because I 
think this, and I agree with you, Mr. Buyer, this is not 
pitting valor against valor. To me, it is a question of what is 
fair and what is right. And when I look at the kinds of silly 
things that this Congress in recent years has spent money on, 
this to me seems, it is a moral obligation from my perspective 
that we have to the people who have given everything they had, 
including their lives, to this country.
    Mr. Buyer. So then if the rationale is moral obligation and 
fairness, then we cannot end with those, these thirty-eight 
groups. Because then you have to say Merchant Mariners of 
Korea, of Vietnam, of the Gulf War, to include these civilian 
ladies and other civilians that were held as prisoners of war 
during Vietnam, and others. I mean, there is a large 
classification. We, as we note from this hearing and about our 
history, when we go to war, civilians go with us. And so we 
have to define that status. That is what we do at this 
Committee, and define pensions, and define benefits. And the 
hardest thing, I have found, is defining that subjective term 
that you just said, fairness.
    Mr. Hare. It may be hard, Mr. Buyer, but again, if I could, 
the fact of the matter remains, I think, and this is just one 
person's opinion. It boils down to doing what is right. You 
know, whether it is the Filipino veterans who we promised 
benefits to and now we are talking about whether or not we can 
afford to do that. Whether it is our Merchant Marines, and the 
VA is saying, ``Well, you know, it is $1000, and you know, 
where do the figures come from?'' I hope that at some day we 
can get to a point that no matter what you do for this country, 
what your status is, if you are willing to put your life on the 
line to defend this country that this Congress and that the 
American people will rise to that occasion. Because to do 
anything less than that, from my perspective, I think is 
disingenuous for us. It is----
    Mr. Buyer. It is important, let me just say this, Mr. Hare. 
It is important with regard to the judgments we make and how 
they will also be defined in the future. The reason I brought 
up the present conflicts is because when the Army went through 
this transformation we also transformed the logistical 
functions, and we have over 60,000 contractors now in the 
combat zone performing functions that our uniformed armed 
services used to perform. So are we going to face, twenty 
years, thirty years, forty years from now these individuals 
coming back, using the same doctrine, this fairness doctrine 
which is being appealed.
    This is a great discussion to have. I have learned, and I 
just want to share with my Mariner comrades in the back, even 
when I chaired Personnel on Armed Services I would have 
individuals write me wanting to say my division was attached to 
another division or part of the Army, and we supported the 
right flank but we did not get the Presidential Citation that 
some other got. I mean, it was unbelievable the different 
requests that they would make for me to try to redefine 
history. And it is hard. I just want you to know how hard that 
is as a judgment to make.
    I just am very, very concerned. And I do not question your 
valor. I do not question your service. I applaud it. I do not 
question that sincerity of the Chairman in what he wants to do. 
I am greatly concerned about all of these other recognized 
groups under Public Law 95-202 who are similarly situated, and 
whether or not they would also be entitled to pension benefits. 
With that, I yield back.
    The Chairman. I thank the gentleman. I thank the panels 
again. Mr. Buyer, I do want to thank you, although I think to 
hear your comments we disagree. But I want to thank you for 
participating in the dialogue and staying here for the full 
time of the hearing.
    I just want to say to Mr. Mayes and the VA, by the way, how 
many surviving Mariners did you use in part of your calculation 
here?
    Mr. Mayes. What we did was, we used 160,000, based on the 
numbers at the end of the War. We applied mortality rates to 
that, and then assumed----
    The Chairman. How many? I do not care how you got there. 
How many Merchant Mariners? You could have just asked them how 
many are in their organization, it would have been a lot 
easier, but go ahead.
    Mr. Mayes. We can get you that information.
    The Chairman. You do not know the number that you are using 
for all these figures?
    Mr. Mayes. We used 160,000 in the cost estimate. That was 
the number----
    The Chairman. Yeah, but how many are alive today that are 
going to get this fiscal year 2008 thing that you have here? 
You had to have some number.
    Mr. Mayes. I will have to get that to the Committee. I want 
to make sure that I give you an accurate----
    The Chairman. I cannot believe that you have the millions 
of dollars, and how much it is going to cost 10 years from now, 
and you do not know the numbers you are going to use to 
calculate that? I think you are way over estimate anyway, and 
you could have just turned around and asked these guys how many 
instead of applying these mortality figures and all this.
    Mr. Mayes. I do have it.
    The Chairman. Okay, well I am glad you do.
    Mr. Mayes. Sorry. For fiscal year 2008, it is 13,620 
Merchant Mariners.
    The Chairman. And in ten years?
    Mr. Mayes. And in ten years, year 2017, 1,674. Let me go 
ahead and give you the spouses as well. The spouse caseload for 
2008 is 5,890. And for 2017 it is 3,092.
    The Chairman. Thank you. I just want to point out in your 
testimony you said, ``The VA is not set up.'' I mean, it is 
like some abstract thing that was handed down to us from some 
great bureaucrat in the sky. Let me remind you that the 
Congress sets these things up. The Congress decides. So we can 
tell you who we should fund. I do not care how it is set up. We 
set it up. And we can change how it is set up. And just because 
there is no precedent, so what? I mean, you guys talk about, 
well, we have got to do it as it has always been done. And oh 
we, you know, we decide that and we are going to decide this, 
and I do not care how you are set up and I do not care what 
precedent is. If we decide this is the right thing to do, we 
are going to do it.
    So, it is your thinking that bothers me. I mean, you gave 
some recognition to their sacrifices and then you go on to 
basically dismiss them in all the things that you said. So we 
found the way, I should tell the folks in the audience, to get 
the VA to stay for all the testimony by putting them on last. 
But I would think they would refer to some of the things that 
were said, and they did not. But thanks for being here, but, 
you know, the precedence, or the existing organizations have no 
convincing value to us here in the Committee, at least to some 
of us.
    I thank all the Mariners who have been here, who have 
traveled across the country, some who had to be here by phone. 
I think we learned a lot today. I think we educated 
Congresspeople, therefore educating America, and I think we are 
a lot better for it. Thank you so much.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]



















                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Bob Filner,
                   Full Committee on Veterans' Affairs
    Good Morning:
    Honored Guests, Committee Members, and the brave men and women of 
the Merchant Marine.
    This morning, our Committee continues its quest to correct a grave 
injustice heaped upon the gallant men of the Merchant Marine of World 
War II. We are here today to shed some light on the mysteries 
surrounding the treatment that the Mariners suffered by being denied GI 
Bill benefits at the end of WWII and to find a way to compensate them, 
60 years later, for their heroic deeds.
    It is indisputable that the Allied Forces would not have been able 
to begin, sustain, or win WWII without the valiant service of the 
Merchant Marine. The ships they commanded carried troops, tanks, food, 
airplanes, fuel, locomotives and other critical supplies to every 
theater of war. Merchant Mariners participated from the beginning of 
the war both here and abroad--from the Atlantic coastal waters of the 
U.S. and England and from Normandy to Okinawa. In the concluding months 
of the war, as a part of Operation Magic Carpet, the Merchant Marine 
ships brought home over 3.5 million men deployed overseas.
    During WWII, Merchant Mariners worked the most dangerous details 
and suffered the highest casualty rate of any of the other branches of 
service, with nearly 1 in 26 dying in the line of duty. A death rate of 
this magnitude is unimaginable and would not be tolerated in our 
current wartime endeavors in Iraq and Afghanistan. But the hulking, 
slow Liberty Ships of the day were little more than sitting ducks for 
German u-boats and wolf packs. The government suppressed these dreadful 
numbers to ensure a steady stream of Merchant Marine volunteers, needed 
to man the thousands of Liberty Ships built in anticipation of the war 
effort. At this time I would like to submit for the record a joint 
letter of support from four Maritime Organizations wherein it quotes 
General Dwight Eisenhower, leader of the Allied Forces of WWII, who 
succinctly summed up the contributions of the Merchant Mariners, ``When 
final victory is ours there is no organization that will share its 
credit more deservedly than the Merchant Marine.''
    Many of the Merchant Marine detractors claimed these men were draft 
dodgers. Nothing could be further from the truth. During WWII, there 
was active recruitment for men to join the U.S. Maritime Service (USMS) 
which trained the Merchant Marine. There were 37 official government 
recruiting offices set up around the country, with many offices located 
next to the Navy and Coast Guard offices. Untold numbers of these men 
were steered from the uniformed branches to join the Merchant Marine 
because, as they were told by the recruiting officers, that's where 
your country needs you. Also, the Merchant Marine was ahead of its time 
because it was the only branch of service that did not discriminate 
based on race and that accepted men as young as age 16. The short story 
is that the country needed these men, and these men wanted to serve. 
The majority were unaware of the fine distinctions between the Merchant 
Marine, Navy, Coast Guard or other armed branches in terms of veteran 
status after wartime.
    I believe their confusion was genuine. Congress passed the Merchant 
Marine Act of 1936 to rebuild our Nation's Merchant Marine that had 
died out after WWI. Also in 1936, the U.S. Maritime Commission was 
established to oversee the rebuilding of this fleet. Along with the 
U.S. Maritime Service (USMS), the training arm set up in 1938, it grew 
the number of Merchant Mariners from 55,000 pre-war to over 250,000 men 
and opened training facilities around the country, including Sheepshead 
Bay and a full Merchant Marine Academy by 1942.
    Once at war, in 1942, the U.S. War Shipping Administration, as an 
emergency wartime agency, took control of the purchasing and operation 
of commercial shipping vessels. Hence, all Merchant Mariners were under 
the auspices and control of this Federal Government agency. The Navy, 
as author Brian Herbert notes in his book, The Forgotten Heroes, 
exerted ``de facto authority'' over the Merchant Marine service when it 
gained control of the Coast Guard--which in 1942 had become responsible 
for the inspection of Merchant Marine vessels and for the examination, 
licensing and certification of Merchant Marine personnel.
    Trying to figure out who controlled the Merchant Marine and who 
should have made certain that the Merchant Marine of WWII were included 
as veterans is as futile as a game of ``Who's on First?'' The question 
is who got lost in this bureaucratic, interagency shuffle? The answer 
is the Merchant Mariners who served selflessly despite all of the 
discord. I believe today--as I always have--and as Judge Louis 
Oberdorfer decided in 1988 in the seminal case brought by Stanley 
Willner and other mariners (Schumacher, Willner, et al., v. Aldridge, 
665 F. Supp. 41 (D.D.C. 1987)), that these men had every reasonable 
expectation that they would be treated as veterans for their service to 
our Nation and would be able to partake in any and all benefits that 
came with that status.
    I want to emphasize that we are not here to establish whether or 
not these men are veterans. That was determined finally in 1988. We are 
here today to try to give them their due in compensation. Without 
question, the Merchant Mariners deserve our undying gratitude, not just 
in words but in deeds. Yet at the war's end, they received nothing. 
During WWII, if a Mariner died while in combat, his family was eligible 
to receive $5,000 from the War Shipping Administration. That's it. If 
he lived or was injured, he and his family received nothing. No GI 
Bill--no readjustment pay, no unemployment benefits, no educational 
assistance, no housing or farm loan assistance, no VA hospitals or 
benefits, no priorities for local, state and Federal jobs, not even 
participation in V-Day celebrations and parades. Not until 1988, after 
a hard-fought and ugly legal battle, did these men receive veteran 
status after 40 years of struggle. For 125,000 Merchant Mariners, it 
was already too late. What a travesty of justice!
    Why these men were not included in the 1944 GI Bill of Rights 
remains a mystery. Was it because their chief champion, President 
Franklin Delano Roosevelt, a seaman himself and creator of the Merchant 
Marine Academy and the U.S. Maritime Commission and Service, died in 
April 1945? Were the Merchant Mariners caught up in the crosshairs of 
the politics of the day, of yellow journalism, of bad publicity, of 
rumors of strikes and draft dodging, of the anti-union sentiments, of 
the anti-communism scare, of racism, of competition with the uniformed 
branches, or was it just that a hybrid militarized organization got the 
short end of the stick when veteran status was being decided--
disenfranchised without a voice at the proverbial table? Or, was it the 
confluence of all of these events? Will we ever know the real truth?
    There are a few naysayers that will claim that the Merchant 
Mariners simply had dangerous jobs--jobs that would compare to the 
contractors of today in Iraq, paid by a private firm, paid a much 
higher rate than the average soldier and willing to assume the risks 
because of their high level of compensation. This is simply not true of 
the Merchant Marine of WWII. They were not paid more, but comparably 
and in some instances less, as the chart displayed to my left and 
attached letter indicate, which I would like to submit for the record. 
Exhibit 1. Moreover, they were only paid when they were working. When 
their ship was torpedoed or sunk and they were in shark infested waters 
in a life boat, they were not being paid. POW, not paid. Wounded, not 
paid. Stanley Willner of the 1988 legal case, not paid. I know that a 
few of the witnesses today will expand on the wage issue, the greatest 
myth surrounding the Merchant Marine.
    This is why I re-introduced the Belated Thank You to the Merchant 
Marine of World War II Act of 2007, H.R. 23. As many of my colleagues 
know, this bipartisan, bicameral bill will provide $1,000 a month to 
Merchant Marine veterans and to their surviving spouses to give them 
the real thanks that is long overdue.
    Would this compensation correct the wrongs of the past? Does it 
mean that Merchant Mariners did not lose out on the advantages afforded 
to the other great men and women who served in WWII--namely through the 
1944 GI Bill? NO. Does it lessen the hurt and betrayal they felt when 
they were not recognized by their country upon return from combat 
theaters around the world defending America? NO. Does it mean that men 
like Stanley Willner, who spent three-and-a-half years as a Japanese 
POW, dropping from 135 to 70 pounds, working endless hours with little 
subsistence in nightmarish conditions building a railroad over the 
River Kwai, only to receive 2 weeks of medical care and little else, 
will ever be made whole? NO. This country needs to stop telling these 
men and their families, NO. This hearing, I hope, is but the beginning 
of ``yeses'' for belated compensation for these deserving souls.
    Deserving souls like Stanley Willner, Ian Allison, Henry Van 
Gemert, Dean Beaumont, Frank Dooley, Dick Wiggins, Eldon Swopes, Bill 
Jackson, Eugene Barner, Burt Young, Warren Leback, Dennis Roland, 
George Duffy, Hank Rosen, Dan Horodysky, Marvin Willenburg, Joe Katusa, 
Joe Chomsky, Gerald Starnes, Mark Gleeson, Fernando Vallas, Bruce 
Felknor, and Mr. Nicolich--for those still with us today and for those 
who have crossed the bar.
    Lastly, it is well worth noting that in February 2000, our friends 
to the North, Canada, recognized the service of its Merchant Marine by 
giving those who served two or more years, lump sum payments mostly in 
the range of $20,000. I would like to submit an article for the record 
that explains how this award was made. Exhibit 2.
    Members of the Committee, we recently learned of the passing of one 
of the last veterans of World War I. When we heard the news, each of us 
felt a collective pride in our hearts for his service to our Nation. 
That is why the designation of being a veteran is so important. When 
people hear the word, they think of the selfless service of men and 
women who are willing to put their lives on the line for their 
countrymen. That is what the Merchant Marine did selflessly, and that 
is why they received the veteran designation in 1988. That is why they 
deserve to receive belated compensation for their delayed ascension to 
veteran status.
    President Washington got it right when he said, `The willingness 
with which our young people are likely to serve in any war, no matter 
how justified, shall be directly proportional as to how they perceive 
the Veterans of earlier wars were treated and appreciated by their 
country.' We are here today--to begin to right this tremendous wrong 
and to give the Merchant Marine veterans of WWII their due--in deeds 
not words.
    I would like to now recognize, Mr. Buyer, Ranking Member of the 
Committee for his opening statement.
                                 ______
                                 

                               EXHIBIT 1

  Answer to the Supposed Inequity in Pay Between Merchant Seamen and 
              Members of the Armed Forces in World War II

                                        War Shipping Administration
                                              Training Organization
                                                Washington 25, D.C.
Mr. Arren H. Atherton
National Commander, The American Legion,
National Headquarters, Indianapolis, Ind.

    Dear Mr. Atherton,

    This will acknowledge receipt of your letter of October 27, 1943, 
in which you stated the position of the American Legion with regards to 
inclusion of Merchant Marine Seamen on Legion Honor Rolls. If these 
community honor rolls are dedicated specifically to, ``those serving in 
the Armed Forces,'' then of course merchant seamen are not eligible. 
If, however, any are dedicated to, ``those in the war service,'' in the 
service of our country, or ``of the United States,'' then it is 
believed proper that merchant seamen should be included. We cannot of 
course agree that service in the Merchant Marine can be, in any way, 
considered as only equivalent to home guard, civilian defense, etc., 
since these activities have few casualties directly attributable to 
enemy action, as has the merchant marine. The casualty lists show that 
the percentage of casualty in the merchant marine is at least three or 
four times the percentage for any of the Armed Forces.
    We wish further to correct an impression which you have in regard 
to the pay of men in the merchant marine. We believe it particularly 
unfair to compare the highest paid merchant seamen to the lowest paid 
member of the Armed Forces, as is done so often. Particularly, you 
mention that the gun crew on board merchant vessels draw from $50.00 to 
$80.00 per month. For your information, all Navy personnel assigned to 
Navy gun crews are at least seamen first class. The base pay for this 
rate is $66.00 with a 20 percent sea-pay bonus, bringing this to 
$79.20, which is the very smallest pay drawn by any member of the Armed 
Guard range up to Petty Officer second class, the base pay plus 
allowances for that grade being $115. The above, of course, is minimum 
and applicable only to single men without dependents. If he is married 
or has dependents to whom he allots $22 per month from his pay, the 
Government pays to his dependents further allowances in accordance with 
the following table.

 
 
------------------------------------------------------------------------
Wife                                                             $50.00
------------------------------------------------------------------------
Wife & Child ($20 additional each child)                         $80.00
------------------------------------------------------------------------
Child no wife ($20 additional child)                             $42.00
------------------------------------------------------------------------
Divorced wife only (not exceeding amount provided by court       $42.00
 order)
------------------------------------------------------------------------
Divorced wife and child ($2 additional each child)               $72.00
------------------------------------------------------------------------
1 parent (chief support)                                         $50.00
------------------------------------------------------------------------
2 parents (chief support) ($11 each additional brother or        $68.00
 sister)
------------------------------------------------------------------------
1 parent and 1 brother or sister ($11 each additional brother    $68.00
 or sister)
------------------------------------------------------------------------
Brother or sister, no parents ($11 each additional brother or    $42.00
 sister)
------------------------------------------------------------------------


    It can thus be seen that a married man with no children serving in 
the Armed Guard will be paid from $157.20 to $193.20 depending on his 
rating.
    This compares with a base pay of $72, which, with 15 percent 
special emergency raise, is $82.50 for ordinary seamen (who have had at 
least 3 months in training at $50.00 per month, comparable to the 
length of training for the seaman first class of the armed guard), plus 
a bonus ranging from 40 percent to 100 percent. For able seamen the 
base pay is $82.50 with a 15 percent special emergency raise, bringing 
it to $100. The merchant seaman, therefore, gets as his total base pay 
an amount varying between $115.50 and $200 per month. Overtime pay 
averages 30 percent of base. No allowances are granted for dependents. 
Every man serving aboard a merchant vessel, with the exception of the 
master or the chief engineer, could earn more money ashore in a 
shipyard or defense plant without taking the chance of being killed by 
bombs or torpedoes.
    You also mentioned that the Navy gun crew cannot quit their ships. 
This is, of course, true; but it is also true that in return they are 
paid for 12 months per year, with 30 days' leave allowed per year, with 
pay. They are also paid during periods of transfer and stand-by. The 
merchant seaman is paid only for such time as he is serving aboard ship 
and has no leave with pay, except in a few isolated instances. He can, 
however, take a specified maximum leave between voyages without pay. A 
merchant seaman's pay starts only after signing on a ship and stops as 
soon as the ship is paid off in its home port. He is paid an average of 
10 months per year, while the Navy man is paid for 12 months per year. 
From actual pay rolls of ships on various runs, the War Shipping 
Administration has determined that the average monthly pay for ordinary 
seamen is $197.50, and for able seamen, $231.25. All this is subject to 
income tax. This includes wages, voyage bonuses, and overtime. The 
following table shows a comparison of average gross income received by 
four men, each with a wife and two minor children. Two are Navy men 
paid for 12 months, and two are merchant seamen paid for 10 months.
    It will be noted that the ordinary seaman and seaman first class 
compare favorably, as do the petty officer second class and the able 
seaman.
    There are some other major differences on the question of 
compensation which are not direct pay but still are definite factors. A 
merchant seaman who is totally and permanently disabled will be paid 
benefits at the rate of $200 per month until the disability has ceased 
or until a total of $5,000 is paid, whichever first occurs. Where the 
disability has been established so that it will continue to remain 
permanent, an additional benefit of $100.00 per month is paid to the 
insured until a total of $2,500 more is paid. Payment then stops, with 
no further extension of benefits. The cash value of such insurance, 
which provides for only 75 monthly payments of $100 to one who is 
totally or permanently disabled, is $6,290. A Member of the Armed Guard 
who is a petty officer third class median grade for Armed Guard) who is 
physically incapacitated and medically surveyed will receive a payment 
of $58.50 per month for so long as he lives. At the age of 25 the cash 
value of such an annuity is approximately $11,500. It will be noted 
above that the merchant seaman must be totally and permanently 
disabled, while the Navy man needs only be physically incapacitated and 
can supplement his pension by working at a civilian job, which cannot 
be done by a merchant seaman who is totally and permanently disabled.
    To the dependents of a merchant seaman killed goes a flat sum of 
$5,000. To the dependents of a Navy man killed goes the base pay for 6 
months. This, for the petty officer third class would be $468. However, 
his dependents would be eligible for pensions for the rest of their 
lives on a varying scale but, roughly, as follows: Wife $50; first 
child $20; second and additional children, $10 each.
    The wife would draw this pension for life or until she remarried. 
The children would draw the pension until their eighteenth birthday.
    If a man leaves his wife, age 25 (life expectancy, 44.73 years), 
she would receive if she remained unmarried, $50 per month for 45 
years, or a sum of $27,000. Taking remarriages into consideration, the 
average widow would receive a total of $15,350. If he leaves, in 
addition, two children, 5 and 3 years of age, they would receive totals 
of $3,120 and $1,800. The amount of money to purchase an annuity based 
on the above averages would be $15,300, which could be called 
insurance.
    In addition, the Navy seaman has the privilege of purchasing 
additional national service life insurance up to an amount of $10,000 
for a premium of less than $1 per month per $1,000. This low-priced 
insurance he may continue to carry even after leaving the service. A 
merchant seaman is permitted to purchase additional insurance up to the 
amount of $15,000 for which a premium of $2 per month per $1,000 is 
charged. However, this insurance is on a month-to-month basis and 
cannot be continued while the seaman is ashore. The insurance applies 
only while on a vessel. If a merchant seaman is hit by a truck while 
ashore, he receives no compensation for being incapacitated even though 
injuries received make him totally incapacitated. A Navy man's 
insurance is applicable in such a case.
    In addition to all the above very material differences, there are 
many other benefits accruing to Naval personnel which have a definite 
monetary value. Some of these are free medical attention for dependents 
of Navy seamen and the privilege of hospitalization of dependents at a 
very nominal rate of $3.75 per day for any case. This includes all 
medical attention, medicine, and other expenses. Confinement cases for 
wives of petty officers third class and below are free of charge. A 
Navy man below chief petty officer receives an annual issue of 
approximately $133 worth of clothing. Every quarter after the first 
year he receives an allowance of $8.75 for clothing. The merchant 
seaman pays for his own. The Navy man who elects to make a career of 
the Navy is also eligible for pension upon his retirement after a 
specified number of years of service. There is no provision by which 
merchant seamen can serve any number of years or be eligible for any 
pension. Free postage, the reduced furlough rates for travel, 
reductions on theater tickets, and on meals while traveling and other 
privileges are benefits which in time do total an applicable amount.
    We realize that this is a rather lengthy letter, but we also feel 
sure that in all fairness you will appreciate being advised of the 
facts. The commonly accepted opinion that merchant seamen are too well 
paid is thus seen as a myth, and it would be appreciated if the 
American Legion could help to dispel this myth by advising all its 
posts of the true facts in the case. The men who serve as merchant 
seamen are men from the same towns and homes as the men in the Army and 
Navy. Their services to their Nation are important, and we feel sure 
you will agree now that the facts are known that they are not overpaid. 
Many are sons of members of the American Legion, and many are veterans 
of the last war. I myself am a member of the American Legion and know 
that the Legion is interested in fair play and justice.
    Your cooperation in dispelling the misconception in regard to 
merchant seamen's pay will be greatly appreciated.

            Very truly yours,
                                                     Telfair Knight
                        Assistant Deputy Administrator for Training

      Comparison of Gross Income of Merchant Seamen with Navy Enlisted Men After Deduction of Income Taxes
----------------------------------------------------------------------------------------------------------------
                                                          Navy         Navy  petty
                                                         seaman,     officer  second    Ordinary    Able  Seaman
                                                       first class        class          Seaman
----------------------------------------------------------------------------------------------------------------
Monthly pay (wife and 2 children)                         $157.20           $193.20       $197.50       $231.25
----------------------------------------------------------------------------------------------------------------
Yearly pay (12 mos. for Navy, 10 mos., merchant          1,886.40          2,318.40      1,975.00      2,312.50
 seamen)
----------------------------------------------------------------------------------------------------------------
Less exclusion of pay for Military Personnel             1,500.00          1,500.00
----------------------------------------------------------------------------------------------------------------
  Estimated Gross income                                   386.40            818.40      1,975.00      2,312.50
----------------------------------------------------------------------------------------------------------------
Less:                                                    1,900.00          1,900.00      1,900.00      1,900.00
  Personnel exemption wife and 2 children)
----------------------------------------------------------------------------------------------------------------
  Estimated surtax net income                                                               75.00        412.00
----------------------------------------------------------------------------------------------------------------
Less earned income credit                                  188.60            231.81        197.50        231.25
----------------------------------------------------------------------------------------------------------------
  Estimated normal tax net income                               0                 0             0        181.25
----------------------------------------------------------------------------------------------------------------
Victory tax:                                               386.40            818.40      1,975.00      2,312.50
  Estimated Victory tax net income
----------------------------------------------------------------------------------------------------------------
  Less exemption                                           624.00            624.00        624.00        624.00
----------------------------------------------------------------------------------------------------------------
    Balance subject                                             0            194.40      1,351.00      1,688.50
    to tax
----------------------------------------------------------------------------------------------------------------
Summary:                                                                                     9.75         53.63
  Estimated surtax (13 percent)
----------------------------------------------------------------------------------------------------------------
  Estimated normal tax (6 percent)                                                                        10.87
----------------------------------------------------------------------------------------------------------------
  Estimated Victory tax (5 percent)                                            9.72         67.55        115.62
----------------------------------------------------------------------------------------------------------------
    Tax                                                                        9.52         77.30        180.22
----------------------------------------------------------------------------------------------------------------
Gross income                                             1,886.40          2,318.40      1,975.00      2,312.00
----------------------------------------------------------------------------------------------------------------
Tax                                                                            9.72         77.30        180.22
----------------------------------------------------------------------------------------------------------------
Income after tax                                         1,886.40          2,308.68      1,897.70      2,132.28
----------------------------------------------------------------------------------------------------------------

                               EXHIBIT 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                February 1, 2000: Minister of Veterans Affairs George 
Baker announces a $50 million tax-free package for Canada's Merchant 
Navy Veterans and surviving spouses. Payments will be made to eligible 
Canadian merchant mariners who served during the First and Second World 
Wars and the Korean War. The package will provide between $5,000 and 
$24,000 to veterans or their spouses.

Canadian Veterans Affairs has a toll-free number for Americans: 1-888-
996-2242 Canadians can call toll-free 1-800-228-7441 or the TDD for the 
hearing impaired at 1-877-713-7640. Refer to the Veterans Affairs 
Canada Web site www.vac-acc.gc.ca for information including an 
application form.
                                 ______
                                 
Canadian Merchant Navy vets win $50M compensation

By BRODIE FENLON,

London Free Press Reporter,

Wednesday, February 2, 2000

    It's about time. That's how Londoner Harvey Hollingsworth reacted 
yesterday after the federal government announced a $50-million 
compensation package for veterans of Canada's merchant navy.
    The package comes a year after Harvey and his colleagues were 
declared full-fledged war veterans.
    It's been a 55-year battle for recognition by ex-merchant mariners 
like Harvey, who worked on the decks of a tanker and two cargo ships 
ferrying military supplies to Britain in the winter 1945.
    ``It took me more than 50 years just to get my Canadian Voluntary 
Service medal (CSVN),'' said the 71-year-old retired father of two, who 
joined the merchant navy when he was 16.
    ``We did a very good job. I've lost a lot of friends and the 
characters I knew.''
    Some merchant mariners staged a hunger strike on Parliament Hill 
last year to demand compensation.
    Mariners entered talks seeking flat payments of $20,000 for each 
veteran and widow with an extra $20,000 for former prisoners of war. Of 
the $50-million, Ottawa set aside lump-sum payments of up to $24,000 in 
lieu of benefits sailors did not receive before 1992.
    About 7,300 merchant navy veterans and surviving spouses will be 
eligible for the tax-free compensation--to be awarded in two 
installments based on service aboard cargo ships.
    How the money breaks down:

        <bullet>  $20,000 for war-related service of more than two 
        years.
        <bullet>  $10,000 for war-related service of six months to two 
        years.
        <bullet>  $5,000 for war-related service of between one and six 
        months, or for less than one month if captured, killed or 
        disabled.
        <bullet>  An extra 20 per cent for any prisoner of war.

    Canada's merchant mariners, many too young or old to serve in the 
military, kept Europe supplied during the Second World War. Nearly 
1,500 died in the Battle of the Atlantic, a higher casualty rate than 
in any armed service.
    Those eligible for the payout include a large number of 
Newfoundlanders who served in the British merchant marine before 
Newfoundland joined Canada.
    There are 48 Korean War veterans or their widows also eligible.
    But after the war, Hollingsworth was left to fend for himself. ``I 
couldn't go to school (after the war) because they didn't give us any 
money,'' he said.
    Veterans Affairs Minister George Baker called yesterday's 
announcement ``an historic occasion'' for the seamen and Canada. Ottawa 
is the first wartime Allied government to compensate civilian sailors 
for war service.
    After the war, Hollingsworth sailed the world until he joined the 
Canadian Armed Forces as an infantryman in the early 1950s. He served 
in Korea and on several peacekeeping tours until he retired in 1978.
    While shocked by yesterday's announcement, Hollingsworth already 
plans to spend his money on a ``14-foot, 10-horsepower fishing boat'' 
for a summer trailer he shares with his wife, Barbara, at Young's Point 
near Peterborough.
    ``I'm happy about that,'' he said laughing. ``I don't have to touch 
the savings.''
                 Prepared Statement of Hon. Steve Buyer
     Ranking Republican Member, Full Committee on Veterans' Affairs
    Good Morning. I want to welcome today's witnesses and thank them 
for their testimony, and most important, thank them for their service 
to our nation.
    We are here today to discuss a question of equity: whether it is 
equitable to pay merchant marine veterans of World War II a ``thank-
you'' payment for their service during the war.
    Anyone with even a passing acquaintance with the contributions of 
these mariners to the war effort cannot doubt their bravery.
    During the early war years, through 1942, more allied merchant 
ships were being sunk than built; yet they sailed on and their cargoes 
helped keep our allies fighting while America prepared to exert its 
full and irresistible force.
    The law recognizes two groups of Merchant Mariners; those who 
served before the Japanese surrender in August 1945, and those who 
joined after that date.
    As of January 17, 1988, Merchant Mariners who served between the 
start of the war on December 7, 1941, and the surrender of Japan on 
August 15, 1945, receive full veterans benefits and status. The 
granting of veterans status was made possible by the GI Bill 
Improvement Act of 1977, Public Law 95-202.
    The law also created an administrative process by which civilian or 
contract employees could apply to the Secretary of Defense for veteran 
status to obtain VA benefits. The Secretary in turn designated the 
Secretary of the Air Force to be DoD's executive agent to administer 
the process.
    The first group of Merchant Mariners have access to VA health care. 
They also have access to disability compensation and pension, loan 
guarantee, education, insurance, and burial and death benefits.
    On October 10, 1998, the House passed H.R. 4110, the Veterans 
Programs Enhancements Act 1998, which was signed into law on November 
11, 1998.
    This bipartisan bill gave limited benefits to the post-surrender 
group of Merchant Mariners who served between August 16, 1945, and 
December 31, 1946. The bill provided eligibility for burial benefits 
and interment in a national cemetery.
    Before us today is the discussion of H.R. 23, which is entitled a 
``Belated Thank You to the Merchant Mariners of World War II.''
    This bill would give $1,000 per month, tax free, to Merchant 
Mariners and their surviving spouses. Mr. Chairman, this equates to 
giving these veterans a non service-connected pension regardless of 
their income, something we do not do for other veterans with one 
exception.
    The only other group of veterans who receive such a pension are 
recipients of the Medal of Honor.
    I must point out that H.R. 23 has no provision to pay for the 
benefits offered under the bill. That means this bill cannot pass 
unless this committee finds the offsets or Chairman Spratt of the 
Budget Committee provides new funding. Yesterday, CBO estimated the 
bill at a cost of $40 million the first years and $2.9 billion over 10 
years.
    In short, thank-you funds for Merchant Mariners do not exist. And 
if equity is truly your objective, I am curious why we are not also--
following your line of reasoning--discussing similar payments to the 32 
other World War II civilian groups that received veterans status under 
P.L. 95-202.
    Consider the Women's Airforce Service Pilots, the Women's Army 
Auxiliary Corps, the famed Flying Tigers and all the other groups which 
gained their status decades after their service. They served loyally, 
selflessly, and courageously. Their service contributed directly to 
victory in 1945. Yet this bill does nothing for them.
    The 2006 edition of Federal Benefits for Veterans and Dependents 
contains a complete list of these groups beginning on page 64.
    Mr. Chairman, you have also promised to pay certain Filipino 
veterans of World War II hundreds of millions of dollars from a 2008 
budget reserve that in fact has no money in it. Yet, these honorable 
aging veterans of the war in the Pacific, as well as their wives, 
believe in good faith they will shortly receive thousands of dollars 
each.
    But will they?
    The difficult reality is that under PAYGO money must be found; it 
has not been found for the Filipino veterans and apparently this bill 
for Merchant Mariners faces the same problem. Setting aside the 
question of just how the figure of $1,000 was arrived at, may I ask, 
Mr. Chairman, if necessary offsets have been identified for these 
Merchant Mariners?
    Before we hear from our witnesses, I have just one more question, 
Mr. Chairman. To get their $1,000, Merchant Mariners must, according to 
this bill, certify to the Secretary of Transportation that they served 
during World War II.
    My understand is that all records from the Merchant Marine Service 
during World War II are kept by the United States Coast Guard, which 
has been under the jurisdiction of the Department of Homeland Security 
since 2003. However, the bill requires Merchant Mariners to apply for 
benefits to the Secretary of Transportation.
    So my question, Mr. Chairman is: who will certify the Merchant 
Mariner's record? Will it be the Secretary of Transportation or the 
Secretary of Homeland Security?
    With that point clarified, I look forward to today's discussion.
    I yield back, Mr. Chairman.

                                 <F-dash>
              Prepared Statement of Hon. Harry E. Mitchell
         a Representative in Congress from the State of Arizona
    Thank you Mr. Chairman. After what I've learned about the 
sacrifices of the brave men of the Merchant Marine, I want to 
congratulate you on your persistence in bringing about some measure of 
recognition and compensation for these overlooked patriots. I hope that 
this Congress can close this chapter of our history and right this 
injustice.
    To the Merchant Mariners in the audience, I say thank you for your 
service, your heroism and your patience. You have served your country 
well, and you deserve our gratitude.

                                 <F-dash>
              Prepared Statement of Hon. Michael F. Doyle
      a Representative in Congress from the State of Pennsylvania
    The United States has always been a maritime nation. From the 
beginning of the original 13 colonies, the people of this land have 
depended heavily on sea travel and maritime commerce for their 
existence. Britain's colonies in North America all depended upon the 
mother country in the 17th and 18th centuries as the primary market for 
their products--and as a source of manufactured goods and, of course, 
much-needed new immigrants.
    The U.S. merchant marine played an even more important role in our 
Nation's fortunes in the 20th century. U.S. merchant ships played a 
critical role in World War II. Without U.S. ships, it's almost certain 
that Great Britain would have succumbed to the Nazi onslaught, and it's 
not clear that the Soviet Union could have triumphed over Germany on 
the Eastern Front. And--needless to say--without the United States 
merchant fleet, our armed forces could never have carried out the 
island-hopping campaign that eventually brought about Imperial Japan's 
surrender.
    The United States Merchant Marine provided the greatest sealift in 
history. And it paid a correspondingly significant price.
    U.S. merchant ships faced danger from submarines, mines, aircraft, 
and the elements. One in 26 mariners serving aboard merchant ships in 
World WW II died in the line of duty, suffering a higher percentage of 
war-related deaths than all other U.S. services. It's no wonder, then 
that during World War II President Franklin D. Roosevelt and many 
military leaders labeled the U.S. Merchant Marine the ``Fourth Arm of 
our Defense.''
    I'm sorry that my schedule conflicts with another hearing, so I 
won't be able to stay for the entire hearing, but I want to close by 
saying that our World War II merchant mariners deserve more than just 
our recognition and our thanks. They also deserve the same benefits as 
other veterans of World War II. That's why I thank Chairman Filner for 
his tireless work on this bill and why I'm proud to cosponsor of the 
``Belated Thank You to the Merchant Mariners of World War II Act.''

                                 <F-dash>
              Prepared Statement of Hon. Carol Shea-Porter
      a Representative in Congress from the State of New Hampshire
    I would like to thank Representative Filner for the opportunity to 
submit a statement to the Committee on Veterans' Affairs for the 
hearing on H.R. 23, the Belated Thank You to the Merchant Mariners of 
World War II Act of 2007.
    The U.S. Merchant Marine played a crucial role in Allied efforts 
during World War II, and Merchant Mariners were at high risk. So I was 
stunned when I learned that, in return for their critical service to 
our country in World War II, Merchant Mariners had received absolutely 
no veterans' benefits for their sacrifices and essential contribution 
to the war effort.
    During World War II the U.S. Merchant Marine provided essential 
logistical support for our military operations. Without merchant ships 
to carry all the personnel, supplies, and equipment needed for the war 
effort, the Allies could not have won the war. The role of merchant 
shipping was absolutely critical to our eventual success, as the 
availability of shipping determined our military options in a global 
war fought across the Atlantic and Pacific Oceans, the Mediterranean 
Sea, and so forth. The U.S. Merchant Marine therefore had to and did 
participate in every major action and operation of the war.
    Loaded with supplies and soldiers, a merchant ship was a more 
valuable target for enemy submarines than a corvette, a destroyer 
escort, a destroyer, or even a light cruiser. The enemy knew that 
sinking a merchant ship would prevent it from bringing those supplies 
and soldiers to combat.
    Serving in the Merchant Marine was as dangerous as it was crucially 
important. Merchant shipping faced destruction by submarines, mines, 
destroyers, aircraft, kamikaze attacks, and the sea itself. 1,554 ships 
were lost during the war, and in 1942 an average of 33 ships was sunk 
each week. In fact, until the middle 1942, German submarines actually 
sank more ships than were built. Those who made the notoriously 
hazardous run across the North Atlantic to Murmansk, Russia, were at 
particularly high risk. On this run in the period through 1943, 12 out 
of every 100 merchant ships were sunk by enemy action.
    After their ships sank, survivors were forced into the sea or onto 
rafts or lifeboats to hope for rescue. At least 8,000 Merchant Mariners 
were killed during the war, many thousands were injured, and over 600 
were held as prisoners of war. One in 26 Merchant Mariners perished in 
action during the war, a greater percentage than any military service, 
including the Marines.
    From 1939 to the end of the war, more than 100 Merchant Mariners 
received the Merchant Marine Distinguished Service Medal, awarded for 
outstanding acts of heroism. A building at the Merchant Marine Academy 
at King's Point, N.Y. is named for one courageous Merchant Marine cadet 
who was killed defending his ship, after replacing an entire gunnery 
crew. But our Merchant Marine veterans received no further recognition 
and no benefits.
    The U.S. Merchant Marine was heavily involved in the D-Day 
invasion. One thousand Merchant Mariners volunteered to tow derelict 
merchant ships to the Normandy coast. The ships were scuttled there to 
make artificial harbors to replace those the Germans had destroyed. 
These harbors enabled the unloading of enough troops and supplies for 
the invasion of France. About 700 merchant ships participated in the 
invasion of France.
    But the Merchant Marine veterans who made possible the successful 
landings in France received no recognition and no benefits. In fact 
they were not even recognized as veterans until 1988.
    I had known nothing of this history until one of my constituents, 
Larry Warren of Brookfield, contacted me on behalf of his father, 
Joseph Warren of Wolfeboro, a World War II Merchant Marine veteran. 
Here's some of what Larry Warren had to say:
    I am writing on behalf of all World War II Merchant Marine veterans 
but one in particular, my father Fred Warren of Wolfeboro. They need 
help.
    My father served with the Merchant Marines during World War II. His 
hearing is damaged from working in the engine rooms and his lungs are 
damaged from the asbestos used in the construction of the merchant 
ships. He survived typhoons in the Pacific, German U-boats in the 
Atlantic and Axis torpedo bombers in the Mediterranean. I don't know 
all the harrowing experiences he went through. He doesn't talk about 
it.
    He was lucky to have made it home. Many didn't. The casualty rate 
for World War II Merchant Marines was 1 in 26, higher than any branch 
of the armed services. Merchant Mariners fought and died beside members 
of our armed forces, some were captured and held POW's. Merchant ships 
and the crews on them were considered expendable by the Allied leaders. 
Freedom is not free and the Merchant Marines of World War II paid 
dearly.
    My father has never received help in any form from our government 
because Merchant Mariners were denied benefits under the GI Bill. No 
low interest loans, no unemployment pay, no free college training, no 
help with prescription drugs, nothing. World War II Merchant Mariners 
were not even considered veterans until an act of Congress in 1988.
    I respect all of our veterans and consider them heroes. But I am 
especially proud of my father. In my eyes he is a hero too. It's time 
to make amends.
    Another of my constituents, Earl Mabie of Hooksett, a World War II 
Merchant Marine veteran, contacted me and has also encouraged me to 
support H.R. 23. He told me of the different course his life took 
without the various benefits normally received by military veterans 
after World War II.
    In 1944, Gen. Dwight Eisenhower recognized the contributions of the 
U.S. Merchant Marine in these words:
    ``Every man in this Allied Command is quick to express his 
admiration for the loyalty, courage, and fortitude of the officers and 
men of the Merchant Marine. We count upon their efficiency and their 
utter devotion to duty as we do our own; they have never failed us yet 
and in all the struggles yet to come we know that they will never be 
deterred by any danger, hardship, or privation.
    ``When final victory is ours, there is no organization that will 
share its credit more deservedly than the Merchant Marine.''
    After the war, he noted, ``Their contribution to final victory will 
be long remembered.''
    It is time to show that we remember and honor them. It is time to 
show our gratitude to the Merchant Marine veterans whose sacrifices and 
perseverance ensured our success in World War II. It is time, however 
belatedly, to recognize their key contributions to our war efforts. It 
is my honor and obligation to support H.R. 23.

                                 <F-dash>
   Prepared Statement of Ian T. Allison, Santa Rosa, CA, Co-Chairman
   Just Compensation Committee (U.S. Merchant Marine Combat Veteran)
    Thank you, Mr. Chairman and members of the Veterans' Affairs 
Committee.
    My name is Ian Allison, Co-chairman of the Just Compensation 
Committee, a non-profit unincorporated association of Merchant Marine 
Veterans of World War II registered with the Internal Revenue Service. 
Our 10,800 members have joined together seeking equal treatment for all 
Veterans of World War II who shared the loss of 20 Million people on 
this earth who participated voluntarily or otherwise in this great war.
    I would like to submit as evidence at this Veterans Affairs 
Committee hearing on H.R. 23 a famous book entitled ``A Careless Word--
A Needless Sinking'' by Captain Arthur R. Moore. I recognize that at 
704 pages, it is too great to become part of the electronic record and 
acceptance for printing but submit it as an exhibit material to be 
maintained in the Committee files for review and use by the Committee.
    The book accounts for 820 American ships, freighter, tankers, 
passenger and troop ships lost at sea in World War II. Over 9,000 
Merchant Seamen were either killed or lost in action. 12,000 wounded or 
maimed and 786 prisoners of war taken by the enemy. The majority of 
these lost souls lay in Davy Jones' locker at the bottom of the sea 
without markers or tombstones to show their grave sites.
    What depraved men branded these gallant mariners we lost at sea, as 
DRAFT DODGERS? As an Engineer working in the bowels of gasoline tankers 
plying the waters of the Atlantic and Pacific and facing the German and 
Japanese U-boats, I've never met a fellow soldier, sailor or Marine who 
would trade places with me.
    I would like to tell you the story of one lost ship that I have 
picked at random. The same story can be told of 819 other ships with 
death and destruction the penalties of war.
    THE SS JACKSONVILLE, A T-2 TANKER BUILT AT THE SWAN ISLAND 
SHIPYARDS BY HENRY KAISER IN PORTLAND, OREGON 1944. AUGUST 30, 1944 A 
TORPEDO HIT THE SHIP JUST AFT OF THE MIDSHIP HOUSE. FIRE BROKE OUT AND 
THE 80-OCTANE GAS COVERED THE SHIP STEM TO STERN IN FLAMES. A SECOND 
EXPLOSION BROKE THE SHIP IN TWO WITH BOTH PARTS STILL BURNING. THE 
FOREPART SANK QUICKLY, THE STERN SECTION SINKING THE NEXT DAY.
    THERE WERE NO LIFEBOATS OR RAFTS LAUNCHED. OUT OF THE 78 MEN ON 
BOARD, THE ONLY 2 SURVIVORS JUMPED OVERBOARD INTO THE FLAMING WATER AND 
SWAM AWAY FROM THE SHIP. THEY WERE PICKED UP BY A U.S. DESTROYER ESCORT 
AND TAKEN TO IRELAND.
    FOR THE GRACE OF GOD, THERE GO I. IT COULD HAVE BEEN MY SHIP. I 
SAILED 3 YEARS DURING THE WAR, IN THE ENGINE ROOM, ON A GASOLINE TANKER 
BUILT IN PORTLAND, OREGON BY HENRY KAISER. I CAME OUT UNSCATHED BUT 
9,000 OF MY COMRADES DID NOT.
    Why? Why? Why, were the gallant members of the Merchant Marine, who 
suffered the highest casualty rate of the war, with 1 out of 26 dying, 
left out of the 1944 GI Bill of Rights? Some warped minds were at work 
to have engineered this travesty. I can only speculate after 60 years 
of thought and observation.
    I have come to the conclusion that in general, these three things 
stirred up jealousy and animosity about the Merchant Mariners.

        1.  We had no discrimination in our ranks whereby we accepted 
        Blacks, Hispanics and aliens into our ranks. Some of them 
        became ship's officers on up to the ``4 Stripe'' rank of 
        Captains and Chief Engineers. None of the other Services were 
        as non-discriminatory as the Merchant Marine. Discrimination 
        was still rampant in America during the War.
        2.  Merchant Mariners didn't wait to be drafted. We were all 
        volunteers. Both the Japanese and German Navys took their toll 
        of our men both before and after WWII.
        3.  Our ALL VOLUNTEER crews on U.S. Merchant Marine ships 
        during WWII were union members of one of many union 
        organizations representing unlicensed personnel i.e. Sailors 
        Union of the Pacific (SUP), Seafarers International Union 
        (SIU), Marine Firemen and Watertenders (MFOW), National 
        Maritime Union (NMU), Marine Cooks and Stewards (MCS) and ship 
        officers unions which were Master Mates and Pilots (MM&P) 
        together with Radio Operators and Marine Engineers Beneficial 
        Association (MEBA). None of the other Services in the U.S. 
        Forces had legally incorporated organizations to represent 
        their interests as to pay, transportation, living conditions 
        and more. These were all pre-war organizations which were a 
        great boon and offered efficiency to the war effort.

    I am sure that members of this Committee, after intelligent review 
of the history and facts about World War II, will be convinced of the 
necessity of passing our House Bill H.R. 23.
    I thank you for your time in listening to my testimony given this 
18th day of April, 2007 and will be glad to answer questions at the 
appropriate time.

                                 <F-dash>
     Prepared Statement of James Burton ``Burt'' Young, Lincoln, NE
    Central Region Vice-President, American Merchant Marine Veterans
                 (U.S. Merchant Marine Combat Veteran)
    Mr. Chairman and members of the Veterans Affairs' Committee,
    It is indeed an honor to be able to express our views on H.R. 23, 
the Belated Thank You to the Merchant Mariners of World War II Act of 
2007. We are here because we were not treated the same as the other 
services at the end of WWII. We have found we had the highest death 
rate of any of the services. Our death rate was 1 in 26, the Marines 
were 1 in 32, the Army 1 in 48, the Navy 1 in 114 and the Coast Guard 1 
in 408. Does that sound like we were civilians? Apparently the enemy 
didn't think so. As my friend, Captain Matt Drag states, ``At no time 
during the war was I called a civilian; only afterwards.'' He also 
wrote, ``On Pearl Harbor Day, I was third officer aboard an American 
Merchant Vessel. At this time I held a commission as Ensign in USNR. At 
the first port of call, I reported to Naval headquarters for duty, I 
was told `Stay where you are. That is where we need you'. So for 
following orders, I was cheated out of my Veteran recognition and 
benefits. Not only this, but for my service to my Country, I am 
insulted by being termed a `civilian'.''
    At the Missouri Valley Merchant Marine meeting in Des Moines, we 
were told there were about 36 of us in line to be sworn into the Navy. 
An officer came by and said ``We need three of you to step out of line 
and join the Merchant Marine.'' Look how unfairly they have been 
treated since the end of WWII compared to those that stayed in the 
Navy.
    At the time of attack, the Merchant Marine had to supply one or two 
men to assist the Navy Armed Guard. When the war ended the Navy Armed 
Guard walked down the gangway veterans. The Merchant seamen on the same 
ship were not considered veterans.
    If Congress would have followed the law at the end of WWII, I don't 
think we would have to be here today. I am referring to the Merchant 
Marine Act of 1936. It states the United States shall have a Merchant 
Marine serve as a naval or military auxiliary in time of war or 
national emergency. We did our part. Did the government honor their 
part? No, they did not. I ask you with the history you know, did we 
serve as a naval or military auxiliary in WWII? President Roosevelt 
thought that we did and asked Congress to do likewise for the men of 
the Merchant Marine when the GI Bill was passed. Our military leaders 
felt the same way. I'll quote our military leaders of WWII. General 
Dwight D. Eisenhower said, ``When final victory is ours, there is no 
organization that will share its credit more deservedly than the 
Merchant Marine.'' Fleet Admiral Chester W. Nimitz said, ``The Merchant 
Marine . . . has repeatedly proved its right to be considered an 
integral part of our fighting team.'' General A. A. Vandergrift said, 
``The men and ship of the Merchant Marine have participated in every 
landing operation by the United States Marine Corps. from Guadalcanal 
to Iwo Jima--and we know they will be on hand with supplies and 
equipment when American amphibious forces hit the beaches of Japan 
itself. . . . We of the Marine Corps. salute the men of the Merchant 
fleet.'' Field Marshall Sir Bernard Montgomery stated, ``Their 
contribution was just as important as that of the troops.'' Fleet 
Admiral Ernest J. King--Commander in Chief of the Fleet and Chief of 
Naval Operations--said, ``Because the Navy shares life and death, 
attack and victory, with the men of the United States Merchant Marine, 
we are fully aware of their contribution to the victory which must 
come.'' General of the Army Douglas MacArthur states, ``I wish to 
commend to you the valor of the Merchant Seamen participating with us 
in the liberation of the Philippines. With us, they have shared the 
heaviest enemy fire. On the islands I have ordered them off their ships 
and into foxholes when their ships became untenable targets of attack. 
At our side they have suffered in bloodshed and in death. . . . They 
have contributed tremendously to our success. I hold no branch in 
higher esteem than the Merchant Marine Service. And the head of the 
draft, General Hershey, said, ``Service in the Merchant Marine was 
tantamount to the other Services.''
    I am one of those that started sailing after August 15, 1945 and 
there are those among you who seem to feel that I don't deserve full 
Veteran status. I say nonsense. I do not know any in this group that 
enlisted after August 15, 1945. We all enlisted during a hot shooting 
war with no knowledge of an atomic bomb that might bring an early end 
to the war. When I enlisted on July 13<SUP>th</SUP>, 1945 at the age of 
17, I was given a Service number and issued a dog tag. Who has the 
power to issue Service numbers besides the United States Government 
during wartime? I think you'll agree nobody. I think you will also 
agree that if you were issued a Service number and a dog tag, you would 
consider yourself part of the Armed Forces and expect to be treated and 
honored as a veteran when the war ended. So why weren't our Service 
numbers honored and our training time counted? More shameful treatment.

                                 <F-dash>
   Prepared Statement of William Jackson, Oakland, CA, Chief Engineer
       S.S. Red Oak Victory (U.S. Merchant Marine Combat Veteran)
    My name is William Jackson. I am 88 years old and have been working 
as a Merchant Mariner since 1935. I still volunteer as Chief Engineer 
on the S.S. Oak Victory, a 1944 Victory ship that is being restored in 
Richmond, California. I am here to ask you to pass H.R. 23 ``A Belated 
Thank You to the Merchant Mariners of World War II Act of 2007''.
    I had shipped for several years as a busboy on passenger and 
freight ships. But during the summer of 1937, I received the new U.S. 
Coast Guard identification Z Card and started shipping out of the 
National Maritime Union hall in New York as a messman. Although my home 
was on the West Coast, I shipped out of New York because the National 
Maritime Union had integrated their shipping hall. None of the West 
Coast unions had and didn't until the Fair Practice Employment Act in 
the sixties. Before the United States officially entered World War II 
on December 7<SUP>th</SUP>, 1941, I voluntarily sailed on ships into 
the war zones of Africa, Egypt and the Suez Canal zone. In July, 1941, 
we witnessed two air raids while our ship was docked next to a drydock 
where the target of the attack, a British cruiser, was being repaired. 
Before the official beginning of the War, there were __ U.S. ships sunk 
or damaged.
    On December 7, 1941, I was in San Francisco when Pearl Harbor was 
bombed. At first, I decided I would contact my classmate from Oakland 
High School. We had been in R.O.T.C. together, where I had been the 
only African American person. Together, we went right down to the U.S. 
Army recruiting station. There were a mixture of other races from 
Mexico, China and Native Americans. I noticed that they called all the 
other guys and assigned them and sent them home. I asked them, ``How 
about me?'' This lady said, ``Sorry, but we have no place for African 
American soldiers.'' I felt like my heart had stopped. To think that 
our teachers taught us that we were supposed to be equal citizens, to 
vote, to be loyal and to defend our Country in time of war. I became 
very angry and told them, ``Don't ever try to draft me. I just returned 
from a war zone with the Merchant Marine. I'll go back and get a 
ship.'' I was never called up by the Draft Board but I saw more action 
at sea in the North Atlantic and Pacific than lots of men in the Army 
and Navy did. On December 9th, I signed on the S.S. Panaman and 
continued to sail. In August 1942, the ship I was on was sunk by enemy 
action. I was hospitalized in Trinidad for 4\1/2\ months without pay as 
was Union policy.
    In February, 1943, I refused to sign on as a Steward Department 
crew. I had been granted endorsement as ``Wiper,'' the entry level 
rating in the engine room, by the U.S. Coast Guard. The National 
Maritime Union supported my cause. I was assigned to position as wiper 
on the S.S. Exceller. I was refused the berth twice by the 
1<SUP>st</SUP> Assistant Engineer but was finally accepted at the 
insistence of the U.S. Coast Guard and the N.M.U. Late in June, 1943, 
after 4 months of abuse by the 1<SUP>st</SUP> Engineer, I had earned 
the time to sit for the next rating--Fireman/Watertender. I did and 
passed. I continued sailing throughout the war, and after that, earning 
ratings of Oiler, Junior, 3<SUP>rd</SUP>, and then 2<SUP>nd</SUP> 
Engineer.
    In November, 1963, I took an assignment on the S.S. Hope Hospital 
Ship as a 2<SUP>nd</SUP> Engineer. This ship would go to 8 different 
underdeveloped countries, stay for 10-11 months and serve as a 125-bed 
hospital training ship, teaching local medical personnel modern 
medicine practices. It had a medical staff of 300 people plus 50 
doctors who rotated every 2 months. The ship's crew totaled 76 men with 
the Engine Room having 26. Our mission was to keep the ship supplied 
with power as there were three Operating Rooms, I.C.U., two Pediatric 
wards, two women's wards and two men's wards, plus labs, a dental 
clinic and more. During that time, I earned promotions to First 
Engineer and then Chief Engineer. It was the hardest job I ever loved. 
I officially retired in 1985 but returned to serve in Operation Desert 
Storm for two 7-month tours.
    The U.S. Merchant Marine was formed by the War Shipping 
Administration to supply manpower to man the vast number of merchant 
ships to carry all the war materials, troops, planes, food, etc. to 
Allies around the world on all fighting fronts. To do this, they needed 
as many as 230,000 seamen to man over 5,000 new ships that were to be 
built. Ships would need all ratings of seamen--deck, engine room and 
stewards.
    The Merchant Marine was the first of all services to integrate. It 
may have taken the union and the U.S. Coast Guard to make the steamship 
company give me the right to sail in the Engine room but it did 
integrate the ships of the Merchant Marine. And the Merchant Marine 
service schools were integrated between 1942 and 1943. The Merchant 
Marine was the first to integrate and make my dreams come true.
    Today, April 18<SUP>th</SUP>, 2007, I appear before you to request 
passage of H.R. 23 ``A Belated Thank You to the Merchant Mariners of 
World War II Act of 2007''. I had a tough time of it in the U.S. 
Merchant Marine but did win equality on a racial level. Now I am asking 
for equality with all other United States Veterans for benefits denied 
the Merchant Mariners by the GI Bill of Rights of 1944.
    Mr. Chairman and the entire Veterans Affairs Committee, I thank 
you.

                                 <F-dash>
 Prepared Statement of Gloria Flora Nicolich, Public Relations Director
 American Merchant Marine Veterans, Inc., Brooklyn, NY, (Widow, Author)
HONORABLE MEMBERS OF CONGRESS:

    Thank you for allowing me to address you.
    I've been the Public Relations Director of the American Merchant 
Marine Veterans, Inc. since 1993; I joined to honor my husband's 
memory, and have dedicated my efforts to gaining RECOGNITION, RESPECT 
and REMEMBRANCE, for those American Mariners who served from 1941-1946.
    In 1939, at age 17, my husband dropped out of high school and 
joined the Merchant Marine as a MESSMAN. Our Merchant ships were 
already being torpedoed and Seamen were needed. In 1941, he tried to 
enlist in the Navy but was rejected because of a Rheumatic Heart. He 
was told to attend Pensacola Naval Academy UPGRADE SCHOOL and return to 
the Merchant Marine. Upon graduation as FIRST OFFICER, he was 
immediately transferred to the Army Transportation Corps., where he 
served on (LTS) ocean-going tugs, until War's end in December, 1946.
    By 1946, his heart condition had worsened. His education at Upgrade 
School was not recognized. His disability made it difficult for him to 
find employment; doubly so, because he was not considered a Veteran.
    By 1941, many Merchant Seamen had already adopted the Sea as their 
life's work. Many were too old for the Draft. Other young men, like my 
husband, were ashamed of their disability; ashamed to be called 4F; so 
when given the opportunity to actively serve their country, they chose 
the dangers of the Merchant Marine rather than the safety of a defense 
plant. BY THE WAY--The Maritime Service did not discriminate as to 
race, religion, nationality, age or HEALTH. Those who chose to remain 
as Seamen knew that they faced almost certain death. By war's end, the 
Maritime Service had lost more men percentage wise than any branch of 
the Service.
    My colleagues here today, have already discussed the sacrifices, 
privations and indignities suffered by our Mariners during WWII, and 
the reasons why they deserve to receive a financial consideration.
    MY VERY SPECIAL CONCERN is that you may consider eliminating 
WIDOWS, particularly those whose husbands died before passage of this 
Bill.
    THIS WOULD BE AN INSULT TO THE MEMORY OF THE UNSUNG HERO, and a 
HEINOUS INJUSTICE to the woman who suffered privation along with him. 
NOT MANY OF US ARE LEFT!
    Firstly, let me say that many of our ancient Mariners either never 
married, or divorced, or are themselves widowed.
    It's also safe to say that 99% of Veteran's wives who became widows 
during, or immediately after the war, either REMARRIED, or have DIED! 
The remaining war widows are well over 80, in poor health and facing a 
very uncertain future. (I know because I'm 84).
    Those of us who married American Seamen AFTER the war, married men 
with physical disabilities, and/or other related injuries. Some married 
seemingly healthy men who later developed illnesses due to wartime 
exposure, e.g. Asbestosis.
    Case in point: though we knew each other before, I married John 
after the war. His heart condition had worsened during his time in 
service. Once discharged, his Academy training was not recognized, and 
he was unable to find a job commensurate with his intellectual 
abilities. After 14 years of marriage, his physical condition forced 
him to go on permanent disability. Over a period of 8 years, he 
suffered two heart attacks, had two open-heart operations, was on 
dialysis, on special medication, required constant medical care and 
died in 1978.
    Of necessity I had always worked two jobs. Neither before nor after 
his death, did I receive financial assistance from any source! I buried 
him privately, took out a loan on our home, paid all the doctor bills, 
and supported his aged mother until she died 2 years later. John died 
in 1978. I received his Honorable Discharge posthumously in 1994. By 
then, any benefits to which he may have become entitled were for me too 
little, too late! In 2006 we would have been married over 50 years.
    For the most part, we Maritime widows are children of the 
DEPRESSION. As single women we struggled--as wives, we did not have the 
advantage of a husband's education, or a new home in the suburbs or 
medical benefits of any kind. We worked to supplement our husband's 
income and to give our children better opportunities. All of us cared 
for our husbands in sickness and health. When they died, we received no 
help of any kind because we were not recognized as the WIDOW OF A 
VETERAN. Our husbands were THE FORGOTTEN HEROES OF THE GREATEST 
GENERATION. We have been their FORGOTTEN WIDOWS.
    HONORABLE MEMBERS OF CONGRESS! PLEASE DO NOT PERPETUATE THIS 
TRAVESTY! PLEASE DO NOT COUNT US OUT!
    Thank you for your consideration! God Bless You! God Bless America!

                                 <F-dash>
   Prepared Statement of Francis J. Dooley, Esq., National President
                   American Merchant Marine Veterans
    To understand the level of benefits denied to U.S. merchant 
mariners, one must look at their service during World War II and then 
at the wartime and post war treatment of these mariners by the 
government.
    Before World War II and to the present if a merchant seaman was 
injured or became ill while employed aboard a ship, the Admiralty 
Common Law of the United States allowed a civil action to compel 
medical treatment and payment of a daily stipend while he was Not Fit 
for Duty. The law refers to these benefits and the empowering civil 
action as Maintenance (medical treatment) and Cure (daily stipend). If 
the ship is responsible for the injury, Federal statutes (Jones Act) 
and Admiralty Common Law (Warranty of Seaworthiness) permitted the 
seaman to bring a civil action in either state or Federal court seeking 
money compensation for pain and suffering, for permanent disability and 
for past and future lost wages. Similarly, in death cases, a seaman's 
widow and orphans could sue for the lifelong loss of his economic 
support, under the Death on the High Seas Act.
    Merchant seamen in peacetime employed directly by the United States 
Government aboard U.S. owned vessels were considered Federal employees 
and were (and still are) eligible for workers compensation benefits 
under the Federal Employees Compensation Act (FECA). A merchant mariner 
in peacetime employed aboard a ship bare boat chartered to the United 
States, could bring a civil action in the Federal district courts under 
the Public Vessels Act.
    By early 1942, the U.S. Government had taken over, completely, all 
privately owned merchant ships under the Emergency War Powers Act. The 
U.S. Maritime Commission and the U.S. Department of Labor jointly 
created the War Emergency Board, which in turn, created the War 
Shipping Administration (WSA). Total government control was given to 
WSA over all merchant ships including the pre-war privately owned ships 
and the U.S. owned newly constructed ``public vessels,'' such as 
Liberty Ships and T-2s. This relationship of employer-employee existed 
even aboard the Panamanian flag vessels crewed by American and foreign 
seamen, with U.S. Navy gunners that were ``bareboat chartered'' by WSA. 
The ship owners and operating agents became ``agents'' of WSA.
    Simply put, every merchant seaman was an employee of the United 
States of America in WWII. The previously referenced rights to 
compensation should have been in place: either through the Public 
Vessels Act or Federal Employees Compensation Act (FECA). Merchant 
seamen were serving aboard ships that were no longer involved in 
``trade'' or ``commerce''; they were the crew of a heavily armed 
``public vessel'' participating in a war, and ordered to do so by the 
U.S. Government. They were employed by the United States of America, 
which paid their wages either directly or through operating agencies. 
But in World War II, the rights to compensation for wounds, 
disabilities and death, if caused by the war, were eliminated by 
Congress.
    To prevent claims being filed under FECA or in civil litigations by 
merchant seamen or their survivors, Congress passed a Bill in 1943, 
which stated:

          ``. . . Such seamen, because of the temporary wartime 
        character of their employment by the War Shipping 
        Administration shall not be considered as officers or employees 
        of the United States for the purposes of the United States 
        Employees Compensation Act. . . .''

TWO DECISIONS DEVASTATING TO MARINERS RESULTED:

    1.  Merchant Mariners were Contract Workers

    Each time they entered government training, they signed a 
``Contract,'' and each time training was completed, this Contract 
ended. Every time they signed ship's Articles, for a voyage, a new 
Contract was signed; at the end of the voyage, that Contract ended. 
This status eliminated any possibility of being either a government 
employee entitled to protection, or of being members of the Armed 
Forces of the United States of America.
    A ``Discharge'' from the ship, at the end of the voyage was issued 
to every seaman, signed by the ship's captain, as agent of the United 
States, and witnessed by a United States official, titled ``Shipping 
Commissioner.'' And at that point in time, he was literally discharged 
until he entered into a new ``Contract.''
    It is basic admiralty law, enacted in U.S. statutes that a seaman's 
wages cease on the day his ship is sunk or destroyed. The Contract 
ended at that point. This law was utilized in World War II. But in 
wartime, the odds increased that a ship would be sunk or destroyed, as 
did the time period of repatriation, which frequently extended into 
months. This was especially true of mariners who were rescued after the 
ship was sunk on the Murmansk run; the only WSA obligation was 
repatriation. They spent months in Russia awaiting repatriation.
    In 1944, WSA began enlisting 16 year old boys, for training by the 
United States Maritime Service. They were then assigned to ships as 
galley boys, or mess boys or wipers. They were, by any definition, 
minors. When they signed Articles for voyages during the war, their 
parents or guardians were not present to consent to this employment 
``Contract'' as required by law. AMMV has the names of 16 and 17 year 
old kids that were killed by enemy action, serving as merchant 
mariners. Would the parents have consented to their children quitting 
high school and ``enlistment,'' in USMS, had they known that their boys 
were nothing but expendable ``Contract'' workers, whose deaths are 
without recognition from their country?

    2.  Five Thousand Dollar Insurance Solution

    WSA substituted for civil litigation or workers' compensation, an 
insurance policy, worth $5,000.00 per seaman, which covered every 
misfortune from personal injury to total disability to death benefits 
for survivors.
    The insurance policy was for injuries and death caused by the war. 
Chubb Insurance Co. employees administered the policy from an office at 
99 John Street, New York City, NY. Chubb, in the name of WSA, would pay 
$5,000.00, to the widow and orphans. There were no other dependency 
benefits. Chubb would pay weekly benefits to the disabled, until Chubb 
determined that they were cured, or the $5,000.00 was spent.
    Injured seamen would have to travel to the Chubb office in 
Manhattan, or elsewhere and have their injuries/disabilities evaluated 
by a claims examiner. They were paid $60.00 (against the $5,000.00) per 
month, and were expected to house and feed themselves. They were 
reimbursed the fare to and from the office. When the $5,000.00 was 
exhausted, the payments were stopped. Payments were abruptly halted in 
1946, by an Act of Congress, leaving the injured without any 
compensation, even if they had not maxed out the $5,000.00.
    Had the dependent survivors of deceased merchant seamen received 
the same benefits, as the members of the armed forces, there would have 
been in addition to the $5,000.00 insurance, (or more), which members 
of the Armed Forces also had, a dependency pension to the widow (until 
she remarries) and the children (until the age of 18 years old).
    The veteran, of course, was eligible for the GI Bill of Rights, 
which provided full education or training ($50.00 per month to the 
veteran plus tuition and books), special employment, preference 
rehabilitation and lifetime care, through the Veterans' Administration. 
If partially or totally disabled, there was a lifetime pension.
    The use of huge quantities of asbestos was designed into all 
merchant ships. The boilers, main engine, and steam lines were all 
heavily insulated with asbestos. The walls (bulkheads) and ceilings 
(overhead) of the mess halls, living quarters and galley were made of 
asbestos panels. When the ship vibrated and pounded, at sea, the 
asbestos was shaken loose, became friable and airborne throughout the 
ship. Fibers were inhaled and many years later, caused asbestos related 
pulmonary diseases. The failure to provide for follow up care left 
thousands of these mariners without medical treatment and compensation. 
It should be pointed out, however, that since obtaining veteran's 
status in 1988, the VA has accepted these men as patients, but this was 
43 years after the war ended and no treatments between those times.
    After WWII ended, seaman in need of follow-up medical care were 
ineligible for the U.S. Public Health Service Hospitals, because to be 
eligible, the seamen had to have a ship's discharge within the 
preceding 60 days.
    After WWII, merchant mariners quickly learned that their service 
and sacrifice were unpublicized, unappreciated and unrecorded. Strict 
censorship as to ships' losses, casualties and deaths prevented an 
accurate history. Quite simply, there is no official history. There was 
to be no recognition of his service to his country and no post-war 
benefits for the mariner.
    And WWII service did not exempt him from the draft in 1948, 1949 or 
during the Korean war.
    The bravery, even death, of the men who sailed the cargo ships and 
helped man the ship's guns, was never recorded. A cloak of secrecy, a 
policy of silence and censorship about ship movements imposed during 
the war, along with the failure or refusal to record their services, 
their wounds, their deaths, has resulted in the merchant mariner having 
to plead his own care and fight for recognition.

    Respectfully submitted, Francis J. Dooley

    [The following is an attachment to Mr. Dooley's statement, which is 
an excerpt from the ``Maritime Life and Traditions'' Magazine, Issue 
No. 33, pages 6 and 7.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

       Prepared Statement of H. Gerald Starnes, St. Augustine, FL
                 (U.S. Merchant Marine Combat Veteran)
    Mr. Chairman and Members of the Committee:
    My name is H. Gerald Starnes, here today to urge passage of H.R. 
23, a Belated Thank You to the Merchant Mariners of World War II Act of 
2007. I am speaking for about 3,000 still living Veteran graduates of 
the United States Merchant Marine Academy at Kings Point, NY who have 
joined Mr. Ian T. Allison and the Just Compensation Committee in the 
endeavor to at last gain Congressional recognition for our services in 
helping win that forgotten great war 1941-1945. The U.S. Merchant 
Marine Academy is the only one of the five Federal service academies 
that send their Cadets into wartime combat zones. The memorial monument 
on the campus bears the names of 141 young men who lost their lives in 
combat.
    All of us are very grateful for the superb education we received 
and are proud to be graduates of that institution of military 
discipline and valuable learning. There was a war on and the largest 
ship building program the world had even seen required trained 
engineering and deck officers in manning these vessels when they were 
delivered. Appointments were relatively easy to obtain for 17 and 18-
year old males; no police record, high school diploma, in perfect 
health, recommendations from neighbors who had known us all our lives 
and our high school principal. We were sworn in as Cadet/Midshipman 
with the rank of Midshipman in the US Naval Reserve and received a 
Commission in the Naval Reserve upon graduation. Naval Science was one 
of our major courses and included gunnery. If there was a call to 
General Quarters, we had an assigned battle station to serve with the 
vessel's Navy Gun Crew.
    Unlike our all of our armed forces, many of whom never left a desk 
stateside, and received the GI Bill for 4 years of college, all the 
veteran members of the classes of '39 through '47 did not receive a 
degree at graduation as the Academy wartime curriculum did not meet the 
requirements for college accreditation. After graduation, we Kings 
Pointers and all the other Merchant Mariners of World War II were 
denied veterans status by every Congress for over four decades and 
received not a single benefit of any sort.
    Until 1977 merchant seamen were not allowed to apply for veteran 
recognition. Following a Federal Court ruling in 1986 to recognize 
merchant seamen as veterans, like the others, in 1988, we received a 
U.S. Coast Guard discharge and notification of eligibility for limited 
medical attention if you were homeless or on Medicade. To me and my 
fellow veteran alumni these documents were deemed worthless. I had 
retired from General Electric and had held a U.S. Coast Guard Chief 
Engineer's license since 1952 and, like my father, a World War I 
veteran, I wanted nothing to do with a VA hospital. My dad spent 
several months during and after the war recovering in Walter Reed 
hospital and would only go to our local VA institution on a Sunday 
afternoon to see a baseball game.
    An engineer on watch in the engine room of a ship makes decisions 
on what is wrong or right with the plant's operation, based on the 
numbers that his instrumentation is reading out, his sense of how the 
equipment should sound and what his crew is telling him about their 
observations. However, enemy submarine torpedoes and aircraft attacks 
were always aimed at the engine room to stop the ship for the kill. 
This added other thoughts when you're on duty below the water line no 
matter how much coffee you drink and try to avoid them.
    After the war ended, in August, 1945, President Truman urged us 
Merchant Mariners to stay on the ships. More casualties occurred as 54 
vessels struck mines. I personally recall running down the Malacca 
Straits full speed through a night of thunder and lightening on a 
tanker with 135,000 barrels of fuel oil for the reoccupied British 
Naval base in Singapore. During the Japanese occupation, they had 
destroyed all the navigational aids such as lighthouses and buoys and 
had mined the strait that had supposedly been swept clear by Allied 
mine sweeping vessels.
    The average age of the World War II Merchant Marine Veteran is now 
83 or 84. Many are enfeebled, in ill health and in a pitiful situation 
financially, physically and mentally. An aged Kings Pointer called to 
thank me for my efforts in informing the Veterans on H.R. 23. I had his 
name listed as graduating in a later class than his age would indicate. 
He probably couldn't remember what he had for breakfast, but he could 
remember well that he was ``sunk three times in the Mediterranean and 
couldn't get out of there and back to the Academy to graduate with his 
class''.
    For over 60 years the Congresses of the United States have denied 
us recognition and benefits as war veterans. We are aware that the 
outcry in both legislative bodies will be ``there is no money for the 
Merchant Mariners; it's all been allocated to other veteran 
organizations and government agencies''. The first years benefits of 
H.R. 23 would, at the very most, be only $120,000,000 and decrease 
every year thereafter to zero in a few years. With all due respect to 
the problems of the 109th Congress, we do not understand why H.R. 23 
and S. 1272 could not have come to the floor of the lower and upper 
houses for a vote when 9,963 special interest ``earmarks'' totaling $29 
billion were passed into law in 2006, according to the Wall Street 
Journal. At our advanced ages, this is our last chance. We believe that 
the new 110th Congress can and will pass our benefit bill this year.
    Thank you very much for your attention to our cause.
          Prepared Statement of Stanley Willner, New York, NY
         (U.S. Merchant Marine Combat Veteran, and former POW)
    Thank you Mr. Chairman and Members of the Committee for Veterans' 
Affairs.
    My name is Stanley Willner. I am the first official Merchant Marine 
veteran of World War II. I was captured by the German Navy and turned 
over to the Imperial Japanese Army occupation forces in Singapore. I 
remained a prisoner for more than 3 years and 3 months.
    After graduating from high school in 1938, I received an 
appointment to the U.S. Maritime Service from the late Senator Harry F. 
Byrd of Virginia.
    I spent 3 years as a Merchant Marine cadet. On August 21, 1941 I 
graduated to Deck Officer and third mate with a commission of Ensign in 
the U.S. Naval Reserve.
    I served as Third Mate on the Excaliber, one of the Four Aces 
passenger ships in the Mediterranean. When Japan attacked Pearl Harbor, 
I was in Lisbon, Portugal.
    After returning, I immediately went to the Naval Board in New York 
City to enlist. I was rejected and sent to serve on M.S. Sawokla, an 
Army Transport ship.
    In the midst of all this activity, I met and married my wife of 65 
years, Carol. But before we had a chance to take our honeymoon, the 
Sawokla set sail for a 3 month deployment to India and the Persian Gulf 
with supplies to stand up an Army Base in Bahrain, Iraq.
    Upon my return, I was to be promoted to Lt. J.G. or full Lt. in the 
U.S. Navy Reserve. Most importantly, my new wife and I would take our 
honeymoon.
    In November 1942, the Sawokla, steaming south of Madagascar, was 
stalked, fired upon, torpedoed and sunk by the German Raider, Michel 
(Mik-el). The Michel was deceptively disguised as a merchant vessel but 
equipped with a lethal arsenal. The German Raider fleet was as 
effective as the U-Boats in sinking Allied supply vessels.
    The Michel's log shows that the Sawokla sunk almost immediately. I 
was the Officer on watch with a staff of eight lookouts. I woke up in 
the water, badly wounded and clinging to a piece of wreckage. About 
three hours later the Michel picked me up. I remained in the sick bay 
for about 3 months. I was given excellent medical treatment.
    The next day, the Michel sent out its scout plane and torpedo boat 
to pick up the wreckage so there would be no trace of the Sawokla. That 
action resulted in a letter from the Navy Department declaring me dead. 
(Exhibit 1)
    Thirty seamen and nine members of the Naval Armed Guard survived 
the attack. We were now captives of the Third Reich.
    The Michel sank more ships while I was on board. One ship had one 
survivor, the other had thirteen.
    The Japanese would not let the Michel out of the Pacific blockade 
for its return to Germany. Low on food and fuel, the Michel docked in 
Singapore and turned over it prisoners to the Japanese.
    The Michel's doctor had given me a medical letter to give to the 
Japanese. The Japanese sergeant took the letter, tore it up and hit me 
with his rifle butt. Hard, un-Godly times were just ahead.
    We were billeted in Changi Jail which was built to hold about six 
hundred criminals. The Japanese had herded anywhere from 10,000 to 
15,000 prisoners, including women and children, within its walls.
    Initially, we lived in huts outside the main building, while we 
worked at the docks.
    My clothes were in shreds from the Michel's attack. I had kicked my 
shoes off in the water. I would live in these tattered rags, barefoot 
for over 3 years. The only other clothing I received was when an 
Australian serviceman gave me a piece of cloth that I used as a loin 
cloth.
    The Allied POW's who had surrendered in Singapore still had clothes 
and mess kits. All I had was a tin can for water, which I used for over 
three years.
    For the remainder of my captivity, I did not shave, brush my teeth 
or cut my hair or receive any medicine or enough food to remain healthy 
and fit.
    As if it could not get worse, it did. The Japanese sent us up 
country into Burma and Siam (Thailand) to build the Burma-Siam 
Railroad, known as Death's Railway. Its path crossed over the River 
Kwai.\1\
---------------------------------------------------------------------------
    \1\ Historically, the bridges spanned the Mae Klong river. Death's 
Railway followed the Kwae Noi Valley. The Pierre Boule novel and the 
David Lean movie incorrectly referenced the River Kwai (Kwae noi--
little tributary), but I have continued to use it as a common reference 
for easier communication.
---------------------------------------------------------------------------
    In Singapore we were crammed into small railroad cars. We could not 
sit, but were packed in standing position, barely able to move at all. 
There was no ventilation. Several of the men had dysentery. Others had 
little choice but to urinate and defecate on themselves. The railroad 
car quickly began to smell like a sewer barge. The stink would not wash 
off. Every nine or 10 hours the train would stop to take on coal and 
water. We were let out for about fifteen minutes a day over the course 
of 5 days.
    On arrival, we were marched twenty miles a day for six straight 
days to get to the location of the railroad.
    Before my capture, the U.S.S. Houston and the 131st Battalion, 
known as the Lost Battalion went missing. I caught up with some of the 
survivors on Death's Railway. For some reason, only a limited number of 
Americans were sent up country by the Japanese.
    While the movie, the Bridge on the River Kwai made this episode in 
history known to many, it did not reveal the true brutality of the 
Japanese and the suffering of officers and enlisted men, who starving 
and diseased, built a railroad through the jungle on virtually no food 
and one cup of water a day. We were worked from dark to dark. More than 
100,000 human lives were sacrificed. Some counts are as high as 300,000 
and include native women and children.
    Two indelible memories of extreme brutality that have haunted me in 
nightmares come to mind. A British soldier who had lost an arm and a 
leg was responsible for heating the Japanese officers bath water in a 
50 gallon drum. One night, returning from a work party, we heard a 
great commotion in the camp. We were made to line up while the water in 
the drum was brought to a full boil. The Japanese picked up the British 
amputee and tossed him into the boiling water. I can still hear his 
screams to this very day.
    The second was an outbreak of Cholera. We were given only one cup 
of boiled water a day. The scathing tropical heat took its toll on us. 
Some were so desperate for a drink of water, they would drink from the 
River Kwai. The natives living up river, used the river for everything, 
including human waste disposal. Many thousands contracted Cholera and 
died.
    I was assigned to a squad to collect the victims in our camp who 
were dead or near death and burn them. If we refused, the Japanese 
would shoot you on the spot and add you to the pile. Such a situation 
was impossible to comprehend then as it is now. No explanation is 
suitable. And, no amount of years makes it any less horrible for me.
    The Railroad was completed in about 2 years. Those who survived 
were sent back to Singapore. I was sick with beri-beri, dysentery, 
malaria, pellagra, scurvy and ringworm. All kinds of sores covered my 
body. Out of the original 525 plus men who went up country with me, 
only 116 returned.
    When we were liberated all Allied prisoners in the Far East and 
Murmansk were flown from Singapore etc. to the 142nd Army Hospital in 
Karachi, India, which is now Pakistan.
    I was 25 years old, weighed 74 pounds and infected with every 
disease imaginable. The doctors told me that I would be the luckiest 
man alive if I lived to be fifty years old. The Army medical care was 
nearly the last time as a Merchant Marine that I received any U.S. 
government benefits for my service.
    The doctors and nurses in the 142nd cried when they saw us. They 
had never seen human beings in such bad shape. In fact, the first night 
we slept on the floor not wanting to mess up the white hospital sheets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    From India on our trip back to the States, the Merchant Seamen were 
soon forgotten. They received no Government benefits until 1987 when 
they were awarded veteran's status. Our captors and our fellow 
prisoners treated us as military prisoners and made no distinction in 
our service when they dished out the brutality. Yet our own government 
would see us as undeserving and would render us invisible in the post 
war years.
    The other POWs were issued new uniforms and given spending money. 
The Mariners received only one shirt and one pair of pants, plus a pair 
of shoes. I was unable to wear the shoes. After a month in the hospital 
we were flown back to the States.
    The plane stopped in Gander, Newfoundland. A female worker asked me 
if I wanted some fresh milk. I drank the milk and she charged me $2.00 
because I was not in uniform. I had no money.
    The plane landed in a military airport outside of Washington, D.C. 
The military men were met with Honor Guards. The Mariners were left on 
their own. I was lucky. My wife came to take me home.
    I was unable to adjust. The Government gave me 1 month's pay of 
$250.00. I was admitted to the Marine Hospital for 2 weeks. I was told 
I was fit for duty and was discharged. This was the very last 
government benefit I received until 1988, four decades later.
    I had a large ringworm on my stomach. As the result of being hit 
with rifle butts in the back several times, I eventually had to have 
back surgery. For nearly a year I suffered with malaria. Walking around 
I would just pass out. I suffered continuous nightmares. I was lucky to 
have my family taking care of me.
    A British doctor who took care of us in the camps would send me 
medicine for the jungle rot on my chest. It took 2 years of dental work 
to save my teeth. The government dentist wanted to pull them out. My 
family paid for the civilian dentist.
    It is well known today after Korea and Viet Nam that war veterans 
and especially POWs have huge psychological issues to overcome. I had 
to use civilian doctors at my own expense. It was well over a year and 
half before I could return to work.
    I tried working for the Maritime Commission pricing war surplus 
ships for sale to foreign countries. The work required travel and I was 
unable to travel and had to resign.
    My wife and I took over a family business that brought us some 
success over the years. But, I have never stopped being a prisoner.
    I attended two River Kwai reunions with Dennis Roland (deceased), 
my shipmate and POW buddy. I was the only Allied POW who refused to 
walk across the bridge with our former Japanese captors. In the 
cemetery before the walk, memories of all those who were sacrificed for 
the Japanese railroad came flooding back. I could forgive, but I 
refused to forget.
    The importance of the Merchant Marine effort in the successful 
outcome of World War II cannot be overstated. Without the Merchant 
Marines, the logistical arm of the war effort would have collapsed. The 
steady flow of supplies at perilous and great risk by Merchant seaman 
deserves recognition by the same government that depended so heavily 
upon them.

General Douglas McArthur:

         ``They shard the heaviest fire--They have suffered in 
        bloodshed and death--They have contributed tremendously to our 
        success. I hold no branch in higher esteem then the Merchant 
        Marine Services.''

President Harry Truman:

         ``To you who answered the call of your country and served in 
        the Merchant Marine to bring bout the total defeat of the 
        enemy, I extend the heartfelt thanks of the Nation.''

    During and after World War II, members of the U.S. Merchant Marine 
were denied well deserved benefits. In 1944, President Roosevelt signed 
the GI Bill. He said, ``I trust Congress will soon provide similar 
opportunities to members of the Merchant Marine who risked their lives 
time and again during the War for the welfare of their country.'' The 
U.S. Merchant Marine and the U.S. Maritime Service were agencies of the 
United States Government.
    My best friend and fellow POW, Dennis Roland, the 2nd Officer on 
the Sawokla, died on December 17, 1984 at the age of 76 with leukemia. 
Roland stayed in the Navy retiring as a Lieutenant Commander. When 
Roland passed away, I took his place in the fight for Merchant Marine 
veteran status.
    The Air Force was sued on behalf of the Merchant Marine survivors 
by Joan McAvoy. The case is known as Plaintiffs--Ed Schumacher, 
Willner, and Lester Reid, vs. Aldridge. Aldridge was the Secretary of 
the Air Force at the time.
    Federal Judge Louis Oberdofrer conferred veteran's status in his 
Summary Judgment in 1987--42 years after the end of World War II. An 
adult lifetime. By this time both Schumacher and Reid were deceased. I 
was the first Merchant Mariner to be called a World War II veteran.
    It is my lifelong desire to see those who willingly risked life and 
limb patriotically in support of the war effort, in the midst of 
combat, to receive not only the monetary recognition but the 
recognition of a country they made strong and whole all these years.
    Remember that when a merchant ship was sunk, the mariner's pay was 
stopped. This token of thanks will help bring the recognition so well 
deserved.
    The British, Dutch and German Merchant Mariners were always 
considered veterans by their country. Surviving crew members of the 
Michel were even surprised to learn years later that their American 
captives were not considered veterans for the service given.
    Thank you for this opportunity to testify and present my life 
history.

                   Exhibits--Notification of My Death

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

           Prepared Statement of Bruce Felknor, Evanston, IL
  Author, ``U.S. Merchant Marine at War, 1775-1945,'' as Presented by
    Hon. Janice D. Schakowsky, a Representative in Congress from the
                           State of Illinois
    I thank Chairman Filner and this Committee for the opportunity to 
speak for the surviving remnant of merchant mariners of World War II. 
And I am profoundly grateful to my Representative Jan Schakowsky, the 
majority's Chief Deputy Whip, for consenting to present my testimony. 
(Surgery has left me presently voiceless.)
    I am proud to be a merchant marine veteran of World War II. Perhaps 
10,000 of us remain from the quarter-million men and boys, then aged 16 
to the eighties and beyond. Roosevelt and Churchill and their generals 
and admirals knew how vital was our task and how gallantly and 
effectively we served and how we delivered. And our lives were on the 
line every time we left port.
    So when the war was won, with our essential help, why were we 
selected out when Congress created the GI Bill of Rights? A major 
reason was the myth of merchant marine pay, based on comparisons that 
ignored navy dependent allowances, freedom from income tax, paid 
vacation and time between voyages.
    Second, because we were so few. The GIs had 13 million sets of 
parents; we had one-quarter of 1 million. In the folks-at-home 
department [read ``votes''] we were outnumbered 52 to 1.
    A third major reason was lack of public knowledge and awareness of 
what a merchant marine was and what it did. No war correspondents were 
stationed on freighters or tankers. Outside port cities the news media 
were generally oblivious to the merchant shipping that carried every 
engine of war to the front. Only occasionally did a dramatic story 
about a freighter or tanker or lifeboat trip from a paper in some 
seaport find its way into the national news wire services.
    Wartime motion pictures were a staple of hometown movie theaters--
but I know of only one feature film about the merchant marine: 1943's 
``Action in the North Atlantic'' with Humphrey Bogart. You can't count 
the feature films about the army, air corps, navy, marine corps, in the 
Second World War.
    So it is small wonder that the small company of men who carried the 
American war machine across the oceans of the world were unknown to the 
general public.
    A typical freighter or tanker crew numbered about 43 officers and 
men, plus 22 from the naval armed guard who manned the guns, often 
assisted by the merchant marine counterparts, whose training included 
gunnery.
    Fast friendships developed among these shipmates, and at war's end 
it was a major shock for the merchant marine men to discover that they 
were not even veterans and that the Seamen's Bill of Rights urged on 
Congress by Presidents Roosevelt and Truman never got out of the House.
    I remember the personal bitterness from then that sticks in my craw 
today. And the mixed emotions that greeted my becoming a veteran in 
1989 with none of the life-changing perquisites of the GI Bill of 
Rights.
    Two years ago I voiced these emotions in a poem, ``The Song of the 
Merchant Mariner.'' It concludes:
    The Army and its Air Force were included, The Navy and the Coast 
Guard and Marines; Alone the merchant seaman was excluded:
    The one that fueled and fed their war machines.
    He offered his life to his country each time that he sailed.
    To thank him his country and congress and government failed.
    My heart swells with pride suppressed for sixty years at the 
response of Chairman Filner and his cosponsors and all who have brought 
H.R. 23 to the table. Thank you, and God bless you.
                                 ______
                                 

                    THE SONG OF THE MERCHANT MARINER

                   Copyright 2005 By Bruce L. Felknor

Now hear the song of America's merchant marine,
Its Herculean deeds in World War Two,
Supplying all its country's war machine,
Disdaining death as only the brave can do.

A hundred eighty thousand men and boys,
None drafted, ev'ry one a volunteer,
To serve on ships the oceans tossed like toys,
Deliv'ring an invading army's gear,

Each knowing ev'ry time he sets to sea
That out of port he's in a zone of war,
Where lurking submarines can plainly see His ship a target,
Just another score.

Torpedoes' wakes are hard to see at night,
But when they hit,
The sea's suffused with light.

A hundred eighty thousand gallant souls,
From nineteen forty-one to 'forty-five,
They sailed across the oceans' seas and shoals,
To keep the Allies' chance to win alive.

In old rust-buckets, lumb'ring Libertys,
They braved the winter North Atlantic's storms,
In tankers too, and newer Victorys,
Through oceans' rolling, pitching, tossing norms.

And in the far Pacific--misnamed ocean!
Unlike some tropic atoll's calm lagoon--
Epitome of violence in motion:
They faced the fury of a full typhoon.

In convoy, or alone on zig-zag course,
The billows were the U-boat's stalking horse.

A hundred eighty thousand seamen who--
Civilians to a man--confronted death,
From mines, torpedoes, guns, and bombs that flew;
Each trip meant facing death with ev'ry breath.

No seaman knew the destination when
A man signed on to make another trip.
(The captain has all secrets in his ken,
To be destroyed if they abandon ship.)

But some faced more than others; when you sail
With ``ammo'' or with aviation gas,
You know that if 1 day your luck should fail,
Your body won't attend your fun'ral mass.

The U-boat captain's dream is realized:
When such a ship is hit it's vaporized.

Offshore, in Carolina's latitude,
A stalking U-boat's periscope reveals
A coastal tanker riding deep with crude.
The Unterseeboot sends a brace of ``eels.''

Explosions, and a viscous pad of oil
Congeals and thickens on the icy brine.
Blown overboard, two swimmers vainly toil
Until their strength is gone, and then resign.

Her stern awash, the tanker bursts afire;
A gutt'ring flame spreads o'er the oil-choked sea.
Now sinks the stern; the upright bow's a pyre
That's quenched in diving to eternity.

A lifeboat head-count tallies who's alive:
But thirty-two of forty-four survive.

A hundred eighty thousand mothers' sons,
And thousands faced the U-boats and the planes
'Long Norway's coast: the deadly Murmansk runs,
Where death and ice bestrode the ocean lanes.

Where submarines, torpedo planes, and more,
Where German cruisers joined the fight to close
The Allies' access to North Russia's door,
And thereby Stalingrad's relief foreclose.

Far north beyond the Arctic Circle, and
Bear east and sail across the Barents Sea;
Turn south: Murmansk or Arkangelsk. There's land!
No subs, but bombers, bombers constantly.

Midsummer ice and sunlit nights conspire
With subs and bombers: unremitting fire.

A hundred eighty thousand, some of whom
In convoys sailed ``the Med'' to bring supplies
For Sicily's invasion, anteroom
To Hitler's Europe, and to his demise.

A trick when eastbound vessels reach Gibraltar:
Limpet bombs stuck to the hull by swimmers.
The watch of marksmen downward peer, nor falter
To shoot whatever moves among the glimmers.

We're moored at Bari; German planes appear,
Torpedo, bomb, and strafe.
Unloading ships With troops and ammunition disappear,
Blown skyward in a small Apocalypse.

A quaint and bustling port when all is well,
With bombs can be the hinterland of hell.

On D-Day hordes of men and tons of gear
Traverse the English Channel to a port
That ne'er existed any other year,
Invented for this day, great tides to thwart.

An artificial port, breakwaters, piers
All made in England, towed to France's door,
And sunk in place, so ships could dock in tiers
And land their cargo right on Europe's shore.

Then down the channel sailed a bridge of ships,
With men and cannons, trucks and jeeps and tanks,
Machine guns, pistols, rifles, loaded clips,
And ev'rything to arm and feed the Yanks.

All brought by merchant ships and tugs and crews,
Without which the Allies were sure to lose.

A hundred eighty thousand; many went
Into the far Pacific and its isles,
To often-hostile beach with armament
And food and gas and medics' goods in piles.

A Liberty moored to a rickety pontoon pier
Discharges, using its winch and cargo booms
On drums of gas, assorted crates--we hear A0 plane!
Guns manned; a friend. The work resumes.

Sometimes the guns of merchant ships were all
The antiaircraft weapons at the beach,
Each shell-burst formed a threat'ning smoky pall;
And some shots blew up planes that they could reach.

Then Kamikazes: some of them were killed,
Their sacred mission ever unfulfilled.

The war was won in nineteen forty-five,
And then began the troops' repatriation.
The homeward-bound in merchant ships arrive,
To great parades and gen'ral celebration.

GIs came home to preference in hiring,
Home-purchase mortgage guarantees, and yet--
The GI Bill of Rights their zeal inspiring--
A college education free of debt.

The Army and its Air Force were included,
The Navy and the Coast Guard and Marines;
Alone the merchant seaman was excluded:
The one that fueled and fed their war machines.

He offered his life to his country each time that he sailed.
To thank him his country and congress and government failed.

A trio who were prisoners of war,
Slave-labor at notorious River Kwai,
Protested their exclusion from the corps,
Of vet'rans. They're rebuffed at ev'ry try.

Then forty-two years later, joined by friends,
They take the case to U.S. District Court,
And there the string of slights abruptly ends:
They win a solid finding of support.

They're vet'rans at last--more than half of their shipmates have died--
 Old men now, too late for those college and homeowner loans.

Yet forty years late, being vets evokes surges of pride--
 And a veteran's marker to label the site of their bones.

Of all branches they died in the war at the paramount rate,
And got grudging acknowledgement finally, forty years late.

    (The 180,000 figure is the number of men actually sailing at the 
end of the war.)

                                 <F-dash>
           Prepared Statement of Mark S. Gleeson, Oakmont, PA
                  (U.S. Merchant Marine Combat Veteran
         Active American Merchant Marine Veterans Association)
    Thank you Mr. Chairman and Members of the Veterans' Affairs 
Committee.
    My name is Mark Gleeson and I am a Member of the American Merchant 
Marine Veterans of World War II. I joined the American Maritime Service 
in June 1945 fully expecting to be part of the invasion fleets invading 
Japan planned for November 1945. Physical injuries in training camp and 
at sea cut my sea service short. I have my Honorable Discharge from the 
United States Coast Guard under the provisions of P.L. 105-368. I 
appear today speaking in favor of H.R. 23.
    I first applied for my military discharge under the provisions of 
PL 95-202 in 1989. When this was turned down, I became involved in the 
efforts of Merchant Marine veterans to gain our denied veterans' 
recognition through Federal legislation. The issue at point was when 
did World War II end and who qualified for veteran's recognition. For 
almost 10 years I had a title of Vice Chairman of the Merchant Mariners 
Fairness Committee, the ad hoc committee that worked with many 
distinguished members of Congress to finally pass legislation in 1998 
granting veterans status to about 3000 seamen who had been denied such 
recognition by the Civilian/Military Service Review Board due to their 
interpretation PL 95-202. I have written a personal chronicle of this 
ten-year legislative struggle.
    In reflecting on this chronicle that covers five sessions of 
Congress, it is obvious that the scope of H.R. 23 can not be a funding 
problem. It does not fund the varied veterans' benefits, including 
educational, loan, and medical benefits. It acknowledges the service of 
merchant seamen only.
    To this point, the chronicle contains the fact that after four 
previous efforts, the Senate and the House in 1996, passed S-281 by 
voice vote, a bill that established the start of the Vietnam conflict 
as February 28, 1961, not the August 5, 1964 date following the Tonkin 
Bay incident. This legislation, spearheaded by Senator D'Amato of New 
York, belatedly recognized some 16,000 servicemen who had been serving 
in Vietnam during that time period. The Congressional Budget Office 
indicated that this act would have no significant impact on the 
Veterans' Affairs Budget. These men fully and richly deserved belated 
government recognition and response for their service, and their 
service related injuries. We believe the merchant marine veterans of 
World War II also deserve a positive response for their service. Of 
some 250,000 seamen at the end of World War II, it is estimated that 
less than 10,000 are still alive, and there are fewer each year.
    We ask for your help in passing H.R. 23. Only those seamen 
recognized by a Federal court decision in 1987 received limited medical 
benefits. The remaining Denied Seamen recognized by PL 105-368 receive 
no medical benefits. All they are entitled to is a tombstone and a 
burial flag. If they want a medal they are entitled to, they must pay 
for it. They must also pay the Coast Guard $30 for their Honorable 
Discharge papers. We believe it is time all eligible World War II 
Merchant Marine Veterans be treated as equal veterans. While H.R. 23 
does not grant educational or medical benefits to remaining seamen, it 
does partially compensate them for the benefits they never received. 
The Federal court and congress have recognized merchant seamen of World 
War II as veterans. We are proud of that. We are not proud that we are 
still not treated as veterans.
    We read in the chronicle that only a few people we contacted in our 
ten-year legislative effort were knowledgeable about what the merchant 
marine did to help defeat the enemies of democracy. It was as difficult 
then as it is now to explain incidents of history and to illustrate 
that without the men who manned the merchant fleet, final victory would 
not have been possible. Some understanding of history is important to 
appreciate the significance of H.R. 23.
    Over the years, we found few people who knew that thousands of 
young men were actively recruited by the government to join the 
merchant marine in 1945 so they could man the ships that would invade 
Japan in November 1945. The two planned invasions of Japan would have 
resulted in an estimated one million American casualties. Included in 
these casualties would have been merchant seamen. It is difficult to 
communicate these issues that are now 62 years old. It is also hard for 
us to overcome the effect of misinformation that has been repeated over 
and over and thus, has prevented the passage of H.R. 23.
    Certain issues have come up year after year to support denying 
merchant seamen the requested relief. Among them are the disparity in 
the pay scales and the contention that there were strikes by merchant 
seamen. With respect to the often-mentioned strike, the truth is that 
the strike resolved around some longshoremen labor issues in the summer 
1946 in New York City. This was a dock labor management issue, not a 
merchant seamen issue. What is important to this discussion is that 
during World War II, no ship did not sail, or sailed late due to a 
strike by seamen. Admiral Emory Land, Administrator of the War Shipping 
Administration, stated this fact in his last report to Congress on 
January 15, 1946. This fact is never mentioned. Failing to correct the 
misperception that the merchant seamen went on strike is, at the least, 
an affront to the men who served and died for their country.
    No invasion failed or was delayed as merchant ship crews reportedly 
took off for coffee hour, or refused to load or unload cargo on the 
weekends. We have found that few people knew that when a ship was sunk, 
and the seaman was in the water, his pay ceased the minute he abandoned 
ship and did not start again until he signed on to a new ship. If he 
was injured, this could have been weeks or months. If he lost all his 
clothing, he had to buy new clothing himself, if he survived. He was 
not provided free gear. Yet, seamen came back out of the cold or 
burning water, and sailed again. The pay issue that is used again and 
again against merchant seamen never really existed. Unfortunately these 
facts are not well known.
    The men of the Naval Armed Guard and the merchant seamen sailed 
together on the same ships, ate the same food, manned the same guns, 
fought the same enemy, died or were wounded on the same ships. The 
Naval Armed Guard veterans, men we call our blood brothers, received 
full veteran's benefits. They deserved this. The surviving World War II 
merchant seamen are still waiting.
    We are here again, discussing things that have been settled before 
in our favor both in Federal court and in Federal legislation. We are, 
however, at a disadvantage in presenting facts to members of Congress 
regarding H.R. 23. All the other services have historical research 
centers staffed by professional historians, all paid by the government, 
that produce data for you, the public, and as records of their 
particular service. Congress also has military liaison personnel 
available who present their version of issues. The merchant marine has 
no such historical center to present credible testimony on our behalf, 
or government personnel to speak for us.
    H.R. 23 is a belated yet welcomed attempt to recognize the efforts 
of men of a service that has its name engraved on the new National 
World War II Memorial, in the same size as the other services. The 
merchant marine's name would not be there, carved forever in stone 
along with other services, if it were not considered a service equal to 
all others.
    Finally, H.R. 23 could also help in a small way to acknowledge the 
Merchant Marine of World War II as the only non-segregated service. 
While most African-Americans in the army and in the other services were 
relegated to menial tasks, African-Americans in the merchant marine 
graduated from the United States Maritime Academy at Kings Point. 
African-American seamen shipped out as masters, officers and crews of 
ships, serving in harm's way the entire war.
    The Merchant Marine Veterans of World War II respectfully asks you 
to finally recognize them for their participation in the war, as all 
other services have been previously recognized by their government for 
their wartime service. We ask you to pass H.R. 23. We believe it is the 
right thing to do, and we believe this is the right time to do it. 
America will respect that.
    Thank you.

                                 <F-dash>
Prepared Statement of Herman ``Hank'' Rosen, San Diego, CA, Co-Chairman
   Just Compensation Committee (U.S. Merchant Marine Combat Veteran)
    Mr. Chairman and the House Veterans' Affairs Committee Members.
    My name is Herman Rosen, known as Hank. On April 29, 2007, I'll be 
88 years old. I live in San Diego, California and I strongly encourage 
the passage of H.R. 23 ``A Belated Thank You to the Merchant Mariners 
of World War II Act of 2007.''
    On December 7, 1941, when the Japanese attacked Pearl Harbor, I was 
a student at the University of Missouri and a Member of ROTC Field 
Artillery. I expected to be drafted into the U.S. Army.
    I had always wanted to go to sea. An advertisement in Popular 
Mechanics Magazine caught my attention. It was a photograph of a young 
man in a midshipmen's uniform. Beneath it read ``America's new ships 
have the finest officers afloat. Anxious to get in and pitch for 
America? Here's the way to serve your Country now . . . Apply to the 
Merchant Marine Academy today!'' I thought, why not, my chance to go to 
sea and help my country.
    I applied, passed the requirements and in March 1942, was sworn in 
as a Cadet, U.S. Merchant Marine Cadet Corps., Midshipman, USNR and 
reported to the Academy at King's Point, New York.
    After 3 months of preliminary training, I shipped out from 
Wilmington, NC on the newly launched S.S. John Drayton, a Liberty ship. 
We sailed to New York where we loaded Douglas A-20 bombers, Sherman 
tanks, ammunition, and assorted supplies for unknown recipients. We all 
assumed they were for Russia.
    Due to horrendous Merchant Marine losses of ships and men on the 
North Atlantic, the S.S. John Drayton was routed from New York to Cuba 
through the Panama Canal to the Pacific Ocean, down the West coast of 
South America, across the Atlantic to South Africa. In Durban, South 
Africa we joined a convoy which traveled through the Indian Ocean to 
the Arabian Sea and finally the Persian Gulf and Khorsamshar, Iran. It 
was a journey of 17,260 miles from October 11, 1942 to February 1, 
1943. Our ship was finally unloaded and on April 1st, we were ordered 
to return to the States.
    On a dark night on the Indian Ocean, 21 days later, with gale force 
winds blowing, the S.S. John Drayton was trapped and torpedoed by two 
Italian submarines some 300 miles east of Durban, South Africa.
    I scrambled to a lifeboat, injuring my leg, and joined 23 other 
wet, frightened, injured, and oil-covered Merchant seamen and Navy gun 
crew. As was policy, my pay from the Merchant Marine ceased the minute 
I jumped into the lifeboat while the Navy gun crew continued on salary.
    We spent 30-days adrift on the Indian Ocean without food and 
potable water, drinking salt water, urine and blood. Nineteen men died; 
5 survived.
    After 30 days in that lifeboat, we were picked up by a Greek vessel 
and taken to a military hospital in Durban. I weighed 97 pounds and 
suffered from exposure, malnutrition, dehydration, septic abrasions of 
the hands and feet, conjunctivitis in both eyes, shock and tachycardia, 
which has affected me since then.
    After several months of hospitalization, during which time I 
continued unpaid, I returned to the Academy at Kings Point, graduated 
and was commissioned as Ensign, U.S. Naval Reserve, and licensed as 3rd 
Mate in the Merchant Marines.
    I continued sailing throughout the War serving my country despite 
my experience. I was discharged by the Merchant Marine at war's end.
    It is noteworthy that the Merchant Mariners in my lifeboat and in 
the hospital were not paid. The Navy gun crew were paid. In 1944, the 
GI Bill of Rights was passed but the Merchant Mariners received no 
Veterans' status or benefits. We received no GI Bill; no 52 weeks of 
$20.00 per week; no VA loans; no Veterans health benefits; no family 
tax relief; no VA burial; no military transport; no generous life 
insurance; no mortgage interest deductions; even no USO access. YET we 
suffered the highest proportion of casualties of any branch of the 
Armed Services. More than 9,000 Merchant seamen died and more that 700 
American Merchant ships were sunk.
    It has been a long, hard battle for us to earn Veterans' status. I 
ask you today to rectify this wrong. Please support H.R. 23, ``The 
Belated Thank You to the Merchant Mariners of World War II''.
    Thank you, Mr. Chairman and the Committee Members for listening to 
my testimony.

                                 <F-dash>
           Statement of Brian Herbert, Bainbridge Island, WA
 Author, ``The Forgotten Heroes: The Heroic Story Of The United States 
                           Merchant Marine''
    This nation owes a debt of honor to the men of the U.S. Merchant 
Marine who served the Allied cause so valiantly in World War II. As a 
government and as a people we have let these heroes down by denying 
military benefits to them. It is a shameful chapter in American 
history, and a national disgrace.
    From 1941-1945, the War Shipping Administration sent civilian 
seamen into war zones, transporting troops, bombs, tanks, planes, 
aviation fuel, torpedoes, and other dangerous war materiel. The typical 
Allied soldier in Europe needed seven to eight tons of military 
supplies a year to sustain his ability to fight, and 80% of that was 
provided by the U.S. Merchant Marine.\1\ These brave men became the 
lifeline of Allied forces overseas. Delivering essential cargoes, the 
U.S. Merchant Marine suffered more deaths per capita in World War II 
than any of the American armed forces--a 32% higher rate than the 
highly publicized losses of the U.S. Marine Corps.\2\
---------------------------------------------------------------------------
    \1\ Dear, I.C.B., ed., Oxford Companion to World War II. Oxford: 
Oxford University Press, 1995, p. 1203; Collier's Encyclopedia. New 
York: P.F. Collier & Son Corp., 1960, volume 12, p. 643.
    \2\ Armed Forces statistics: World Almanac (1999), p. 209; Merchant 
Marine statistics: ``American Merchant Marine in World War II'' (p. 1 
of 12 on the U.S. Merchant Marine website www.usmm.org as of October 5, 
2001); also see The Anchor Light, March 2001, p. 5, and ``Progress 
Report on Just Compensation,'' by Henry Van Gemert, Co-Chairman, in 
Salty Dog, December 2002.
---------------------------------------------------------------------------
    Packed with military cargoes, the slow-moving ships of the Merchant 
Marine were easy targets for German and Japanese naval and air forces. 
Torpedoes fired at merchant ships carrying ammunition or petroleum 
often caused explosions so immense that no traces of the vessels or 
their crews were ever found. Merchant-ship duty was so hazardous that 
some men quit at the first opportunity and joined the armed forces--
where it was safer.
    Seamen suffered terribly. Medical workers and survivors of the 
torpedoed oil tanker SS John D. Gill reported that the flesh of burned 
merchant seamen ``would come off in your hands.'' \3\ When the SS 
Benjamin Brewster was torpedoed, a survivor described the ``screams of 
the dying, some . . . boiled alive, others fried on the steel decks. . 
. .'' One of the engineers was ``a charred and misshapen figure'' on a 
stretcher.\4\ Among the merchant seamen who survived disasters at sea, 
many suffered amputations or other disfiguring injuries.
---------------------------------------------------------------------------
    \3\ Galati, Bob, compiler and editor, A Winning Team! The Armed 
Guard and Merchant Marine in World War II. Irving, Tex.: Innovatia 
Press, 1995, pp. 42-45; Millar, Ian A., ``Tankers at War!'' Sea 
Classics, July 1990, pp. 22-27.
    \4\ Riesenberg, Felix Jr., Sea War, the Story of the U.S. Merchant 
Marine in World War II. New York: Rinehart & Company, Inc., 1956, pp. 
115-116 (citing the account of Junior Engineer Ira C. Kenny, by 
Marjorie Dent Candee of The Lookout--a publication of the Seamen's 
Church Institute).
---------------------------------------------------------------------------
    At the end of the war, the men and women of the U.S. armed forces 
were honored with victory parades and the GI Bill, which gave them 
educational benefits and low interest loans. But the members of the 
U.S. Merchant Marine received none of that. Instead they were shunned 
and ridiculed; they were called draft-dodgers, slackers, and bums. Many 
former seamen became derelicts without homes after the war, left to 
wander the streets of America like stray, unwanted animals. Some of 
them committed suicide.
    The reasons for this involve politics and a veil of lies and 
distortions that was placed over the achievements of these men. It has 
even been alleged that they were overpaid, perhaps the biggest untruth 
of all. How could they possibly have been overpaid when they died in 
huge numbers and when survivors were denied military benefits for their 
entire lives? As I proved in my book The Forgotten Heroes, these men 
were in fact grossly underpaid. They operated ships with skeleton 
crews. They performed the work of at least half a million men (more 
than twice their actual numbers), and were sent into battle with the 
equivalent of pea shooters on their decks.
    During the war, the Japanese Navy ordered their commanders to sink 
enemy ships and cargoes, and to ``carry out the complete destruction of 
the crews. . . .'' \5\ As a result, American merchant seamen were 
machine-gunned in their lifeboats, tortured by submarine crews, and 
thrown into shark-infested waters. Some survivors of the merchant ship 
SS Jean Nicolet--with their hands tied--were left on the deck of a 
Japanese submarine and drowned when the captain crash-dived the sub.
---------------------------------------------------------------------------
    \5\ Riesenberg, Felix Jr., Sea War, pp. 36-37.
---------------------------------------------------------------------------
    The men of the U.S. Merchant Marine were independent sorts who 
often did not dress in uniforms or salute officers--and they have been 
criticized for this. But there is an old saying: ``The uniform does not 
make the man.'' It is essential to keep in mind that this country was 
served at its time of greatest peril by men who performed their jobs 
efficiently and completed their military assignments. They were 
individuals . . . the very essence of what it means to be an American.
    They were also patriots. On June 27, 1942, Convoy PQ-17 sailed from 
Rejkevik, Iceland with thirty-four merchant vessels. They were bound 
for Russia in a rescue operation, transporting food, clothing and 
military supplies to the beleaguered nation, to keep it from falling to 
enemy forces. On July 3rd, ``Lord Haw Haw'' (the German version of 
Tokyo Rose) announced over the radio, ``The Americans celebrate the 
Fourth of July tomorrow, and we shall provide the fireworks.''
    The next day the German Navy attacked in force. During the one-
sided battle, American merchant ships were in radio contact with one 
another, and coordinated a remarkable act of bravery and defiance. To 
commemorate American Independence Day, they simultaneously raised large 
national flags, and sang ``The Battle Hymn of the Republic.'' \6\
---------------------------------------------------------------------------
    \6\ Edwards, Bernard, Blood and Bushido: Japanese Atrocities At 
Sea, 1941-1945. Note: Only an excerpt--Chapter 13--of this book was 
provided to me by a retired merchant seaman, without publication 
information or page numbers. This chapter describes the tragedy of the 
SS Jean Nicolet. I also interviewed another merchant seamen who was one 
of the survivors of the Jean Nicolet, William B. (``Bill'') Flury.
---------------------------------------------------------------------------
    There are countless stories of Merchant Marine heroism and 
patriotism--too many to tell in the time I have been allotted. Thank 
you for listening to my plea for justice. These men and their families 
deserve far more than we have given them. We would not be a free nation 
today if the U.S. Merchant Marine had not sacrificed so much on our 
behalf.

                                 ______
                                 

             ADDITIONAL WRITTEN TESTIMONY OF BRIAN HERBERT

    I am enclosing edited excerpts from my book, The Forgotten Heroes, 
to illuminate the terrible dangers faced by the U.S. Merchant Marine 
during World War II, and how these brave seamen directly aided Allied 
military forces. Note: This document is based upon the electronic 
version of the text that I submitted to the publisher, and it differs 
slightly from the finished book, which was copyedited by the publisher. 
The basic evidentiary information, however, matches. For complete 
footnotes and other source information, please refer to the published 
book. In addition, the book contains photographs of torpedoed merchant 
ships and evidence of merchant ships carrying troops and war materiel. 
The Forgotten Heroes was published by Forge Books/Tom Doherty 
Associates, New York, 2004 by Brian Herbert. ISBN: 0-765-30706-5 
(hardcover) and 0-765-30707-3 (paperback).
WAR CRIMES COMMITTED AGAINST MERCHANT SEAMEN DURING WW II (Edited 
        excerpts from Chapter 5 of The Forgotten Heroes, pp. 54-63):
    The unarmed freighter SS David H. Atwater was shelled by a German 
U-boat on April 2, 1942, causing it to sink off the coast of Virginia. 
The crew was not given any chance to abandon ship, and when they tried 
to do so, their lifeboats were riddled by machine gun fire. Only three 
out of twenty-eight crew members survived.\1\
    Another unarmed ship, the converted tanker SS Carrabulle, was 
heavily shelled by a U-boat on May 26, 1942, in the Gulf of Mexico. 
Almost the entire crew escaped in two lifeboats. Then the submarine 
drew close to them, and the German captain asked if all hands had 
abandoned ship. The crew answered no. The officer then laughed and 
fired a torpedo at the SS Carrabulle. The explosion sank the ship and 
blew up one of the lifeboats, killing 22 of 24 men aboard.\2\
    . . . A German submarine torpedoed the Greek freighter Peleus near 
Liberia. Two survivors were taken aboard the sub for questioning and 
then returned to their raft, after removing their life jackets. The 
commander of the submarine, Kapitanleutnant Heinz Eck, ordered his men 
to throw hand grenades at all of the rafts and to riddle them with 
machine-gun fire. After the war, Eck was found guilty of committing a 
war crime and was executed by firing squad.\3\
    In 1943, two Allied merchant vessels, the SS Daisy Moller and the 
SS British Chivalry, were torpedoed in separate incidents by Japanese 
submarines in the Indian Ocean. When the crewmen tried to escape in 
lifeboats, the submarines rammed them and Japanese sailors machine-
gunned the occupants.
    A similar act of atrocity was committed the following year by 
Tatsunosuke Ariizumi, predatory commander of the Japanese submarine I-
8. After torpedoing the Dutch merchant ship Tjisalak just south of 
Colombo, Ceylon (Sri Lanka), he ordered the survivors to board his sub. 
The Japanese then stole the men's watches, rings, and other valuables, 
and tortured them, hitting them with a sledge hammer, beheading them 
with swords, and machine-gunning them. Ariizumi massacred 98 seamen.\4\
    . . . In 1944 there were at least three additional horrendous 
incidents of Japanese atrocities, all against Liberty ship crews. One 
involved the SS Richard Hovey, whose crew narrowly escaped the Japanese 
and survived 16 days in a lifeboat. When the merchant ship was sinking, 
the Japanese submarine surfaced, and men on the deck began firing 
machine guns and high velocity rifles at people in the lifeboats. The 
submarine drew closer and rammed one lifeboat, causing it to flip over. 
On the deck of the sub, Japanese men in khaki uniforms and caps laughed 
and shouted. One of them recorded the events with a motion picture 
camera. The Captain of the merchant ship, Hans Thorsen, was taken 
prisoner and died in captivity.\5\
    I spoke with a survivor from another 1944 atrocity, Peter 
Chelemedos. He had been a young Chief Mate on the SS John A. Johnson, 
en route from San Francisco to Honolulu with a cargo of food, 500-pound 
bombs, ammunition, trucks, and tractors. It was torpedoed in the middle 
of the night.
    . . . All members of the crew and military personnel aboard--70 
people in all--made it into lifeboats and onto rafts. Beneath a bright 
moon, the submarine surfaced, with a Japanese emblem on the side and 
the designation I-12. Laughing crew members appeared on the deck. They 
fired machine guns and pistols at survivors, shouting ``Banzai!'' 
whenever they hit the defenseless men.
    Terrified merchant seamen dove out of the boats and off the rafts 
into the water, but the submarine came close and rammed the lifeboats, 
crushing a man to death who was clinging to the side. Men tried to 
avoid being seen.
    . . . The submarine tore an Armed Guard gunner . . . named 
Christensen . . . to pieces in its propellers. Chelemedos recalled 
seeing the Japanese try to murder one of the stewards . . . by catching 
him in the screws as he hung onto the side of the lifeboat with other 
men. The man managed to escape, but one of Peter's friends, a young 
ship's carpenter, was not so fortunate, and fell under the murderous 
hail of bullets. The young man had recently been married, and had his 
whole life ahead of him. . . . Another survivor, Radio Officer Gordon 
Brown, had been on his first voyage at the time, and suffered severe 
mental anguish from the trauma of the experience, in which ten of his 
ship mates were murdered in cold blood. He was later killed in a 
kamikaze attack while on another merchant ship.\6\
    The worst (known) World War II atrocity against American merchant 
seamen occurred in the Indian Ocean. . . . The Liberty ship SS Jean 
Nicolet left San Pedro, California, carrying a military cargo of 
mooring pontoons and unassembled landing barges lashed onto the decks, 
and important war supplies in the cargo holds, including two landing 
craft.
    . . . At shortly after midnight on July 2, 1944, the ship was 
torpedoed and shelled by the Japanese submarine I-8. Fires broke out on 
the ship, and it listed so heavily--at least 35 degrees--that the 
captain feared it might capsize. All passengers and crew--100 people--
successfully abandoned ship in four lifeboats and two rafts. At this 
point only one man had a significant injury, a broken arm. Suddenly the 
men saw gun flashes in the night, and shells slammed into the SS Jean 
Nicolet, setting the ship on fire.
    Then a strong searchlight shone from that direction, and a 
submarine became visible, with Japanese men standing on the deck, 
dressed in khaki uniforms with red Imperial Navy markings on their 
shoulders. At gunpoint the survivors were ordered aboard the submarine 
by its commander, the notorious Captain Ariizumi who had massacred the 
crew of a Dutch ship earlier in the year.
    The first to be taken on board was the 17-year-old mess boy William 
M. Musser, who was shot in the head and kicked into the barracuda and 
shark-infested waters. The next victim was a 19-year-old ordinary 
seaman, Richard L. Kean. The other Americans had their hands tied 
tightly with cords or wire. . . . One man was hit in the face with a 
lead pipe, breaking his nose and knocking out his front teeth. Two of 
the bound men were washed overboard by a bow wave, and left to drown. 
In the middle of the night, others were forced to run a gauntlet on the 
deck of the submarine, where laughing, taunting Japanese beat them with 
clubs, stabbed them with swords and knives, and hooked them into the 
water with fixed bayonets, brutally murdering more than half of the 
captives.
    Just before dawn the following morning, 30 survivors were still on 
the deck of the submarine. Spotting an Allied plane--a Catalina--the 
Japanese guards disappeared into hatches, and then the captain crash-
dived the sub, drowning half of the people on deck. One of the 
surviving merchant seamen, Bill Flury (whom I interviewed), was on the 
deck of the submarine at the time. With his hands tied behind his back, 
the young man managed to tread water without a lifejacket, until one of 
his shipmates untied him. In the darkness, he heard the terrified 
screams of the men as sharks attacked them. He saw the burning Jean 
Nicolet sink and disappear. He swam all night, and was eventually 
rescued by a British submarine chaser.
    . . . Faced with a war crimes trial at the end of the armed 
conflict, Captain Ariizumi disappeared, and was believed to have either 
swum ashore at one of the Japanese ports or to have committed hara-
kiri.\7\
BRAVE ACTS OF MERCHANT SEAMEN DURING WW II (Edited excerpts from 
        Chapter 7 of The Forgotten Heroes, pp. 73-78):
    In 1942, the Liberty ship SS Virginia Dare shot down seven German 
planes in Convoy PQ-18 on the way to Murmansk, Russia. The proud crew 
painted seven swastikas on the smokestack of the ship, in honor of 
this, and received one of the few Gallant Ships awards of the war. In 
the same waters, the SS Bellingham won an argument with a German bomber 
by shooting it down.
    Early in 1945, near the end of the war, the Liberty ship SS Henry 
Bacon was returning from Murmansk in another convoy. The weather in 
that area was particularly harsh and unpredictable, and when it 
worsened suddenly, the ship fell out of the convoy. A short while 
later, a squadron of more than twenty German torpedo planes attacked 
the Liberty ship, firing at least two torpedoes apiece. Remarkably, 
none hit the mark, as the helmsman steered the ship expertly to avoid 
them. During the fierce battle, the naval gun crew shot down five 
planes before a torpedo finally hit the ship below the water line at 
the #5 cargo hold. The Henry Bacon went down, but not without a heroic 
fight.\2\
    I interviewed Alan H. Knox, who was on the Liberty ship W.W. 
McCracken when its gun crew shot down a Japanese ``Betty'' bomber off 
the coast of Australia. Mr. Knox, who was 86 years old when I spoke 
with him, described the battle in detail. . . .
    Thousands of other merchant seamen had stories to tell. . . . In 
1943, the Liberty ship SS Solomon Juneau shot down two German planes in 
the Mediterranean Sea, and assisted nearby ships in shooting down three 
more. In 1944, the MS Cape Romano was attacked by Japanese bombers. 
Suddenly a kamikaze plane streaked toward them, but the Armed Guard 
shot 20mm machine guns at it, hitting the pilot. The plane swerved and 
only hit the ship with a glancing blow on the port side that did not 
sink it. That same year, the SS John Evans was attacked by a Japanese 
plane, which strafed it with machine gun fire. The Armed Guard returned 
fire and killed the pilot. The plane hit the top mast and cargo booms 
before crashing into the water, but the ship was able to continue under 
its own power. Yet another event involved the SS Morrison R. Waite, 
which shot down a Japanese zero in the Philippines in November, 1944. 
Over the course of a 40-day period, the valiant crew of this ship went 
through no less than 135 air raid alerts.\3\
    A number of Armed Guard crews claimed to have sunk German U-boats 
or Japanese submarines. Among those with such stories were the men 
working in the gun tubs of the SS William H. Berg, the SS Liberator, 
the SS Frederick R. Kellogg, the SS Lihue, the SS Charles C. Pinckney, 
and the SS Edgar Allen Poe. At the end of the war, however, the United 
States Navy and the British Admiralty discounted all of their claims, 
saying that captured submarine logs and other records did not support 
them. . . .\4\
    The most legendary example of merchant seamen sinking a ship, a 
story that is well documented, concerned the SS Stephen Hopkins. . . . 
The vessel was in ballast, on the way to Dutch Guiana to pick up a load 
of bauxite ore for the American war industry. . . . On a rainy morning 
in September, 1942, the lookout saw two vessels emerge from a mist in 
the South Atlantic, heading directly toward them. Moments later the 
officers determined that they were German raiders, and a general alarm 
was sounded. The crew of one of the approaching vessels--the auxiliary 
cruiser Stier--was in the process of painting camouflage on the vessel 
when the raiders came upon what they thought would be a sitting duck. 
The auxiliary cruiser, which had six 5.9" guns, was accompanied by a 
supply ship, the Tannenfels. In another engagement, a sister ship of 
the Stier, the Kormoran, sank a first-line Australian warship, the 
cruiser Sydney.
    The Germans raised their battle flags, and at one thousand yards, 
they opened fire. One of their salvos hit a main boiler of the merchant 
ship, killing men in the engine room and slowing the vessel to a speed 
of only one knot.
    Navy Ensign Kenneth M. Willett ran aft toward the 4" gun, but 
shrapnel hit him in the stomach. He kept going, firing shells that were 
only a third as heavy as those of the Stier. He operated the gun until 
the magazine blew up, killing him. In the forward gun tub of the 
Stephen Hopkins, the Armed Guard sailors had been killed, so Second 
Mate Joseph E. Layman took their place at the 37mm gun, aided by mess 
boy Herbert Love, who passed shells to him. They were hitting the 
Stier, but then the Tannenfels fired, killing both merchant seamen.
    Seeing that the Stier was on fire and listing, Captain Paul Buck 
brought the Stephen Hopkins around, so that its aft gun could fire at 
it more directly. Having been hit in several places, the merchant ship 
was afire and sinking, but it still had some fight left. One of the 
civilian seamen aboard, engine cadet Edwin J. O'Hara (a Merchant Marine 
Academy Cadet-Midshipman) helped several injured Navy sailors to 
safety, then ran back to the aft gun, which was unmanned. He loaded one 
of the five remaining shells into the gun, fired it, and then fired 
another, and another, hitting the Stier repeatedly. Then both raiders 
opened fire on him with their bigger guns, killing him instantly.
    This brave young seaman was an undergraduate of the U.S. Merchant 
Marine Academy at Kings Point, New York. Because of the need for seamen 
to man these ships on an emergency basis, he had been pressed into 
service before receiving his degree.
    A short while after O'Hara died, the Stier sank, followed by the SS 
Stephen Hopkins, with its United States flag--the Stars and Stripes--
still flying. A lifeboat from the merchant ship made it away across 
misty, choppy seas, carrying 19 men. Captain Buck was seen on a life 
raft, but was never heard from again. Four of the men in the lifeboat 
died before it made the coast of Brazil a month days later, without the 
aid of navigation instruments or charts.
    Years afterward, Hans Grunert (one of the Tannenfels crewmen), told 
a German newspaper that they searched for American survivors in the 
rough seas, without success. Then he said, ``With our flag at half-mast 
we made a full circle around the spot where the Liberty ship had sunk, 
thus rendering the last honors to our brave adversary.'' The SS Stephen 
Hopkins subsequently received the Gallant Ship Award from the War 
Shipping Administration, one of the few merchant ships to receive such 
a high honor.\7\
    . . . American merchant seamen deserve much of the credit for 
sinking the German warship Stier. In addition, as I will discuss in 
Chapter 23, Cadet Edwin J. O'Hara should be awarded the Congressional 
Medal of Honor posthumously--an honor that has been denied to him by 
the armed forces officials in charge. . . .
AID PROVIDED BY MERCHANT SEAMEN TO ALLIED FORCES DURING WW II (Edited 
        excerpts from Chapter 11 of The Forgotten Heroes, pp. 106-121):
    (In every Allied invasion--including D-Day--the U.S. Merchant 
Marine played a vital supporting role. In The Forgotten Heroes, I 
devoted a chapter to Invasion Forces. The following excerpts are from a 
different chapter, pointing to lesser-known contributions of the U.S. 
Merchant Marine):
    The cargoes carried by United States merchant ships during the war 
show clearly how much the Allied nations and armed forces depended upon 
them. This is just a partial list of the essential cargoes hauled: 
Tanks, LCTs (landing craft tanks), field artillery pieces, munitions, 
jeeps, military trucks, ambulances, tires, fighter planes, airplane 
parts, PT boats, landing craft, locomotives, flat cars, box cars, 
bombs, ammunition, TNT, dynamite, gunpowder, torpedoes, various high 
explosives, poison gas (including mustard gas), gasoline, aviation gas, 
fuel, diesel oil, crude oil, kerosene, various refined petroleum 
products, lumber and other building materials, steel, heavy mechanized 
equipment, bulldozers, tractors, telegraph poles, tools, ball bearings, 
medical and first aid supplies, acid containers, chrome ore, asbestos, 
bauxite (the ore used to make aluminum for warplanes), bulk ammonia 
water, food stuffs (including millions of cans of Spam and K Rations), 
cigarettes, chewing gum, candy bars, soap, books, and U.S. Mail. They 
even carried homing pigeons for the Army Signal Corps and war brides. 
Sometimes the cargoes were so secret and essential to the war effort 
that they were kept in sealed containers, under 24-hour guard.\3\
    . . . Merchant vessels transported millions of American troops to 
war zones in the Pacific theater and across the Atlantic. In 1942 the 
Liberty ship SS Joseph Holt carried thousands of U.S. Army soldiers to 
Port Moresby in the Australian Trusteeship of New Guinea on an 
emergency rescue mission. . . .
    As described in Chapter 9, the U.S. Merchant Marine was sent on a 
number of highly successful rescue missions, some involving the fates 
of entire countries, such as England and Russia. Australia was one of 
the largest trophies for the merchant seamen of the United States, yet 
another little-known fact in the history of these forgotten heroes.
    The Merchant Marine carried enemy prisoners, too. The Liberty ship 
SS Benjamin Contee was transporting 1,800 Italian prisoners of war in 
August, 1943 when it was attacked by a German torpedo plane, off the 
coast of Algeria. . . .\5\
    During the war every U.S. Merchant Marine ship carried confidential 
military codes for communicating with military authorities and other 
merchant craft, documents that the officers were instructed to destroy 
if the vessel was imperiled. Some merchant ships, such as the freighter 
SS Malama, also carried ``ultra secret cargoes.'' \6\
    . . . Merchant seamen were even hit by ``friendly fire'' from 
Allied armed forces. That occurred at Bari, Italy on December 2, 1943, 
during a German air raid on merchant shipping in the harbor. Seamen on 
those vessels were killed when Allied shore batteries misdirected their 
fire and hit ships and men instead of the attacking aircraft.\8\
    In addition to the merchant seamen who died in the war, more than 
600 of them were taken prisoner by the Axis powers, and subjected to 
torture and forced labor. Conditions in the Japanese camps were 
particularly atrocious, since they never signed the Geneva Convention. 
. . .
    . . . On March 11, 1944, the crew of the SS Marion Crawford saved 
the lives of U.S. Army soldiers being transported on the ship, after an 
enemy artillery shell struck a hatch containing ammunition. An 
explosion and fire ensued, and more explosions were likely if the fire 
reached the rest of the ammunition. Faced with extreme danger, the 
merchant crew manned their fire stations and put out the blaze, 
enabling the soldiers to escape with their lives. . . .\14\
    Alan H. Knox related a story to me that occurred when he worked as 
Second Mate on the MS Cape Henry. Flying B-24 Liberators, the Royal Air 
Force had bombed German-controlled oil fields near the coast of Turkey. 
The bombers had to go in low for the mission, so a number of them were 
shot down by antiaircraft fire. The crew of the Cape Henry rescued 50 
or 60 British Royal Air Force flyers from life rafts in the 
Mediterranean and took them to the port of Famagusta on the neutral 
island of Cyprus.
    For the 1945 invasion of Okinawa by Allied forces, the SS Sharon 
Victory brought C-rations for the soldiers, and was in the process of 
unloading the containers when air raid sirens went off. Civilian seaman 
Marvin Ettinger ran to the machine gun on the flying bridge of the 
ship, where he was a loader. Japanese kamikaze planes were attacking, 
and at precisely the wrong moment the U.S. Navy gunner ``started to cry 
and he laid down at the bottom of the gun turret moaning. . . .'' The 
merchant seaman manned the gun himself, and survived to tell the 
story.\15\
    In another battle near the Philippine island of Leyte, the 
freighter SS Alcoa Pioneer was hit by a kamikaze plane. Eleven men were 
killed in the nighttime attack, including five members of the Navy 
Armed Guard. One of the merchant seamen who survived the episode, Carl 
E. Nelson, recalled the horrific aftermath: ``Among the twisted metal 
and debris of every kind including body parts of some of my shipmates, 
I searched, hoping to offer emergency aid to those who may have 
survived. One fellow, a good friend of mine, was lying on the deck 
groaning in pain, endeavoring to push part of his stomach back inside 
his abdomen, one of his severed legs laying on the deck beside him. He 
died in my arms in just a few minutes. Only two men who had been on 
that flying bridge survived, both of them seriously wounded.'' \16\
    On March 1, 1945, the SS Columbia Victory was approaching one of 
the western beaches of the island of Iwo Jima, to deliver ammunition to 
the Marine Corps headquarters there. As the cargo vessel neared the 
shore, however, two Japanese batteries opened fire, wounding a man on 
the aft deck--the fantail. Thousands of United States Marines were at 
the base and could have been killed in a huge explosion of the ammo 
carrier. Thinking quickly, the captain of the ship changed course and 
moved out of range.\17\
    . . . When the SS Timothy Pickering was bombed near Sicily in 1943, 
one of the merchant seamen, 2nd Mate George W. Alther, was killed when 
he helped a wounded naval gunnery officer.\20\ When the crew of the SS 
Jean Nicolet were subjected to torture by a crazed Japanese submarine 
captain in 1944 (see Chapter 5), seaman Harold R. Lee saved the life of 
a Navy Armed Guard sailor. . . .\21\
    Even when merchant seamen did not have a well thought out plan of 
battle, they demonstrated great courage and bravado. It happened early 
in the war when unarmed merchant ships went out with telephone poles 
set up on the fore and aft decks, rigged to look like guns. It also 
occurred aboard the Liberty ship SS Knute Nelsen, when the First 
Assistant Engineer talked about ramming an enemy submarine if they ever 
got the opportunity to do so. In addition, he recommended that the 
officers carry sidearms, so that they could leap from a lifeboat onto a 
surfaced submarine, gain entrance to the conning tower and kill the 
commander.\22\
    . . . The SS Cedar Mills . . . answered the distress call of a 
French destroyer in the Atlantic Ocean. . . . It was December, 1943, 
and a ferocious storm had left the Allied warship in a perilous 
situation, short of fuel and listing at a 45 degree angle. The 
endangered ship would have sunk, with all hands lost, if the SS Cedar 
Mills had not towed her a long way to safety, 5 days through bad 
weather and mountainous seas.\23\

                                 <F-dash>
            Prepared Statement of Bradley G. Mayes, Director
   Compensation and Pension Service, Veterans Benefits Administration
                  U.S. Department of Veterans Affairs
    Mr. Chairman and members of the Committee, I am pleased to be here 
today to provide the views of the Department of Veterans Affairs (VA) 
on the ``Belated Thank You to the Merchant Mariners of World War II Act 
of 2007,'' H.R. 23, 110th Congress. I am accompanied today by Mr. 
Thomas Pamperin, Deputy Director of the Compensation and Pension 
Service, and Mr. Richard Hipolit, Assistant General Counsel.
    Mr. Chairman, let me start out by recognizing the sacrifices made 
by members of the United States Merchant Marine Service (Merchant 
Mariners) during World War II and note that we currently treat these 
individuals as veterans by virtue of their service.
    With regard to H.R. 23, I note that Title 46 of the United States 
Code provides for the payment of burial benefits and interment in 
national cemeteries of certain former Merchant Mariners. H.R. 23 would 
amend title 46 to require VA to pay to certain Merchant Mariners the 
sum of $1,000 per month. This new benefit would be available to 
otherwise qualified Merchant Mariners who served between December 7, 
1941, and December 31, 1946, and who received honorable-service 
certificates. The surviving spouse of an eligible Merchant Mariner 
would be eligible to receive the same monthly payment provided that he 
or she had been married to the Merchant Mariner for at least 1 year 
prior to the Merchant Mariner's death.
    VA does not support enactment of this bill for several reasons. 
First, to the extent that H.R. 23 is intended to offer belated 
compensation to Merchant Mariners for their service during World War 
II, we note that many Merchant Mariners and their survivors are already 
eligible for veterans' benefits based on such service. Pursuant to 
authority granted by section 401 of the ``GI Bill Improvement Act of 
1977,'' Public Law 95-202, the Secretary of Defense in 1988 certified 
Merchant Mariner service in the oceangoing service between December 7, 
1941, and August 15, 1945, as active military service for VA benefit 
purposes. As a result, these Merchant Mariners are eligible for the 
same benefits as other veterans of active service. This bill appears to 
contemplate concurrent eligibility with benefits Merchant Mariners may 
already be receiving from VA--a special privilege that is not available 
to other veterans. Further, to the extent that Merchant Mariners may be 
distinguished from other veterans due to the belated recognition of 
their service, we note that there are myriad other groups, listed at 38 
C.F.R.  3.7(x), that could claim to have been similarly disadvantaged.
    Second, there can be no doubt that Merchant Mariners were exposed 
to many of the same rigors and risks of service as those confronted by 
members of the Navy and the Coast Guard during World War II. However, 
the universal nature of the benefit that would be provided under H.R. 
23 for individuals with qualifying service and the amount of the 
benefit that would be payable are difficult to reconcile with the 
benefits VA currently pays to other veterans. H.R. 23 would create what 
is essentially a service pension for a particular class of individuals 
based on no eligibility requirement other than a valid certificate of 
qualifying service from the Secretary of Transportation or the 
Secretary of Defense. Further, this bill would authorize the payment of 
a greater benefit to a Merchant Mariner, simply based on qualifying 
service, than a veteran currently receives for a service-connected 
disability rated as 60-percent disabling. As the same amount would be 
paid to surviving spouses under this proposal, there would be a similar 
disparity in favor of this benefit in comparison to the basic rate of 
dependency and indemnity compensation for surviving spouses as provided 
under chapter 13 of title 38.
    Mr. Chairman, you requested our views on two alternative proposals 
to provide the monthly $1,000 payment or a one-time lump-sum payment of 
$20,000 to living Merchant Mariners only. Although those proposals 
would lessen the costs of the legislation, they would generate many of 
the same inequities as H.R. 23 by according Merchant Mariners 
significant preferential treatment not provided to other veterans.
    VA estimates that enactment of H.R. 23 as introduced would result 
in a total additional benefit cost of approximately $234.1 million in 
the first fiscal year and an additional benefit cost of $1.4 billion 
over 10 years. We estimate the benefit cost of a bill covering living 
mariners only to be $163.4 million during the first year and $790.3 
million over 10 years. We estimate the cost of providing a one-time 
lump sum payment to living merchant mariners in fiscal year 2008 to be 
$272.4 million. We also estimate that additional administrative costs 
associated with the need for more employees to process claims for the 
new monetary benefit would be $893,000 during the first fiscal year and 
$6 million over 10 years.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or the other members of the Committee may 
have.

                                 <F-dash>
                       SUBMISSIONS FOR THE RECORD

                                                     April 18, 2007
The Honorable Bob Filner
Chairman
House Veterans Affairs Committee
335 Cannon House Office Building
Washington, DC 20515

    Dear Mr. Chairman:

    We are writing on behalf of the undersigned American maritime labor 
organizations to express our strong support for H.R. 23, the ``Belated 
Thank You to the Merchant Mariners of World War II Act of 2007'' and to 
urge your Committee to favorably report this legislation. The 
organizations we represent have the privilege of including among our 
retired and active seagoing members individuals who served our country 
with honor and distinction during World War II, and their descendents. 
These World War II merchant mariners are truly representative of the 
``Greatest Generation'', and we are extremely proud of them and the 
example they have set for all merchant mariners who continue to respond 
to our Nation's call whenever and wherever they are needed.
    General Colin Powell, following the Persian gulf war, said that: 
``Since I became Chairman of the Joint Chiefs of Staff, I have come to 
appreciate first-hand why our Merchant Marine has long been called our 
Nation's fourth arm of defense. The American seafarer provides an 
essential service to the well-being of our Nation as was demonstrated 
so clearly during Operation Desert Shield and Desert Storm. . . .''
    We agree wholeheartedly with you that the enactment of H.R. 23 is 
necessary ``to correct an injustice that has been inflicted upon a 
group of World War II veterans, the World War II United States merchant 
mariners.'' We sincerely thank you, Mr. Chairman, for your initiative 
in working to address this injustice by sponsoring legislation to 
provide long-overdue recognition and benefits to World War II merchant 
mariners. We are also grateful to your colleagues who have cosponsored 
H.R. 23 and for their decision to add their names to the bipartisan 
supporters who are committed to working with you and with us for the 
enactment of H.R. 23 this year.
    There is not, nor should there be, any debate as to the invaluable 
service given by American merchant mariners during World War II. In 
fact, World War II merchant mariners suffered the highest casualty rate 
of any of the branches of the Armed Forces, other than the United 
States Marine Corps, as they delivered troops, tanks, food, fuel and 
other needed equipment and material to every theater of World War II. 
Enemy forces sank more than 800 merchant vessels between 1941 and 1944 
alone.
    As General of the Army, Allied Expeditionary Forces in Europe, 
Dwight David Eisenhower stated, ``When final victory is ours there is 
no organization that will share its credit more deservedly than the 
Merchant Marine.'' Fleet Admiral Chester W. Nimitz, Commander-in-Chief, 
Pacific Theater, said that ``The Merchant Marine . . . has repeatedly 
proved its right to be considered as an integral part of our fighting 
team.''
    General of the Army Douglas MacArthur, speaking of the merchant 
seamen who supported the liberation of the Philippines, stated that 
``With us they have shared the heaviest enemy fire. On these Islands I 
have ordered them off their ships and into foxholes when their ships 
became untenable targets of attack. At our side they have suffered in 
bloodshed and death. . . . They have contributed tremendously to our 
success. I hold no branch in higher esteem than the Merchant Marine 
Service.''
    Finally, President Franklin Roosevelt eloquently and accurately 
summed up the contributions of America's World War II merchant 
mariners, telling the country and the world that they ``have written 
one of its most brilliant chapters. They have delivered the goods when 
and where needed in every theater of operations and across every ocean 
in the biggest, the most difficult and most dangerous job ever taken.''
    Yet despite this record of exemplary, indispensable service to 
America's war efforts, merchant mariners were not given the formal 
recognition and benefits granted other services by the Congress through 
the GI Bill of Rights in 1945. In fact, no legislation to recognize the 
contributions made by World War II merchant mariners was enacted until 
Congress extended limited veterans' status to these gallant American 
citizens in 1988.
    We believe, as you have stated Mr. Chairman, that it is time to 
correct this injustice. We believe our country has an obligation to the 
remaining World War II merchant mariners, and to the descendents of 
those who died during the War and since, to fully acknowledge their 
service and to give them the measure of benefit called for in H.R. 23. 
We ask you and your Committee to take the first step in righting this 
wrong by favorably reporting H.R. 23 to the House of Representatives 
for its consideration.
    We again thank you and the members of your Committee for the 
support you have shown for the World War II merchant mariners. We ask 
that our statement be included in the Committee's hearing record on 
H.R. 23 and we stand ready to provide whatever additional information 
you may need.

            Sincerely,

  Thomas Bethel, President, American Maritime Officers; Timothy A. 
  Brown, President, International Organization of Masters, Mates & 
        Pilots; Ron Davis, President, Marine Engineers' Beneficial 
    Association; Michael Sacco, President, Seafarers International 
                                                              Union

                                 <F-dash>
               Statement of Tamara Horodysky, Webmistress
                    American Merchant Marine at War
    I am webmistress of American Merchant Marine at War, www.usmm.org, 
online since March 1998. I research the accomplishments and sacrifices 
of mariners since 1775, with particular focus on World War II. My 
husband served in the Merchant Marine and Army Transport Service during 
World War II, and with the Military Sea Transportation Service during 
the Vietnam War.
    H.R. 23 ``Belated Thank You to the Merchant Mariners of World War 
II Act of 2007,'' deservedly provides $1,000 per month to WWII mariners 
(average age 83) or their widows, in lieu of benefits not received 
after World War II.
Praise from President and Military Leaders--

President Franklin D. Roosevelt:

        ``. . . the entire country joins me . . . in paying tribute to 
        you men of the Merchant Marine who are so gallantly working and 
        fighting side by side with our Army and Navy . . .''

Dwight D. Eisenhower, General of the Army:

        ``The truly heroic man of this war is GI Joe and his 
        counterpart of the Air, Navy, and Merchant Marine.''

Douglas MacArthur, General of the Army:

        ``I wish to commend to you the valor of the merchant seamen 
        participating with us in the liberation of the Philippines. 
        With us they have shared the heaviest enemy fire. On this 
        island I have ordered them off their ships and into fox holes 
        when their ships became untenable targets of attack. At our 
        side they have suffered in bloodshed and in death . . . I hold 
        no branch in higher esteem than the Merchant Marine.''

Fleet Admiral Chester W. Nimitz, U.S. Navy, Chief of Naval Operations:

        ``The Merchant Marine Service has repeatedly proved its right 
        to be considered as an integral part of our fighting team.''
Mariners: First to Go, Last to Return, Highest Casualty Rate
    American merchant ships got their first taste of war in October 
1939, with the capture of the unarmed SS City of Flint by a German 
pocket battleship. This was the only ship to fall into enemy hands 
intact. The first mariner war casualty died Nov. 1940, when his ship 
struck a mine. The last mariner death was recorded in March 1947, again 
due to a mine. Mariners faced danger from the enemy as soon as they 
left a U.S. port.
    Mariners from SS Connecticut were in the Bataan Death March. 
Mariners from Justine Foss were executed on Wake Island or worked in 
Japanese coal mines. Mariners from the SS Sawokla slaved on the River 
Kwai Railroad. Mariners on the SS Jean Nicolet were forced from their 
lifeboats onto the deck of a Japanese submarine, and with hands tied, 
forced to run a gauntlet of clubs and machetes. The sub submerged with 
men on deck.
    Cadet-Midshipman Edwin O'Hara fired the coup-de-gras that sank the 
auxiliary cruiser Stier, the only German surface warship sunk by an 
American ship. O'Hara and Paul Buck, Master of the Stephen Hopkins, 
were among those who went down with the ship.
    Mariners took part in every invasion. They carried troops, 
ammunition, fuel, tanks, landing craft, airplanes--and everything else 
needed to establish and maintain an amphibious invasion.
    For example, mariner-crewed Cape Stevens took part in the invasion 
of Gilbert Islands, Kwajalein, Eniwetok, Saipan, southern Palau 
Islands, and Iwo Jima. Liberty ship Tabitha Brown brought in supplies 
for the landings in Sicily, Salerno, Anzio, and Southern France.
    During the invasion of Normandy there were 200 mariner-crewed cargo 
ships, each carrying 480 men and 120 army vehicles; 33 blockships 
deliberately sunk to create an artificial harbor; 10 troopships 
carrying up to 2,600 troops; and 28 tugs.

1.  Fairness, not cost is the issue!
    Mariners were denied a free college education, low-cost business 
loans, priority for jobs, one-year unemployment insurance, free medical 
care, etc. Mariners--and their families--suffered financial 
repercussions all their lives.
    The average age of World War II mariners is 83, and since the 
average male lifespan is 72, the estimated $36 million cost per year 
would decrease extremely rapidly! After a computer with personal 
information was stolen in 2006, Veteran Affairs had no difficulty in 
finding $26 million dollars to notify veterans and to deal with 
potential credit problems.
    According to a government audit, between 1997 and 2003, the Defense 
Department purchased and left unused 270,000 fully refundable 
commercial airline tickets wasting $100 million.

2.  The precedent . . . would likely result in additional spending . . 
. (referring to the other 33 groups who received Veteran Status)
    While signing the GI Bill on June 22, 1944, President Roosevelt 
stated:

        ``I trust Congress will soon provide similar opportunities to 
        members of the merchant marine who have risked their lives time 
        and time again during war for the welfare of their country.''
    Roosevelt did not say ``and Women Air Service Pilots (WASPs), 
civilian airline employees, etc.'' In May 1944, Congress called the 
WASP program ``unnecessary and undesirable'' and had them disbanded. Of 
the 1,830 women who enrolled, 1,074 graduated, and 39 died in 
accidents.
    Statistics on the total number of WWII mariners vary, but 250,000 
is a common figure. Approx. 8,400 mariners were killed on American-
owned ships due to torpedoes, bombs, mines, kamikazes, collisions in 
convoy, or grounding in uncharted waters. Another 1,100 died later of 
their wounds, according to testimony before Congress. 35,000 mariners 
were repatriated because their ships were sunk, thus 1 in 8 mariners 
lost their ships. 114,000 men and women received the Combat Bar, 
signifying enemy attack.
    The Merchant Marine seal is prominent on the World War II Memorial, 
equal to those of the Army, Navy, Marine Corps, Army Air Forces, and 
Coast Guard. 595 mariners are buried or commemorated in American Battle 
Monuments Commission National Cemeteries overseas.
    According to international law, mariners lost their civilian status 
when they manned offensive weapons. A typical merchant ship had a 4-
inch cannon forward, 5-inch aft, and 10 anti-aircraft guns. During 
General Quarters, mariners who were off watch were assigned battle 
stations as gunners, loaders or ammunition passers.
    Instructions to Masters from the Secretary of the Navy, Frank 
Knox----

    (Op-23L-JH (SC) S76-3 Serial 097923) March 30, 1942:

        ``It is the policy of the United States Government that no U.S. 
        Flag merchant ship be permitted to fall into the hands of the 
        enemy. . . . The ship shall be defended by her armament, by 
        maneuver, and by every available means as long as possible.''

    War Shipping Administration, Operations Regulation No. 35:

        ``It is the desire of the Navy Department to instruct and train 
        the officers and men of the merchant crew in all matters 
        pertaining to gunnery and defense of their vessels.''

3.  Comparison with Medal of Honor
    Some legislators compare the proposed $1,000 per month benefit to 
the payment received by those awarded the Medal of Honor. Mariners are 
not trying to equate their service to these great heroes, but chose an 
arbitrary sum to help make up for the injustice they suffered.
    According to Congressman Filner, the current value of benefits 
received by all other Veterans of World War II is $1 million dollars 
per veteran. $1,000 per month paid to 83-year-olds is an absolute 
bargain!
    It is ludicrous for some legislators to claim that receiving ``full 
veteran benefits from VA'' in 1988, is equivalent to the GI Bill 
granted other veterans in 1944.

4.  Mariners were subject to military justice and received military 
medals.
    The Uniform Code of Military Justice states, ``. . . persons 
subject to this chapter: In times of war, persons serving with or 
accompanying an armed force in the field.'' In 1942, Fleet Admiral 
Ernest J. King, the Chief of Naval Operations, directed that Naval 
discipline and control was to be exercised against Merchant Marine 
crews while in all theaters of war.
    General Eisenhower, asked for and received permission from 
President Roosevelt, to award military medals to men of the Merchant 
Marine. Mariners were awarded: Navy Cross, Distinguished Service Medal, 
Silver Star, Bronze Star, Navy Marine Corps Medal, Purple Heart.

5.  Mariners were not employees of private shipping companies.
    War Shipping Administration was established by President Roosevelt, 
Executive Order No. 9054. February 7, 1942.

        ``Control the operation, purchase, charter, requisition. and 
        use of all ocean vessels under the flag or control of the 
        United States,

        ``Allocate vessels under the flag or control of the United 
        States for use by the Army, Navy, other Federal departments and 
        governments of the United Nations . . . In allocating the use 
        of such vessels, the Administrator shall comply with strategic 
        military requirements.''

    According to testimony offered in Schumacher v. Aldridge (the court 
decision which led to veteran status for mariners), military 
authorities controlled the duration of the voyage, the assignment of 
routes, the destinations, including military invasions, the position in 
convoy, convoy procedures, shore leave in a war theater, and when to 
engage the enemy. The shipping company responsibilities extended only 
to necessary arrangements while in port for repairs, supplies, and 
longshoremen.
    The following letter assigning Capt. Matt Drag to a ship is signed:

        ``Very truly yours, United States of America, War Shipping 
        Administration, by International Freighting Corp., Agent.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
6.  Mariners could NOT choose voyages and quit at any time.
    During World War II, Masters of ships were given sealed orders, 
which they opened only after leaving port, thus mariners could not 
possibly choose voyages. Only U.S. Navy, U.S. Army, or Allied port 
officials knew their route and destination. If the cargo had Cyrillic 
lettering and they were issued fur mittens, they could guess their 
destination was Murmansk.
    Mariners could ``choose their voyages'' only by shipping from a 
different port. If they sailed from San Francisco, the main west coast 
port, they were certain to go to the South Pacific or Alaska. On the 
other hand, if they sailed from Boston or New York, they would go to 
Great Britain, Murmansk in northern Russia, the Caribbean, Brazil, 
Chile, or the Red Sea. If they shipped from Newport News they usually 
went to North Africa or the Mediterranean. The chart below shows this 
was no choice at all.
Merchant Marine ships sunk or damaged by region

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Cadet-Midshipman William Jopes was assigned to the tanker Yamhill 
as part of his required six months sea service. He went aboard in 
Portland, Oregon in late Nov. 1943, and arrived in Baltimore in late 
August 1944.
    The tanker was assigned to the British War Ministry to shuttle fuel 
from the Persian Gulf to India and Australia. During one of their 
passages through the Indian Ocean, Yamhill battled a Japanese submarine 
for 12 hours and refueled the aircraft carrier USS Saratoga. After the 
war, a WWII carrier pilot wrote Jopes:
    ``We carrier pilots somehow received most of the glory and good 
press, however, without the fuel, ammunition and supplies aboard the 
merchant marine, none of us would have made it off the flight deck.''
    The tanker Sylvan Arrow was torpedoed in the Caribbean on May 20, 
1942; survivors were torpedoed again on June 10 while being repatriated 
to the U.S., and torpedoed on a third ship on June 14.
    During World War II, men with experience at sea were forbidden to 
work in shipyards or to use State Employment offices. During an 8-month 
period 1943-44, 600 men with sea experience were released from the Army 
and required to return to sea.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


7.  Many young men and boys thought they were joining a branch of the 
Armed Forces.
    The War Shipping Administration recruited 16- and 17-year-old boys 
to ``Join the Fighting Men of the Merchant Marine.''
    Other young men and boys went to a U.S. Navy Recruiting office, 
were told to ``sit there.'' Later, a uniformed man walked in, asked, 
``Do you have any more for me?'' That's how they the enlisted in the 
U.S. Maritime Service, the training arm of the War Shipping 
Administration.
    Their instructors at boot camp wore U.S. Navy and Coast Guard 
uniforms. Their own uniforms and dog tags looked just like those of the 
Navy. They learned gunnery. When they went off-base, they saluted all 
Army or Navy officers. They thought they were in the military!

8.  Mariners Pay Equal to Army or Navy
    Navy personnel were exempt from income taxes, while merchant 
mariners paid income taxes and ``Victory'' taxes. Every man serving 
aboard a merchant vessel, with the possible exception of the master and 
chief engineer, could earn more money ashore in a shipyard or defense 
plant without taking the chance of being killed by bombs or torpedoes.
    Their Navy Armed Guard shipmates had medical care for themselves 
and their dependents. Mariners got a maximum of 60 days medical care in 
a Public Health hospital. No benefits for dependents.
    The following study was done by the War Shipping Administration in 
1943, before the additional benefits provided by the GI Bill.

                        Annual income after taxes
------------------------------------------------------------------------
                                                    Navy       Mariner
------------------------------------------------------------------------
Seaman first class vs. Ordinary seaman               $1,886       $1,897
------------------------------------------------------------------------
Petty officer second class vs. Able seaman            2,308        2,132
------------------------------------------------------------------------



                                Benefits
------------------------------------------------------------------------
                                                 Navy          Mariner
------------------------------------------------------------------------
Cash value permanent disability, mariner                          $6,290
------------------------------------------------------------------------
Cash value partial disability, Navy                 $11,500
 personnel
------------------------------------------------------------------------
Death benefit, mariner                                             5,000
------------------------------------------------------------------------
Death benefit, Navy petty officer third                 468
 class
------------------------------------------------------------------------
Cash value, mariner widow's pension                                    0
------------------------------------------------------------------------
Cash value, Navy widow's pension              15,350-27,000
------------------------------------------------------------------------


9.  Bill would grant veteran's benefit to individuals who are not 
veterans.
    Mariners who served between August 16, 1945, and December 31, 1946 
became veterans with the passage of the Merchant Marine Fairness Act of 
1998.

                                 <F-dash>
   Statement of Kimo S. Hollingsworth, National Legislative Director
                       American Veterans (AMVETS)
    Mr. Chairman, and members of the Committee, thank you for allowing 
American Veterans (AMVETS) the opportunity to present our views on H.R. 
23, the Belated Thank You to the Merchant Mariners of World War II Act. 
AMVETS applauds this Committee and its effort to pursue legislative 
initiatives for veterans to obtain the services and benefits they 
richly deserve.
    In 1977, Public Law 95-202 provided authorization for certain 
civilian groups to be classified as veterans for purposes of being 
eligible for Federal veterans benefits, and on January 19, 1988, the 
Secretary of the Air Force declared certain Merchant Marine service as 
qualifying for veterans' benefits. Merchant seamen who served in active 
oceangoing service from December 7, 1941 to August 15, 1945 are 
considered to be veterans. Also eligible are Civil Service crewmembers 
serving aboard U.S. Army Transport Service and Naval Transportation 
Service vessels in oceangoing service.
    Public Law 105-368, the Veterans Programs Enhancement Act of 1998, 
amended Title 46, United States Code, by adding chapter 112, which 
provides that the ``qualified service'' of certain merchant mariners 
between August 16, 1945, and December 31, 1946, would be deemed active 
duty service for purposes of benefits eligibility under chapters 23 
(Burial Benefits) and 24 (National Cemeteries and Memorials) of Title 
38, United States Code. Depending on the type of merchant marine 
service, certification of ``qualified service'' must come from the 
Department of Transportation or the Department of Defense.
    Basic eligibility has thus been extended to covered merchant 
mariners for the following benefits: burial flags, burial allowance for 
certain indigent wartime veterans, plot allowance payable to a State 
for burial in certain ``state owned'' cemeteries or cemetery sections, 
headstones and markers, internment in national cemeteries, markers in 
memorial areas of national cemeteries, and markers in memorial areas of 
Arlington National Cemetery. In general, benefits may be provided only 
for deaths occurring after November 11, 1998.
    H.R. 23 would provide a $1,000 monthly payment, tax free, to the 
10,000 surviving Merchant Mariners of World War II, or their widows. If 
implemented, this legislation would cost $120 million for the first 
year, and approximately $20 million in subsequent years. VA estimates 
that enactment of the legislation would cost approximately $1.43 
billion over a 5-year period, which is exactly why we want to take a 
deeper look at the effects of the bill. VA estimates that enactment of 
the legislation would cost approximately $1.43 billion over a 5-year 
period.
    The Merchant Mariners were a small, but critical component to the 
Allies' efforts in World War II. They transported troops, ammunition, 
food, gas, and other supplies that were necessary to win the war. It is 
estimated that as many as 800 merchant marine ships were sunk by enemy 
forces. AMVETS certainly recognizes the sacrifices that these brave men 
made in service to the nation during World War II, and we have a 
resolution that supports this bill. We do, however, have serious 
concerns about the cost of this bill and how it would impair VA's 
ability to provide the benefits it already manages. Provided Congress 
decides to act on this legislation, it would also need to identify 
millions of dollars in offsets. AMVETS would be strongly opposed to 
Congress seeking spending offsets from existing Department of Veterans 
Affairs accounts. Mr. Chairman, this concludes my testimony.

                                 <F-dash>
               Statement of Dean Beaumont, Scottsdale, AZ
    As written testimony before the House Veterans Affairs Committee 
hearings on House Bill H.R. 23 ``A Belated Thank You to the Merchant 
Mariners of World War II Act of 2007,'' I would like to submit the 
following:
SOME OF MY WW II MERCHANT MARINE PERSONAL EXPERIENCES:
    In 1942 I volunteered for service in the Navy, but because of my 
asthma, I was turned down. This hurt, because most of my buddies at 
Occidental College were accepted in the Navy. (All those who joined got 
the GI Bill, even some who never went to sea.) Immediately after being 
turned down by the Navy I had joined the Merchant Marines through the 
help of my father who knew the owner of the American Mail Lines as they 
needed officers for their many ships. Because of my background as an 
Eagle Scout and 6 years as a student in the Military Academy, I was 
accepted as an officer in the Merchant Marines. Two weeks later I was 
proud to be serving my country on a Liberty ship, the SS Brander 
Matthews, heading for Saipan. I was the youngest officer at the age of 
18 in the Merchant Marines. At the end of the war, I was depressed and 
very disappointed that I was denied the GI Bill which would have helped 
me pay for college, housing, and so forth. I was even more upset when I 
saw that some of my friends, who never served on a ship or never were 
in any danger because of the war, got the GI Bill.
    These were the ships on which I served during WW II:

        <bullet>  SS Samuel Parker which received the Gallant Ship 
        Award by President Roosevelt for taking 300 tanks from America 
        to Africa to help get General Rommel out of Africa during which 
        time the ship shot down 2 German dive bombers.
        <bullet>  SS Brander Matthews which left Pearl Harbor with 500 
        torpedoes and a shipload of ammunition. We traveled under 
        Australia to avoid Japanese submarines. We heard that a 
        Merchant Marine ship one day ahead of us was sunk by a Japanese 
        submarine whereupon the Japanese then rescued 42 Americans. 
        However, only one American Merchant Mariner of those 42 rescued 
        prisoners aboard the Japanese submarine was subsequently 
        rescued by an American Navy destroyer the next day. His story, 
        as told to the Captain of this American destroyer, was that one 
        by one each rescued Merchant Mariner from his ship had his head 
        chopped off by a Japanese Samurai Sword prompting this Merchant 
        Mariner to jump into the sea and hide under the submarine. It 
        could have been our ship. We all felt we had a close call.
        <bullet>  Again on the SS Brander Matthews, we hit a tremendous 
        typhoon in the Mozambique Channel off Africa. The ship was 
        listing 34 degrees with much damage to the ship when our jumbo 
        boom block broke loose repeatedly smashing the decks. Fearing 
        we would sink, we sent men out on deck with ropes to lasso the 
        block. Those brave men saved the ship. Again a close call, but 
        I dismissed the fear by thinking that I was proud to be serving 
        my country.
        <bullet>  In 1944 I was in the 21st General Hospital in Bari, 
        Italy due to ``battle fatigue.'' There were four U.S. Merchant 
        Marine ammunition ships in the harbor near us. I remember 
        thinking, ``These ships might be attacked and we would all 
        die.'' The day after I left Italy, the Germans bombed that 
        harbor blowing up the 4 ammunition ships. One of those 4 ships 
        was carrying chlorine gas and some 2,500 people were killed.
        <bullet>  Again on a tanker, the SS Elk Basin, carrying a large 
        dangerous cargo of gasoline to the Philippines, we were all 
        apprehensive sensing danger. No one was allowed to even smoke. 
        This experience again caused me great distress and anxiety.

    Considering it all, these were only a few of the many events that 
caused me great distress. Then to come home and find out that Merchant 
Mariners alone were singled out to be denied our proper recognition as 
heroes. We were the Forgotten Heroes of WW II. On top of that I had to 
face my buddies, who never even went to serve in the war, and yet did 
get the GI Bill which I and some 220,000 others in the Merchant Marines 
were denied. Our brave Merchant Mariners suffered the highest casualty 
rate in WW II with the Marine Corps a close second.
    Please. Let's finally honor all these brave men, now near the end 
of their lives, by voting to pass this bill.
    Thank you for your consideration, Dean Beaumont.

    P.S. There are many more stories in the book titled ``THE FORGOTTEN 
HEROES: THE HEROIC STORY OF THE UNITED STATES MERCHANT MARINE'' by 
Brian Herbert published in 2004.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
                Statement of the Honorable Corrine Brown
         a Representative in Congress from the State of Florida
    Thank you Mr. Chairman.
    I want to thank Chairman Filner for fighting for the rights of the 
Merchant Mariners.
    I am reminded of the words of the first President of the United 
States, George Washington, whose words are worth repeating at this 
time:
    ``The willingness with which our young people are likely to serve 
in any war, no matter how justified, shall be directly proportional as 
to how they perceive the veterans of earlier wars were treated and 
appreciated by their country.''
    The Merchant Mariners of WWII, a volunteer, civilian military 
corps, served honorably in combat during WWII, but were denied any 
veterans benefits or recognition at the end of battle despite 
sustaining tremendous casualties amongst its ranks.
    This branch, the first Navy of the United States, has served in 
peace and in every war since 1775.
    I am pleased the many, many Merchant Mariners who have called my 
office over the past few years are getting the recognition they 
deserve.
    I look forward to hearing the testimony of the witnesses here today 
and am pleased to support this legislation.
    I urge the Committee to forward this bill to the floor as soon as 
possible.

                                 <F-dash>
              Statement of Joseph Chomsky, East Meadow, NY
    On May 27, 1941, well before the attack on Pearl Harbor that 
brought this nation officially into World War II as an active 
combatant, the President, with the approval of Congress, declared an 
``UNLIMITED NATIONAL EMERGENCY'', effectively putting this nation on a 
``WAR'' basis. On April 19, 1942--65 years ago, tomorrow--the 
President, again with the approval of Congress, took ``complete and 
absolute'' control of this nation's Maritime Industry, its ships, 
shipyards, docks and--most importantly--its seamen. Under these orders, 
the mariners already employed on American ``Merchant Ships'' became 
part of the ``armed forces of this nation'' under longstanding 
International Law.
    The control of our ships was turned over to the United States Navy, 
with guns and gunners, provided by the Navy, placed on our ships. The 
Merchant Seamen were ordered by our President and the Congress to take 
an active part in the defense of our ships.
    Under orders authorized by the President, those ships were 
repainted to hide their identities as Merchant Ships and were then 
identifiable as U.S. Navy warships. These ships and their crews, along 
with the thousands of ships being built by our government, and the new 
crews recruited, trained and assigned to these ships by U.S. Government 
agencies to carry wartime cargoes, performed honorably, and with 
distinction, in support of this nation and other Allied nations in that 
war.
    Many American Merchant Mariners sailed the ships that delivered the 
war cargoes to our friends and Allies. Some served under ``flags of 
convenience''; many, secretly, under flags of ships chartered to our 
Navy and Army to hide from the public our Nation's involvement in the 
war at that early time. Most of these seamen have since died, in some 
cases leaving their dependents destitute.
    Soon came the assault on our ships and the slaughter of our seamen, 
known to the Nazi German Navy as the beginning of ``the Happy Time'' 
when wholesale sinking of our ships began. Not all of those brave young 
men survived to continue sailing after Pearl Harbor, but their widows, 
children and other next of kin deserved--and deserve--recognition and 
compensation as much as anyone who came later to the defense of our 
Nation. Belatedly, this bill offers some recognition and some 
compensation to a limited number of surviving merchant seamen and their 
widows.
    In 1943, I was an 18-year-old Cadet Midshipman in the United States 
Maritime Service. As part of my ``training,'' I took part in three 
invasions, in Italy, Sardinia and France, as well as several ocean 
crossings exposed to enemy attack by U-boats, enemy aircraft and armed 
raiders.
    In 1945, when the war was winding down, we were told that we would 
still be needed to bring home the troops, resettle millions of 
displaced people and deliver necessities to our allies. We were not 
told that our government was giving away our rights to come home, 
continue our education or compete on a level playing field for our jobs 
or our places in society. Not until 1988 (pursuant to a Federal court 
order) would we be recognized as ``veterans''. Hence we received none 
of the significant benefits bestowed upon military veterans at the 
war's end.
    Our lengthy and dangerous service was not recognized by many local 
draft boards. Instead, we were threatened with being drafted into the 
Army for an indeterminate tour of occupation duty if we went home 
before being released officially. In my case, after more than 3 years 
of active wartime service in the Merchant Marine, I returned home to 
either attend college or find a job, but without the benefits of the GI 
Bill enjoyed by the other services. After finally being accepted to a 
college (though without GI education benefits), I had to forfeit that 
opportunity when, one week before classes started, my draft board 
threatened me with imprisonment if I did not report for either military 
or merchant marine duty. I returned to sea. Many other merchant marine 
veterans were similarly treated.
    During the war, Congress authorized substantial expenditures for 
Public Relations for our military services, but not for the Merchant 
Marine. Some of our Naval and military leadership refused to 
acknowledge that we even took part in the war!
    Some truth finally did come out--years after the end of the war--
that we, the merchant mariners, had suffered a far higher rate of 
casualties than did our military services: more than one in 25, 
compared to one in 32 for the Marine Corps, twice as high as the Army, 
three times that of the Navy, four times higher than the U.S. Army Air 
Corps. In all, some ten thousand merchant mariners were killed, and 
many more wounded.
    The number of ships lost was also staggering.

        <bullet>  In February 1942, 71 merchant ships sunk in the 
        Atlantic; 65 of them were sunk in American waters.
        <bullet>  We lost another 65 ships in March 1942, and 65 more 
        in April when the first U-boat was sunk.
        <bullet>  In December 1942, we lost yet another 61 ships 
        including 19 sailing in convoy.
        <bullet>  In March 1943, there were 105 sinkings, 72 in 
        convoys.
        <bullet>  In July 1943, for the first time, Allied construction 
        of merchant ships exceeded sinkings.

    In all, over a thousand United States merchant ships were lost.
    Was our contribution to the war effort effective? The people at 
home supported the war effort with their labor. We, the merchant 
mariners, brought home the raw materials they needed to build the tools 
for our military services to fight with. WE brought home the iron, 
aluminum, rubber, chemicals, and other materials from which trucks, 
tanks, aircraft, guns, bullets and bombs were made. WE delivered the 
finished goods to wherever our military leaders said they needed them. 
In fact, we delivered many times more weapons and military equipment 
than the enemy had.
    For comparison:

 
                                   The enemy had:       We delivered:
 
Tanks                                        52,000              227,000
Artillery                                   180,000              915,000
Mortars                                      73,000              658,000
Machine Guns                                674,000            4,744,000
Trucks                                      595,000            3,060,000
Aircraft (combat)                           146,000              417,000
Aircraft (training)                          28,000              103,000
Aircraft (transport)                          4,900               43,000
 


    Yet despite all of our accomplishments, our losses and our 
sacrifices, and despite some recognition by Congress, it still took 
orders from a Federal Judge (Oberdorfer), to get from our military 
leaders (Department of Defense) even partial, reluctant recognition of 
our services--and that not until 1988!
    Under this Bill, the earliest merchant mariner service date for the 
proposed benefit is December 7, 1941, even though both Congress and the 
President recognized earlier dates for our service. Public Law 87, 
passed by the 78th Congress in 1942, set May 1, 1940 as the earliest 
date for the Certificate of Substantially Continuous Service needed for 
these benefits. Our government has also awarded service ribbons to 
merchant mariners who served between September 9, 1939 and December 7, 
1941 (medals added later), such as the Conspicuous Service Medal, the 
Distinguished Ship Award, and the Mariners Medal.
    In fairness to those merchant mariners who served prior to December 
7, 1941, they and their survivors should also be recognized and 
compensated.
    On signing the ``GI Bill of Rights'' at the end of World War II, 
President Roosevelt regretted that the Merchant Mariners who had served 
so valiantly were not included, and he asked Congress to ``correct that 
oversight'' and welcome us home.
    I am now 82 years old (or young), and I--along with the remnant of 
other merchant mariner veterans who yet survive--am still waiting, more 
than 60 years later, for this Nation to welcome us home. This Bill 
provides modest compensation and long-awaited recognition.
            Respectfully submitted, Joseph Chomsky, Lt. Jg, United 
            States Maritime Service.

                                 <F-dash>
       Statement of Francis R. Coughlin, M.D., JD, New Canaan, CT
    Mr. Chairman, thank you and your Subcommittee for the opportunity 
to present our request for favorable consideration of H.R. 23 The 
Belated Thank You to the Merchant Mariners of World War II Act of 2005. 
As elderly men, we seek recognition and a delayed financial 
acknowledgement for service as young voluntary patriotic members of the 
United States Merchant Marine in time of war more than 60 years ago.
    Like the members of the Army, Navy, Marine Corps, Air Corps and 
Coast Guard who served ``in harm's way'' between December 7, 1941 and 
December 31, 1946--we who served in the United States Merchant Marine 
have been officially recognized in a limited way as veterans of World 
War II through legislation passed in 1988 and finally, in November 
1998. Those men who are alive and were as young as 17 years of age in 
December 1946--have now lived to be at least as old as 75 years of age. 
Those who were 17 years of age in December 1941--have now lived to be 
at least 80 years of age. Most of the members of the United States 
Merchant Marine were older than 17 years of age when they went to sea 
during World War II. Few 17-year-olds were able to be trained and 
perform the majority of duties aboard a ship, which served in that 
``bridge of ships carrying men and materiel from the arsenal of 
democracy to the far flung battle fronts of the world.''
    At 79 years of age, although I lost the power of my lower limbs 
last year and must rely upon a wheelchair or a walker, I consider 
myself fortunate to be alive. Most of my shipmates are now dead. We 
seek passage of H.R. 23 because it is to honor them and to honor the 
youthful patriotism, which was an almost universal characteristic of 
our country during the fight for survival of democracy, which we 
remember as World War II.
    How many of us can be left? In World War II, some 250,000 white and 
black men voluntarily served together in the United States Merchant 
Marine. Some six to eight thousand died who went to sea. Over 600 were 
prisoners of war. More than 700 ships were sunk. The United States 
Marines and the United States Merchant Mariners sustained the highest 
casualty rate of all of the services. Those Merchant Mariners who 
drowned, burned to death, froze to death, died of thirst in a lifeboat 
were all volunteers. They did not go to sea in chains or at the point 
of a gun--except for the guns and torpedoes of the U-Boats.
    Now, we who are alive ask you to make clear in the record that our 
country recognizes the role of the United States Merchant Mariners in 
World War II while there are veterans of this service who are still 
alive. Mr. Ian Allison is present today to speak for us and to answer 
your questions. I have added some pages to describe my own Merchant 
Marine experience in order to help you to understand who we were in 
World War II, who we became as we lived in our free country and who we 
are at this stage of our lives. Would we serve again in the United 
States Merchant Marine as we did in World War II? Yes!--without a 
moment's hesitation we would be glad to serve again in the same 
cheerful spirit that we did serve and that my son recently served in 
Army Military Intelligence in Iraq for a year. We ask that you endorse 
H.R. 23 better late than never!
    Thank you for your serious consideration of our appeal.

                                 ______
                                 
    Francis Coughlin had completed 1 year of pre-medical studies at 
Fordham College in New York City when he joined the United States 
Maritime Service. Because of severe nearsightedness (20/400 in both 
eyes) which required corrective lenses, he was turned down for 
enlistment in the Navy and the Army at age 17 and classified 4F in the 
draft at age 18. Like many of his friends, he chose to serve rather 
than remaining in the comfort of school and home in time of War.
    At the age of 18 years and 2 months, Francis Coughlin was sworn 
into the United States Maritime Service in New York City on April 12, 
1945. This was the date on which President Franklin D. Roosevelt died. 
On April 24, 1945, Francis Coughlin reported to the United States 
Maritime Service Training Station (USMSTS) at Sheepshead Bay, Brooklyn, 
New York for basic training as Steward's Mate 3rd Class. This rating 
was the lowest rating in the Steward's Department, and arguably, the 
lowest rating aboard ship.
    Sheepshead Bay USMSTS had 10,000 men serving at this location. The 
United States Maritime Service was fully racially integrated, all 
volunteer and advertised in print and on the radio as: ``A Federal 
Uniform Service under the authority of the War Shipping 
Administration.'' These words were said weekly on national radio in a 
recruiting program called ``It's Maritime!,'' which originated from 
Avalon Training Station on Santa Catalina Island, California. Captain 
John L. Beebe, USNR commanded Sheepshead Bay USMSTS, and other Naval 
Officers were prominent in the Senior Command. Trainees lived in 14 
barracks supervised by a junior officer of the Navy or the USMS and by 
non-commissioned officers. Trainees were subject to military 
discipline, which included ``Captain's Mast'' for disciplinary 
infractions. Trainees received routine classroom training in shipboard 
and lifeboat skills as well as the required military drill, marching in 
formation and the use of shipboard anti-submarine cannon.
    At the completion of 3 months of ``boot training,'' Francis 
Coughlin was selected for 5 months of training in Hospital Corps--
Purser School at Sheepshead Bay USMSTS and 1 month of experience at the 
United States Public Health Service Hospital in Stapleton, Staten 
Island, New York. Upon successful completion of this training to be the 
responsible medical person aboard ship, Francis Coughlin was sworn in 
as Warrant Ship's Clerk--Hospital Corps on December 24, 1945. On that 
date Francis Coughlin was assigned as the Purser-Pharmacist Officer 
aboard the S.S. Gideon Welles, a 7176-ton, 441-foot Liberty Ship with a 
Merchant Marine crew of 65 men and a United States Army Transport 
Service crew of 12 men commanded by two United States Army Captains. 
This ship was about to leave Baltimore, Maryland with an outgoing cargo 
of coal destined for Venice, Italy at the head of the Adriatic Sea. 
After traversing the Atlantic and the Mediterranean Sea, while steaming 
to Venice in the Adriatic Sea, the ship identified two floating mines 
in the seaway. These mines were reported to our United States Forces by 
radio. The mines were fired upon with rifles by our ship's officers in 
order to explode them and clear the seaway. (How many mines we 
successfully passed at night is, of course, unknown. However in 
November 1945 one United States Merchant ship was sunk by a mine in the 
Adriatic at Trieste, Italy with a United States Merchant Marine crew 
loss of life.)
    After unloading cargo in Venice, Italy where we met British Army 
troops, the S.S. Gideon Welles retraced our voyage, returning to 
Baltimore for refitting. On the return in the North Atlantic in late 
January of 1946 our ship encountered a rare North Atlantic winter 
hurricane. Over 3 to 4 days our 441-foot welded and riveted ship moved 
toward the Virginia capes in 60-foot waves rolling as much as 45 
degrees according to the shipboard clinometer.
    Francis Coughlin remained aboard the ship when it arrived in 
Baltimore, Maryland until March 17, 1946. At this time and after 
completing a year of service, Francis Coughlin received a ``Certificate 
of Substantially Continuous Service'' by direction of the United States 
Maritime Commission for service ``having commenced on April 12, 1945 
and terminated on April 12, 1946 within the meaning of the Rules and 
Regulations . . . [per] Public Law 87, 78th Congress (57 Stat. 162), as 
amended.'' (This certificate was dated November 14, 1947.) Francis 
Coughlin then returned to his pre-med course at Fordham College in New 
York City: without benefit of the ``GI Bill'' which provided free 
tuition, without F.H.A. loan benefits to veterans who wished to buy a 
home and start a family and--most stinging--Francis Coughlin and those 
who served voluntarily in World War II returned to civilian life 
without being able to call themselves ``Veterans of World War II'' 
until more than 40 to 50 years later when the title, at least, of 
``Veteran of World War II'' became available to us in 1988 thanks to a 
suit in a Federal District Court and in November 1998 thanks to a Bill 
introduced by Senator Trent Lott in the Senate and Congressman Lane 
Evans in the House of Representatives. In 1988 347 Representatives and 
73 Senators cosponsored the Bill, which was signed into law by 
President William Jefferson Clinton.
    Francis Coughlin graduated from Fordham College in 1948. He 
received the Doctor Of Medicine degree from Yale University School of 
Medicine in 1952 and the Master of Science (Surgery) from McGill 
University, Montreal in 1955. From 1952 to 1960 he did a General 
Surgical and then a Cardio-Thoracic Surgical Residency at McGill 
University, Harvard University and the Overholt Thoracic Clinic, 
Boston. At the Massachusetts General Hospital (MGM) in 1958 he 
participated in laboratory testing of a heart-lung machine and then 
assisted in the performance of the first 10 open heart operations at 
the MGH, using that pump-oxygenator. Subsequently, in 1960, Dr. 
Coughlin entered private practice of cardio-thoracic surgery in 
Connecticut. He has served as Clinical Associate Professor of Surgery 
at New York Medical College. In 1988 he completed law school, and he 
has received a law degree from Quinnipiac University School of Law.
    On October 1, 1992 Francis Coughlin, MD, JD testified before the 
House Subcommittee on Compensation, Pension and Insurance on H.R. 44--
The Merchant Mariners Fairness Act.
    Francis Coughlin, MD, JD has held numerous leadership roles in 
medicine and the law in Connecticut and New York including: Chief of 
Surgery, St. Joseph Hospital Medical Center (1970s); Vice-Chair, 
Connecticut State Commission on Medico-Legal Investigations (1990-
2002); President, Society of Medical Jurisprudence (1996-1998); 
President, Yale University School of Medicine Alumni Association (2001-
2003); trustee, Whiney/Cushing Medical Library of Yale University 
(2004-present).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

             Statement of William B. Flury, Eagel Point, OR

U.S. MERCHANT MARINE--WWII, LAST SURVIVOR OF THE SINKING OF THE SS JEAN 
                                NICOLET

    I was eighteen when I got assigned to the SS Jean Nicolet, a 
Liberty Ship built in Portland. It was my third trip to sea. I had 
tried to enlist in the regular military, but I have an eye problem and 
they classified me 4-F. Everybody I knew was in that war--including all 
my brothers. My dad had been in World War I. Our family always did what 
we could. I wanted to do my part also. I had to do somethin' so I 
joined the Merchant Marine.
    We shipped out of San Pedro, California in May 1944. Things were 
goin' pretty good till we got about 700 miles south of Ceylon. That's 
when the nightmare started.
    I was looking at the sky when the torpedo hit. I was shook up 
pretty good, but I ran up to my gun station. Later another torpedo hit. 
The Captain gave the order to abandon ship. There were 100 of us 
aboard--mostly Merchant mariners, some Navy Armed Guard, some Army guys 
and a few civilians.
    Not long after we got into the lifeboats, this Jap submarine 
surfaced and started shelling our ship. They turned their searchlights 
on and started scouring the water. We didn't know what they wanted 
until they got close and started hollerin' at us, `Hands up or we shoot 
you!' They had machine guns trained on us.
    They cut us with bayonets and knives, hit us with rifle butts and 
steel pipes, kicked us and yelled insults. They tore our lifejacket off 
us, jerked off any wristwatches, rings or dog tags we were wearing, and 
went through our pockets taking everything. They made us take off our 
shoes and strip to our skivvies, and tied our hands behind our backs.
    They shot one young man right off the bat. They hit him over the 
head with a heavy piece of pipe, then this Jap pulled out his pistol 
and shot him in the head and kicked his body overboard before he hit 
the deck. The Jap was laughing the whole time. He was only 17 and it 
was his first trip to sea.
    The Japs took Captain Nilsson, the radio operator, and Mr. O'Gara, 
a representative for the War Shipping Department, to the conning tower 
and shoved them below. None of us ever saw them again.
    Pretty soon they killed another young man. Richard Kean was from 
Ft. Klamath, Oregon. He was only 18 or 19. They bayoneted him in the 
stomach and while he was bent over in pain they hit him in the head 
with a rifle butt and kicked him over the side. He had his hands tied 
behind his back and couldn't possibly defend himself.
    The Japs had set up a gauntlet of about 10 to 15 men on the after 
deck. They would come and take our guys back one at a time. We were 
forced to run the gauntlet and were kicked, clubbed and beaten with 
steel pipes. If anyone survived, he was stabbed in the stomach by this 
huge Jap standing at the end with a bayonet. Then tossed overboard.
    After two or 3 hours of that torture, there were only about thirty 
of us left. Then I heard the air coming out of the sub's tanks and knew 
we were going to dive. I couldn't get my hands loose. It was a hell of 
a long ways to the surface, but I'm a good swimmer. I had been treading 
water for about an hour when this guy came along and cut me loose. He 
had a pocketknife he'd managed to hide. He and I helped some other guys 
get loose. It was really scary during the night. The sharks were 
getting some of the men.
    A PBY plane flew over and flashed a message that we would be picked 
up the next morning. Next morning we saw the ship coming to rescue us. 
It was the most beautiful sight we'd ever seen! We were picked up on 
July 4, 1944 by a British subchaser. They took us to a British 
hospital. We were put on a train and went all the way across India to 
Bombay where we caught an Army transport back home.
    A Naval officer gave a speech and told us we were an inspiration to 
American youth. They tell me I'm the only one left. Hard to believe! In 
October 1993, more than forty-nine years after this horrible 
experience, I was presented with the Prisoner of War Medal by the U.S. 
Government, also the International Prisoner of War Award from England. 
I've got two big reasons to celebrate the 4th of July. It's our 
Nation's birthday and the anniversary of the date I got rescued off 
that damned raft! I'm a hell of a good swimmer, but I sure got some 
help from somewhere else that time!
Note: Bill Flury was selected to represent the Merchant Marine veterans 
of WWII at the sixth and final regional Department of Defense 60th 
anniversary celebration of WWII. On August 28, 2005 in Vancouver, WA, 
Bill was honored on the stage with the other Service branch veteran 
representatives. He was pinned with the ``ruptured duck'' pin by the 
Governor of Oregon.
                                                  San Francisco, CA
                                                     April 12, 2007
Hon. Bob Filner,
Chairman,
House Veterans Affairs Committee,
335 Cannon House Office Building,
Washington, DC 20515

    Dear Mr. Chairman:

    My name is Captain Warren G. Leback and I am pleased to submit this 
brief in support of H.R. 23 Merchant Mariners.
    I am a Merchant Marine Combat Veteran of World War II and a 
graduate of the United States Merchant Marine Academy, Kings Point, NY. 
I joined the Liberty Ship ``Joseph McKenna'' in June 1942 as a Cadet 
Midshipman. During my time on her we participated in the support of 
Guadalcanal and Palau in the Caroline Islands. I was awarded a Merchant 
Marine Combat Medal for services at Guadalcanal. I continued my war 
service through November 1945 when as Chief Mate of Grace Line's 
``Santa Ana'' the ship was returned by the War Shipping Administration 
to Grace Line, it's owners. I continued to sail including Master until 
I joined Grace Line management. I have held senior management positions 
in Grace Line, Central Gulf Lines, SeaLand Service, El Paso LNG Company 
and most recently as President, First American Bulk Carrier Corporation 
completing 65 years in the Maritime Industry. I served as Deputy 
Maritime Administrator under President Reagan and Maritime 
Administrator under President George H.W. Bush. I hold United States 
Coast Guard Merchant Marine Master's License Any Ocean Any Tonnage 13th 
Issue having earned my first Master's License in 1947.
    I wish to offer my support of H.R. 23 Merchant Mariners which will 
provide a monthly pension for the surviving U.S. Merchant Mariners who 
served in the Merchant Marine from 1940 through 1945. I wish to point 
out the Merchant Mariners of World War II were not Draft Dodgers as has 
so often been characterized. When I joined the ``Joseph McKenna'' the 
Master was 72 and the Chief Engineer was also 72. They had come out of 
retirement and sailed during the early war years until the training 
program produced their replacements. I was 18 and only an Ordinary 
Seaman at 16 was younger.
    The Merchant Mariners of World War II served their country with 
loyalty and dedication. Records show that if their vessels were sunk 
and they survived, they shipped out on the next available vessel 
knowing full well they may be attacked and sunk again. It has been 
estimated that over 225,000 civilian merchant seamen manned the 5,000 
ships, saw war service and survived.
    We lost 624 ships and 6,845 seamen during World War II. The United 
States Merchant Marine Academy lost 142 Cadet Midshipmen due to enemy 
action.
    I wish to point out that when you paid off your ship, your wages 
ceased until you signed on another ship. No vacation time was accrued 
or paid. The World War II seaman had no pension benefits. It was 
however customary to pay the Masters and Chief Engineers a small 
pension on retirement if they had been long term employees of the 
company.
    Why pay the surviving World War II Merchant Mariner a pension at 
this time in his life? Consider the fact that the average age of those 
seamen who served from 1940 through 1945 is between 79 and 87. 
Certainly the pension as proposed in H.R. 23 Merchant Mariners would 
add to his quality of life.
    H.R. 23 Merchant Mariners has a cut off date as to who is eligible. 
It does not apply to service in subsequent wars. The industry has 
provided those Merchant Mariners coming into the industry commencing 
with the Korean War with pensions and benefits which provide for an 
acceptable quality of life upon retirement. The World War II Merchant 
Mariner war service was excluded from these benefits.
    What H.R. 23 Merchant Mariners will do is to provide a final 
recognition for those surviving World War II Merchant Mariners who with 
ruddy cheeks, dark locks and determined hearts sailed into harms way 
carrying war supplies and materials and more importantly our country's 
flag more than sixty (60) years ago.
    Gentlemen, your Committee can do no less than to vote H.R. 23 
Merchant Mariners out and on to the House floor for a positive vote.
    Thank you. I remain.
            Sincerely,
                                           Captain Warren G. Leback
                       World War II Merchant Mariner Combat Veteran
                                 ______
                                 
    I was privileged to serve the government on two (2) occasions.
    I was appointed Deputy Maritime Administrator, Maritime 
Administration, Department of Transportation by President Ronald Reagan 
in 1981 serving through January 1985.
    During my service as Deputy Maritime Administrator, the 
Administrator Admiral Harold Shear USN (Ret.) delegated the 
responsibilities of overseeing the inland waterways, ports and 
terminals, plus because of my background the Liquefied Natural Gas 
(LNG) American flag operators and their vessels.
    I worked closely with maritime labor including a roll back of wages 
and benefits to assist in making the American flag more competitive.
    I was delegated to oversee the workout of several title XI 
contracts which we negotiated a re-issue of the contracts at lower 
interest rates thus strengthening the companies and reducing the risk 
to the government. As an aside we could today use the format which we 
developed in 1984 covering title XI as the basis for the title XI 
program proposals today, i.e. provide flexibility to the government and 
owner to take advantage of interest rate fluctuation during the term of 
the bonds thus reducing the risk to the government.
    I was appointed Maritime Administrator, Maritime Administration 
Department of Transportation by President George H.W. Bush in 1989 
serving through January 1993.
    I headed the Maritime Delegations to renegotiate our Maritime 
Agreement with the Soviet Union, Peoples Republic of China, Ukraine, 
South Korea, Brazil and Japan. These negotiations laid the foundations 
to open China, South Korea and the Soviet Union to allowing U.S. flag 
operators equal rights intermodally with those of the country involved. 
This also applied to port operations. These negotiations laid the 
foundation for opening up particularly China and South Korea to 
American business.
    I oversaw the Ready Reserve Force controlled by MARAD and its 
deployment in the Gulf War. The force experienced delays in activation 
which was due to lack of funding operational plans, reserve of 
qualified crew members. This was corrected for future deployment. 
Annual funding was established, core maintenance crews employed. 
Maintenance procedures established and periodic testing of the system.
    Instituted a scrapping program covering the National Defense 
Reserve Fleet composed mainly of World War II and 1960 built obsolete 
vessels. The program was put on hold in 1993 because of environmental 
concerns.
    Directed the write off of those accounts payable held by MARAD but 
deemed non-collectible by reason of the companies involved were no 
longer in business. Disposed of title XI held vessels which were deemed 
non-competitive or would impact the industry if sold at unrealistic low 
prices.
    The highlights of both tours were to strengthen the industry and 
reduce risks to the government.
                                           Captain Warren G. Leback

                                 <F-dash>
                   Statement of Hon. Norman Y. Mineta
 (former Secretary of Transportation, 2001-2005, Secretary of Commerce,
     2000, and former Representative in Congress from the State of 
                         California, 1975-1996)

(H.R. 23 introduced in the 110th Congress by Bob Filner on January 4th, 
  2007), (S. 961 introduced in the Senate on March 22nd, 2007 by Ben 
 Nelson, along with Ted Stevens, and Sam Brownback. Identical to H.R. 
                                  23).

    Mr. Chairman,
    It gives me great pleasure to share with you some of my thoughts on 
this important legislation. As the former Secretary of Transportation, 
my duties included the oversight of our Nation's Maritime 
Administration which also involved the Ready Reserve Fleet and the 
United States Merchant Marine Academy--both institutions critical to 
the strategic security of the United States.
    Through my work with the Maritime Administration and the Academy, I 
have come to know and respect America's Merchant Marine and our 
Nation's mariners. No finer example could be given of their historical 
selfless service to our country than their great sacrifices during 
World War II.
    The organization ``American Merchant Marine at War'' provides 
concise and compelling evidence of the Merchant Marine vets in World 
War II. It is notable that 243 American merchant mariners were killed 
by the Axis Powers even before the attack on Pearl Harbor in December 
1941. Merchant Mariners (men and women) were among the first prisoners 
of war in Europe and Asia and throughout the war, many lost their lives 
in prison camps. Many more suffered the brutal conditions of forced 
labor and enslavement in enemy concentration camps.
    When World War II started, there were some 55,000 merchant 
mariners. With the need for thousands more mariners, the U.S. Maritime 
Service soon raised the ranks of mariners to more than 200,000. 
Proudly, the Merchant Marine was America's first racially integrated 
service.
    During World War II--as part of their sea training experience, 
thousands of cadet midshipmen from the United States Merchant Marine 
Academy served in all maritime theaters of war aboard hundreds of 
merchant vessels. 142 of these cadet midshipmen were killed in battle 
or in battle related actions, earning Kings Point the sole right to 
carry a ``Battle Standard'' for no other Federal service academy has 
ever sent its cadets or midshipmen into harms way resulting in loss of 
life.
    From the moment an American merchant ship left port in all theaters 
of war, it was subject to brutal attacks from the enemy. Together with 
their Navy guns crews, merchant mariners were assigned to battle 
stations on merchant vessels and fought the enemy from the sea or air. 
Merchant vessels actually successfully sank many enemy submarines and 
vessels and shot down numerous aircraft. In 1942, as a student, Cadet 
Midshipmen O'Hara from the U.S. Merchant Marine Academy was serving 
aboard the S.S. Stephen Hopkins when it was attacked by two German 
surface raiders. The crew of the Stephen Hopkins fought gallantly and 
sunk one of the raiders. Later, as the fight continued, the gun crew 
was killed in action. Cadet O'Hara continued to fight on and was able 
to fire the last five shells from his vessels guns resulting in the 
sinking of the second enemy ship. Sadly, he lost his life in this 
heroic action--but in the process, he saved many of his crew members.
    Merchant Mariners losses in World War II were staggering. More than 
1500 American Merchant vessels were sunk supporting the war effort. 
With 1 in 26 merchant mariners killed in action, the American Merchant 
Marine suffered a significantly higher casualty rate than any of 
America's services.
    Consider the words of Fleet Admiral Chester Nimitz when he said: 
``Our Navy, our Army and the aircraft of both would have been helpless 
to pound the enemy into defeat overseas had it not been for the steady 
stream of personnel and equipment brought by the ship's of our merchant 
marine.''
    The Commandant of the Marine Corps during the War, Lt. General 
Alexander A. Vandegrift, noted: ``The Merchant Marine participated in 
every landing operation by the Marine Corps during World War II--from 
Guadalcanal to Iwo Jima.''
    And finally, General MacArthur wrote, ``With us they have shared 
the heaviest enemy fire. I have ordered them off their ships and into 
fox holes when their ships became untenable targets of attack. At our 
side, they have suffered in bloodshed and in death. I hold no branch of 
service in higher esteem.''
    In 1944, the GI Bill of Rights was signed--a bill that recognized 
the sacrifices of the armed forces in World War II and provided 
lifetime benefits to help those who served during the War. 
Unfortunately, Merchant Mariners were not included in this legislation 
nor were their sacrifices recognized.
    It is a curious fact that in so many battles at sea where merchant 
mariners fought hand in hand with their Navy gun crews assigned to 
their merchant vessels--only the Navy crews received recognition and 
benefits from the GI Bill. Merchant Mariners wounded or killed in the 
very same action did not even receive recognition for their same 
sacrifices.
    When President Roosevelt signed the GI Bill, he noted--``I trust 
Congress will soon provide similar opportunities to members of the 
merchant marine who have risked their lives time and time again during 
the war for their country.''
    In fact, a ``Seaman's Bill of Rights'' was introduced in 1945 and 
1947. This Bill would have provided similar benefits to the GI Bill, 
including, various loan programs, funding for education, and disability 
benefits.'' This legislation was never enacted.
    H.R. 23 and its companion S. 961 offer America a unique opportunity 
to right a historical wrong--indeed to offer a ``belated thank you'' to 
those merchant mariners who served in World War II.
    America is a nation that endeavors to thank its citizens who have 
been called to serve their Nation but sometimes we have made mistakes 
in overlooking all those who have served. Clearly without the 
incredible service of America's Merchant Marine and the tens of 
thousands of mariners who sailed into harms way to deliver the 
equipment and supplies that won the war, America and the world might be 
a very different and dark place.
    Time is running short to finally thank the Merchant Mariners of 
World War II. Let us not squander this opportunity.
        Statement of National Association for Uniformed Services
    Chairman Filner, Ranking Member Buyer, and members of the 
Committee:
    On behalf of the nationwide membership of the National Association 
for Uniformed Services (NAUS), I am pleased to present our views on 
H.R. 23, the Belated Thank You to Merchant Mariners of World War II Act 
of 2007. We appreciate the opportunity to submit a statement concerning 
one of the injustices done to a group of men--the World War II Merchant 
Mariners--who bravely and honorably gave wartime service to their 
country.
    NAUS commends you for your strength of leadership in recognition of 
heroic service put forth during World War II by the thousands of young 
men who volunteered for service in the United States Merchant Marine. 
These forgotten heroes have struggled for more than six decades for 
acceptance among their military brethren and the public. And it is 
unthinkable that these brave men should be given a cold shoulder by the 
nation they proudly served.
    H.R. 23, the Belated Thank You to Merchant Mariners of World War II 
Act of 2007, would recognize the contribution made by the men and women 
who served in the United States Merchant Marine in World War II between 
the years 1941 and 1946. It would also provide a compensation of $1,000 
per month to balance a lifetime of ineligibility for veterans' benefits 
and provide those few surviving World War II mariners, whose average 
age today is 83, the status of ``veteran'' under the Social Security 
Act to give a small enhancement of that retirement benefit.
    Let us review a bit of history.
    In 1936, Franklin Roosevelt, the thirty-second President of the 
United States, urged Congress to pass the Merchant Marine Act to man 
and establish a shipping capability to be used for commerce during 
peacetime and converted for use by the Navy during wartime or national 
emergency.
    In a 1935 letter to Congress, Roosevelt wrote, ``. . . in the event 
of a major war in which the United States itself might be engaged, 
American flag ships are obviously needed not only for naval 
auxiliaries, but also for the maintenance of reasonable and necessary 
commercial intercourse with other nations. We should remember lessons 
learned in the last war.''
    In this congressional message the President further stated, ``If we 
are going to keep away from our shores the forces that have convulsed 
the Old World and now menace the New, the job will be done in large 
measure by the ships and the sailors of the Merchant Marine and by the 
working men who build the ships and supply them. If they fail, the 
whole effort fails. And earnest, hardworking Americans, who spend the 
best part of their lives providing for the security and happiness of 
those they love, know that precious security and happiness depend 
exactly on the success of that effort.''
    Passage of this Act proved prescient when in 1939 war broke out in 
Europe and American interests were threatened.
    With American entrance into the war on the horizon, President 
Roosevelt told the American people in 1941, ``Today, as never before in 
our history, our Merchant Marine is vital to our national welfare. I do 
not mean vital merely in the conventional sense that it makes an 
important contribution but in the stronger sense that it is a crucially 
decisive factor in our continued existence as a free people.''
    Immediately after Pearl Harbor, Merchant Marine activity was needed 
to carry out lend-lease to Britain, to fulfill the terms of the First 
Moscow Protocol, to move troops and supplies to all theaters of war, 
and to ship petroleum. In order to meet the worldwide needs for 
shipping, it became necessary to coordinate the existing private 
shipping facilities and to centralize Federal control over merchant 
shipping.
    The merchant fleet helped build up in the British Isles a 
tremendous arsenal of supplies during 1943 and early 1944 in 
preparation for the invasion of Europe. Huge convoys, some with as many 
as 167 ships, delivered the troops and supplies in shuttle service 
across the Atlantic.
    The invasion of Normandy on June 6, 1944, was the greatest sea-
borne invasion in history. At its head were 32 American merchant ships, 
many of which had previously suffered severe battle damage. These 32 
ships were charged with explosives and were sunk off the beachhead in 
order to form a breakwater for subsequent landing of supplies. 
Following this, 10 oceangoing tugboats, operated by the Merchant 
Marine, towed the famous artificial ports into position, thereby making 
possible the quick landing of tanks, guns, supplies, and heavy 
equipment necessary to hold and expand the beachhead.
    Under the Merchant Marine Act and in a 5-year period from 1941 to 
1946, America built nearly 3,000 Liberty Ships--emergency steel cargo 
vessels with a cargo capacity of approximately 10,000 dead-weight tons 
each--and the number of mariners grew from 55,000 to between 215,000 
and 250,000 mariners and seamen.
    In effect, these men and their ships were responsible for 
transporting the vast majority of overseas military cargo, including 
military and civilian personnel and supplies, to war zone destinations.
    Many of these mariners were recruited specifically to staff ships 
under the control and direction of the United States Government to 
assist the World War II effort. These seamen were subject to government 
control; their vessels were controlled by the government under the 
authority of the War Shipping Administration and, like other branches 
of military service, they traveled under sealed orders and were subject 
to the Code of Military Justice.
    Some volunteers joined the Merchant Marine because minor physical 
problems, such as poor eyesight, made them ineligible for regular 
service in the Army, Navy, or Marine Corps. Others were encouraged by 
military recruiters to volunteer for service in the Merchant Marine 
because the special skills offered by these volunteers could best be 
put to use for our country by service in the Merchant Marine. Most 
important, all were motivated by their deep love of country and 
personal sense of patriotism to contribute to the war effort.
    The wartime movement of supplies and the troops was much more than 
a simple ocean cruise. It was hard work and dangerous.
    Members of the Merchant Marine served on ships that engaged the 
enemy, lost their ships because of enemy action, were physically 
wounded or disabled as a result of enemy action, became prisoners of 
war, and served in combat and war zones under threat of attack by enemy 
air or submarine.
    And a cadre of American merchant seamen participated in a number of 
perilous World War II invasions, including the invasions of Normandy, 
Sicily and the Philippines.
    As members of the Committee know, the Atlantic Ocean was alive with 
German submarines at the start of the war, traveling in ``wolf packs,'' 
ready to sink transport of critical supplies of oil, raw materials and 
food to England and Russia.
    Early in the war, German U-boats sank two of every 12 ships that 
left U.S. ports. In 1942, losses to the merchant fleet equaled 39 
percent of new ship construction in that year. With more successful 
counter to enemy submarines, this ratio was reduced to 11 percent in 
1943, to less than 8 percent in 1944, and to only 4 percent in 1945.
    During the war period, it is reported that more than 8,000 merchant 
seamen lost their lives or were declared missing in action, and an 
additional 609 merchant seamen became prisoners of war. An estimated 
731 vessels were sunk with another 40 ships and crews lost without a 
trace.
    At the conclusion of the war, Merchant Marine vessels played 
another important role returning home the huge number of armed 
personnel from overseas. Over 3,500,000 men were brought home from 
overseas areas. And after the war ended, they carried food and medicine 
to millions of the world's starving people.
    Regarding the service of the Merchant Marine, Gen. Dwight D. 
Eisenhower, on National Maritime Day, 1945, said, ``The officers and 
men of the Merchant Marine, by their devotion to duty in the face of 
enemy action, as well as natural dangers of the sea, have brought us 
the tools to finish the job. Their contribution to final victory will 
be long remembered.''
    And in the Pacific theatre, Gen. Douglas MacArthur said, ``I wish 
to commend to you the valor of the merchant seamen participating with 
us in the liberation of the Philippines. With us they have shared the 
heaviest enemy fire. On this island I have ordered them off their ships 
and into foxholes when their ships became untenable targets of attack. 
At our side they have suffered in bloodshed and in death. The caliber 
of efficiency and the courage they displayed in their part of the 
invasion of the Philippines marked their conduct throughout the entire 
campaign in the southwest Pacific area. They have contributed 
tremendously to our success. I hold no branch in higher esteem than the 
Merchant Marine services.''
    Mr. Chairman, the National Association for Uniformed Services 
believes that it is now time for the United States to recognize 
properly these individuals for their exceptional contribution and 
strength of effort. They helped preserve the freedoms we enjoy today.
    We ask Congress to support those now almost-ancient mariners whose 
heroic contribution as members of the ocean-going Merchant Mariners 
struggled to help secure the American victory in World War II. On 
behalf of a grateful nation, we urge you to extend these benefits to 
those once young men who went to sea as crewmembers of the Merchant 
Marine during World War II.
    We note that Canada recently approved a tax-free compensation 
package for its Merchant Navy veterans and surviving spouses. Our 
northern neighbor provides between $5,000 and $24,000 in lump-sum 
payments to eligible Canadian mariners who served during the First and 
Second World Wars and the Korean war.
    Mr. Chairman, we thank you and the members of this Committee for 
the progress you are making, and we look forward to working with you to 
ensure that a grateful nation will protect, strengthen, and improve 
veterans' benefits and services.
    Again, NAUS appreciates the opportunity to present a statement on 
this matter.

                                 <F-dash>
             Statement of the Honorable E. Benjamin Nelson
           a United States Senator from the State of Nebraska
    Mr. Chairman, I would like to thank you for this hearing on the 
``Belated Thank You to the Merchant Marines of World War II Act of 
2007''--S. 961.
    I would also like to recognize your tireless efforts, Mr. Chairman, 
on behalf of the Merchant Mariners to provide them with the recognition 
and benefits they clearly earned and deserve.
    I am honored today to also be testifying with a true American 
patriot, and fellow Cornhusker, Mr. Bert Young, a veteran of the 
Merchant Mariners. Without Mr. Young's efforts, there would be no bill 
to compensate the selfless sacrifice and service of the Merchant 
Mariners.
    Mr. Chairman, and members of the Committee, as you well know, World 
War II United States Merchant Mariners bravely served alongside 
America's military. Inspired by patriotism, despite the harshest of 
battle conditions, and at great risk to their personal safety, the 
Merchant Mariners proudly dedicated themselves to supporting the 
missions and completing their duty to our country, without fanfare. 
These brave men volunteered for an essential effort during a time of 
war, which eventually would help lead to victory. Unfortunately, for 
over 40 years, our Nation has refused to acknowledge their 
contributions and sacrifices.
    World War II Merchant Mariners suffered a higher casualty rate than 
any of the branches of service while they delivered troops, tanks, 
food, airplanes, fuel and other necessary supplies to every theater of 
the war. Soldiers on the frontlines would not have been able to 
complete their missions if the Merchant Mariners hadn't braved 
dangerous waters and delivered the means to do so. The Merchant 
Mariners provided critical logistical support to the war effort and 
have been recognized in the Oxford Companion to World War II as one of 
the most significant contributions made by any nation to victory in 
World War II.
    The United States would not have won the war without the United 
States Merchant Mariners. Period.
    During every invasion from Normandy to Okinawa, they were there. In 
the most dangerous of waters, in the face of threats and attacks from 
submarines, mines, armed raiders, destroyers, aircraft, and the 
elements, the Merchant Mariners were there.
    Though the numbers of the Merchant Mariners were small, their risk 
of dying during service was extremely high. Enemy forces sank over 800 
Merchant Mariner ships between 1941 and 1944 alone. About 9,300 
Mariners were killed, 11,000 were wounded, and 663 were taken prisoner.
    At the end of the war, one out of every 26 Merchant Mariners 
serving aboard merchant ships in World War II died in the line of duty, 
the highest casualty rate of any branch of the service.
    Merchant Mariners casualties were kept secret during the War to 
keep information about their success from the enemy and to attract and 
keep mariners at sea. Unfortunately, to this day, 60 years after the 
end of World War II, the Merchant Marine remains the forgotten service.
    Despite their service in support of the war effort, this country 
has dealt this class of World War II veterans a great disservice. They 
were denied benefits under the 1945 GI Bill of Rights--benefits granted 
to all those who equally admirably served in the Army, Navy, Marine 
Corps, Air Force or Coast Guard. Only the US Merchant Marine was 
excluded.
    Yet as these images illustrate, Merchant Mariners were recruited 
much like other branches of service and were regarded as vital service 
members to the war effort. One recruitment poster calls on mariners to 
``Man the Victory Fleet.'' Another with a mariner behind the stern 
says, ``Let's Finish the Job.'' And the last in capital letters asks 
mariners to be a ship's OFFICER in the US Merchant Marine.
    Upon signing the GI Bill on June 22, 1944, President Franklin D. 
Roosevelt said, ``I trust Congress will soon provide similar 
opportunities to members of the Merchant Marine who have risked their 
lives time and time again during war for the welfare of their 
country.''
    In 1988, the Merchant Mariners did finally receive a ``watered down 
bill of rights.'' But some portions of the GI Bill have never been made 
available to veterans of the Merchant Marine.
    No education benefits were available to Merchant Mariners. No low-
interest home loans. No lifetime compensation for war-related injuries 
and disabilities. No use of VA hospitals. No priority for local, state, 
and Federal jobs. No Social Security credit for wartime service.
    While it is impossible to make up for over 40 years of unpaid 
benefits, I am proposing a bill that will acknowledge the service of 
the veterans of the Merchant Marine and offer some compensation for 
their service in World War II.
    S. 961, the Belated Thank You to the Merchant Mariners of World War 
II Act of 2007, would pay each eligible veteran or their widow, a 
monthly benefit of $1000, tax free. Their average age is 83. Many have 
outlived their savings. This bill would provide a small amount of 
compensation for those who risked their lives to contribute to our 
success in World War II, only to be forgotten. I urge my colleagues to 
join with me in cosponsoring this bill.
    There is overwhelming, bipartisan support for this bill. At last 
count, the bill had 14 cosponsors. The version of this bill which I 
introduced during the 109th Congress had 41 cosponsors in the Senate. 
Chairman Filner's version of the bill, H.R. 23, currently has 96 co-
sponsors. During the last Congress, his bill had 269 co-sponsors.
    Those that fought and lived during World War II have been duly 
labeled as the ``Greatest Generation.'' The 230,000 strong force of 
Merchant Mariners are surely part of the Greatest Generation and we owe 
them a tremendous debt. For the 9,500 still living, we can never make 
up for years lost, but we can address the injustice by recognizing 
their contributions and by passing S. 961 this year.

                                 <F-dash>
         Statement of Daniel Horodysky, Chief Executive Officer
                     U.S. Maritime Service Veterans
    My name is Daniel Horodysky. I am the chief executive officer of 
the U.S. Maritime Service Veterans. The U.S. Maritime Service (USMS) 
was the official U.S. Government training organization of the U.S. 
Merchant Marine (USMM) under the Merchant Marine Act 1936. The U.S. 
Maritime Service is the Unknown Service.
    Training began in 1938 much before World War II started. It was 
because of the wisdom of President Franklin D. Roosevelt based on his 
experience in World War I when he was Assistant U.S. Navy Secretary in 
charge of convoys to Britain, and the growing threat of Germany under 
Hitler in the 1930's. If it were not for FDR's preparation we may not 
be having this Hearing.
    The most important battle of WWII was the Battle of the Atlantic. 
If that were lost Hitler may have been successful in the planned 
invasion of Great Britain, the British and its Commonwealth countries' 
Navies would have been neutralized AND there would have been no D-Day!
    The winners and losers of the Battle of the Atlantic were the 
mariners of the U.S. Merchant Marine and Merchant Navies of Great 
Britain, Canada, Australia, and many others. These brave mariners kept 
going despite the tremendous losses of personnel, vessels, and 
cargoes--www.usmm.org/casualty.html--Think about that.
    The USMS and the USMM were the ONLY integrated WWII Armed Forces! 
Word went out in African-American communities that young men, as 
myself, were lured into the USMS and USMM by the patriotic spirit 
pounded out by radio, newspaper ads, recruiting buses, posters such as 
Join the Fighting Merchant Marine, and by word of mouth. There were 37 
USMS recruiting stations. However, in addition, all the U.S. Navy (USN) 
and U.S. Coast Guard (USCG) recruiting sent innocent, gullible young 
men to the USMS, telling them to take that training and that their 
service was needed in the USMM. Many thousands took that advice. See 
www.usmm.org/usms.html and www.usmm.org/training.html USN and USCG 
officers and men trained us in apprentice and advanced positions, 
gunnery, etc. A USN Captain was the Superintendent of the huge 
Sheepshead Bay, N.Y. Training Station. We marched and drilled in 
uniforms as in any USN or USCG training station.
    Little did we realize at the time that we were deceived, lied to, 
and screwed by the government!
    We have been and may still be defeated again by our insidious 
enemy--IGNORANCE.

                                 <F-dash>
                     U.S. Merchant Marine Academy Alumni Foundation
                                             Kings Point, NY, 11024
                                                        May 8, 2007
Hon. Robert Filner Chairman
Veterans' Affairs Committee
United States House of Representatives
335 Cannon HOB
Washington, DC 20515

    Dear Mr. Chairman:

    On behalf of the more than 20,000 alumni of the United States 
Merchant Marine Academy (sometimes referred to as Kings Point), I would 
like to thank you for your introduction of and strong support for H.R. 
23, the ``Belated Thank You to the Merchant Mariners of World War II 
Act of 2007.'' As we have since you first introduced similar 
legislation several years ago, the U.S. Merchant Marine Academy Alumni 
Foundation strongly supports this legislation and would ask for its 
timely passage in the Congress.
    The courage and commitment to duty displayed by Merchant Mariners 
during World War II frequently goes unrecognized. These brave men 
risked life and limb constantly to ensure that critical war supplies 
reached their destination. In fulfilling their duty, Merchant Mariners 
took casualties at a rate second only to the U.S. Marine Corps in 
numbers. They braved German and Japanese submarines, aircraft and other 
hazards to ensure that critical supply lines remained open.
    This bravery is not simply of historical interest to the U.S. 
Merchant Marine Academy and to all Kings Pointers. All of our wartime 
graduates braved the hazards as part of their academy training and 142 
undergraduates were killed during war serving their country.
    We as Kings Pointers believe that this Nation is long overdue in 
recognizing the importance and the role that these brave men played in 
our Nation's victory over tyranny. The provisions of H.R. 23 are a 
small price for this Nation to pay to say thank you to these brave men 
who gave so much for all of us. Therefore, we would hope that with your 
support, an early mark-up could be scheduled that will lead to passage 
of H.R. 23 at the earliest possible opportunity.

            Respectfully,

                                                Eugene F. McCormick
                              President and Chief Executive Officer
          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD
    Questions from Hon. Bob Filner, Chairman, Committee on Veterans'
  Affairs, to Hon. R. James Nicholson, Secretary, U.S. Department of 
                            Veterans Affairs

                                     Committee on Veterans' Affairs
                                                     Washington, DC
                                                     April 30, 2007

Honorable R. James Nicholson
Secretary
U.S. Department of Veterans Affairs
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Full Committee hearing on H.R. 23, the Belated 
Thank You to the Merchant Mariners of WWII Act of 2007 on April 18, 
2007, I would appreciate it if you could answer the enclosed hearing 
questions by the close of business on June 8, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

                               __________

    Question 1: The Deputy Director of Education Service in VBA has 
stated that, ``no social program did more positive for the future of 
this country than the original GI Bill--it really placed people in a 
position where they could become significant contributing members of 
society.'' (MOAA Today's Officer, April 2007.) Please provide the 
valuation of the GI Bill to the participating service Member if used to 
its full potential, listing the value of each benefit component 
separately.

    Response: The World War II era GI Bill granted individuals a 
monthly subsistence allowance with additional allowances for 
dependents. Limits were set on the combined VA subsistence allowance 
and earnings of single individuals.
    VA paid a maximum of $500 a year for tuition, books, fees, and 
other training costs. If an individual elected to have VA pay more than 
$500, the entitlement charge was 1 day for each $2.10 paid. Individuals 
were entitled to up to 48 months of education benefits for a maximum of 
$2,000.

    Question 2: Please provide the number of remaining veterans for 
each of the groups receiving conferred veteran status pursuant to P.L. 
95-202/38 C.F.R. 3.7(x). If the precise remaining number is 
unavailable, please provide an estimate of the original number of these 
individuals (for each group) that was deemed to have participated in 
active military service.

    Response: This information is not available from VA. There are 
currently 33 groups identified under 38 C.F.R. 3.7(x) as having 
performed active military service. VA confirms veteran status for 
individuals from these groups if they apply for VA benefits, but VA 
does not maintain statistics on the various organizations in which they 
served.

    Question 3: VA suggests that this bill would create $234.1 million 
of additional benefit cost in the first fiscal year and an additional 
benefit cost of $1.4 billion over 10 years.

    a.  What was the number of beneficiaries used to calculate these 
estimates?
    b.  Please provide individual figures for WWII merchant mariners 
and surviving spouses.
    c.  Please explain your methodology to arrive at these figures.

    Response: In 1941, there were 55,000 merchant mariners with the 
average age of 35. However, by 2008, this group would have an average 
age of 102. With mortality rates from the Centers for Disease Control 
and Prevention (CDC) applied, we estimated that no one from this 
population would be alive to receive this benefit. In 1945, there was a 
second population of 160,000 additional merchant mariners with the 
average age of 25. Mortality rates from CDC were applied to estimate 
the remaining population of merchant mariners. We then assumed 50 
percent of this population or 13,620 persons in 2008 would apply for 
the new benefit of $1,000 per month.
    In order to calculate the number of spouses who would be eligible 
for the benefit, we assumed 50 percent of the eligible mariners were 
married. We assume 50 percent of this population would apply. We also 
assumed the spouse was the same age as the veteran and similarly 
applied standard mortality rates to estimate the number of eligible 
spouses of veterans who have already died, as well as the number of 
spouses from prospective mariner deaths. Due to the age of the merchant 
mariners from 1941, and the age of their spouses, we assumed that this 
first group would not have surviving spouses alive to receive benefits. 
We also assumed that there are no children eligible for the new benefit 
due to age. The surviving spouse caseload, calculated to be 5,890 in 
2008, was totaled and then multiplied by $12,000 for each year to 
estimate the total cost of the benefit. We assume an effective date of 
October 1, 2007.

    Question 4: Many of the witnesses during the hearing testified that 
merchant mariners were subject to the Military Justice System and 
indicated that at least 80 were court-martialed. In previous statements 
before this Committee, VA contradicts this fact.

    a.  What was your source of data for your agency's views of 
November 28, 2005, that merchant mariners ``were not subject to the 
military justice system''?
    b.  Please confirm whether merchant mariners were subject to the 
Military Justice System.

    Response: Merchant mariners generally are not within the classes of 
persons identified in 10 U.S.C.  802 as being subject to the Uniform 
Code of Military Justice (UCMJ). However, 10 U.S.C.  802(a)(10) 
provides that the UCMJ applies ``[I]n time of declared war or a 
contingency operation,'' to ``persons serving with or accompanying an 
armed force in the field.'' Pursuant to that provision, the Department 
of Defense has acknowledged that ``[t]hose who were serving with the 
U.S. Armed Forces [in time of war] may have been treated as if they 
were military and subjected to court-martial jurisdiction to maintain 
discipline.'' 32 C.F.R.  47.4(b)(1)(v). Accordingly, it appears that 
some merchant mariners may have been subject to the UCMJ to the extent 
they were serving with or accompanying an armed force in the field 
during time of war.

    Question 5: In your testimony you explain that, ``H.R. 23 would 
create what is essentially a service pension. . . .''

    a.  Please indicate what veterans' benefits pursuant to the GI Bill 
of 1944 that veterans of WWII were/are entitled to receive and on what 
basis.

    Response: Regarding education benefits, an individual must have 
served at least 90 days on active duty (or less if discharged for a 
service incurred disability) between September 16, 1940, and July 25, 
1947. An individual was entitled to 1 year of full-time training plus 
periods equal to the time on active duty, up to a maximum of 48 months. 
The delimiting date was 9 years after the end of the war, July 25, 
1947, or 9 years after release from World War II active duty, whichever 
was earlier. Individuals must have entered training by the later of 4 
years after discharge or July 25, 1951, and completed training by July 
25, 1956, the final cutoff date (except that individuals who first 
enlisted or re-enlisted for active duty entered between October 6, 
1945, and October 6, 1946, were given 9 years following discharge there 
from to complete training).

    b.  Please indicate what veterans' benefits the merchant mariners 
of WWII were/are eligible to receive and on what basis.

    Response: Merchant Mariners of WWII were granted veteran status in 
1988 when the Secretary of Defense certified that Merchant Mariner 
service in the oceangoing service between December 7, 1941, and August 
15, 1945, constituted active military service for VA benefit purposes. 
However, Merchant Mariners were not entitled to GI Bill benefits based 
on World War II service because the delimiting date for using such 
benefits was July 25, 1956.

    c.  Please provide a valuation estimate of the difference in 
benefits received between these two groups.

    Response: VA does not have information available to calculate the 
total amount of GI Bill or other benefits paid to veterans of World War 
II between 1945 and 1988.

                                 <all>

</pre></body></html>
